<html>
<title> - THE SOCIAL SECURITY ADMINISTRATION'S EMPLOYMENT SUPPORT PROGRAMS FOR DISABILITY BENEFICIARIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  THE SOCIAL SECURITY ADMINISTRATION'S 
                      EMPLOYMENT SUPPORT PROGRAMS 
                      FOR DISABILITY BENEFICIARIES 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2009

                               __________

                           Serial No. 111-21

                               __________

         Printed for the use of the Committee on Ways and Means


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-995 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       DAVE CAMP, Michigan
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM MCDERMOTT, Washington            SAM JOHNSON, Texas
JOHN LEWIS, Georgia                  KEVIN BRADY, Texas
RICHARD E. NEAL, Massachusetts       PAUL RYAN, Wisconsin
MICHAEL R. MCNULTY, New York         ERIC CANTOR, Virginia
JOHN S. TANNER, Tennessee            JOHN LINDER, Georgia
XAVIER BECERRA, California           DEVIN NUNES, California
LLOYD DOGGETT, Texas                 PATRICK J. TIBERI, Ohio
EARL POMEROY, North Dakota           GINNY BROWN-WAITE, Florida
MIKE THOMPSON, California            GEOFF DAVIS, Kentucky
JOHN B. LARSON, Connecticut          DAVID G. REICHERT, Washington
EARL BLUMENAUER, Oregon              CHARLES W. BOUSTANY, JR., 
RON KIND, Wisconsin                  Louisiana
BILL PASCRELL JR., New Jersey        DEAN HELLER, Nevada
SHELLEY BERKLEY, Nevada              PETER J. ROSKAM, Illinois
JOSEPH CROWLEY, New York
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama
DANNY K. DAVIS, Illinois
BOB ETHERIDGE, North Carolina
LINDA T. SANCHEZ, California
BRIAN HIGGINS, New York
JOHN A. YARMUTH, Kentucky

             Janice Mays, Chief Counsel and Staff Director

                   Jon Traub, Minority Staff Director

                                 ______

                    Subcommittee on Social Security

                  JOHN S. TANNER, Tennessee, Chairman

EARL POMEROY, North Dakota           SAM JOHNSON, Texas, Ranking Member
ALLYSON Y. SCHWARTZ, Pennsylvania    KEVIN BRADY, Texas
XAVIER BECERRA, California           PATRICK J. TIBERI, Ohio
LLOYD DOGGETT, Texas                 GINNY BROWN-WAITE, Florida
RON KIND, Wisconsin                  DAVID G. REICHERT, Washington
JOSEPH CROWLEY, New York
LINDA T. SANCHEZ, California
JOHN A. YARMUTH, Kentucky

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

















                            C O N T E N T S

                               __________

                                                                   Page

Advisory of May 12, 2009, announcing the hearing.................     2

                               WITNESSES

Bobbie Christensen, Ticket to Work program Participant, Mesa, 
  Arizona........................................................    10
Robin Clark, Ticket to Work program Participant, Largo, Florida..     6
Sue Suter, Associate Commissioner for Employment Support 
  Programs, Social Security Administration.......................    13
Cheryl Bates-Harris, Senior Disability Advocacy Specialist, 
  National Disability Rights Network, on behalf of the Consortium 
  for Citizens with Disabilities Employment and Training Task 
  Force and Social Security Task Force...........................    21
Susan Webb, President and Co-founder, National Employment Network 
  Association, Avondale, Arizona.................................    29
Thomas P. Golden, President, National Association of Benefits and 
  Work Incentives Specialists....................................    34
Bruce Growick, Associate Professor of Rehabilitation Services, 
  The Ohio State University College of Education, Columbus, Ohio.    41
John Kregel, Center Associate Director and Director of Research, 
  Virginia Commonwealth University, Rehabilitation Research and 
  Training Center on Workplace Supports and Job Retention, 
  Richmond, Virginia.............................................    44

                       SUBMISSIONS FOR THE RECORD

American Network of Community Options and Resources, statement...    60
Austin Area Mental Health Consumer, statement....................    64
Barbara Barbin, letter...........................................    65
Brenda Peterson, statement.......................................    65
Council of State Administrators of Vocational Rehabilitation, 
  statement......................................................    66
Diana Bell, statement............................................    69
Don C. Kandlbinder, statement....................................    70
Don Fitch, Center for Career Freedom, statement..................    70
Francoise Frigola, statement.....................................    72
Health and Disability Advocates, statement.......................    72
Joann Barnes, statement..........................................    76
Joe Hennen, statement............................................    76
Joe Ramirez-Forcier, Positive Resource Center, statement.........    79
John M. Connelly and Joseph Dunn, Ohio Rehabilitation Services 
  Commission, statement..........................................    79
John Riley, statement............................................    81
Kenneth McGill, statement........................................    82
Laura L. Dawson, statement.......................................    83
Linda Landry, statement..........................................    85
Marion Moore, statement..........................................    89
Paralyzed Veterans of America, statement.........................    90
Paula Vieillet, Employment Options, statement....................    91
Peter Kierpiec, statement........................................    93
Randall Bosin, statement.........................................    95
Robert Wittmer, statement........................................    96
Stephen J. Mitchell, Unum and Lara Heal, statement...............    96
Victor Quibas, statement.........................................    99


                  THE SOCIAL SECURITY ADMINISTRATION'S
                      EMPLOYMENT SUPPORT PROGRAMS
                      FOR DISABILITY BENEFICIARIES

                              ----------                              


                         TUESDAY, MAY 19, 2009

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
Room 1100, Longworth House Office Building, Hon. John S. Tanner 
(Chairman of the Subcommittee), presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                CONTACT: (202) 225-9263
FOR IMMEDIATE RELEASE
May 12, 2009

               Congressman Tanner Announces a Hearing on

            the Social Security Administration's Employment

             Support Programs for Disability Beneficiaries

    Congressman John S. Tanner (D-TN), Chairman, Subcommittee on Social 
Security, today announced a hearing on the Social Security 
Administration's (SSA's) employment support programs for disability 
beneficiaries, including the Ticket to Work program. The hearing will 
take place on Tuesday, May 19, 2009, in the main Committee hearing 
room, 1100 Longworth House Office Building, beginning at 2:00 p.m.
      

    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.

      

BACKGROUND:

      

    The Social Security disability program provides essential income 
security for millions of Americans who are unable to work due to 
significant disabilities or disabling illnesses. However, SSA also has 
an array of policies and programs designed to facilitate the employment 
efforts of those beneficiaries who are able to attempt to work despite 
their impairments.

      
    SSA's employment support programs have a number of components. For 
decades, the Social Security Act has included work incentive policies 
that are designed to allow beneficiaries to test their capacity to 
sustain work, and to provide a transition period between benefit 
receipt and employment.

      
    In 1999, Congress passed Public Law 106-170, the Ticket to Work and 
Work Incentives Improvement Act (Ticket to Work Act), with the goal of 
further strengthening employment supports for Social Security 
disability beneficiaries. This legislation established a number of new 
programs and policies.

      
    A central component of the legislation was the Ticket to Work and 
Self-Sufficiency program (Ticket to Work program), a program to expand 
choice in vocational rehabilitation providers. Under this program, SSA 
provides eligible beneficiaries with a ``ticket'' that can be used to 
obtain employment services from a provider participating in the 
program. These providers are referred to as Employment Networks (ENs), 
and they include State Vocational Rehabilitation agencies as well as 
other private and public (non-Federal) providers of employment support 
services. Participation in the Ticket to Work program is voluntary for 
the beneficiary and for the provider, and payments to ENs are tied to 
employment outcomes.

      
    The Ticket to Work program was fully implemented nationwide in 
2004, but the participation rate for both ENs and beneficiaries was 
lower than expected for the first several years after implementation. 
To improve the program and increase participation, SSA issued new 
regulations effective July 2008, and has significantly increased 
outreach and marketing. The results of the Ticket program have been 
closely monitored by an external evaluator, and a rigorous evaluation 
of the revised program is ongoing.

    The Ticket to Work Act also authorized two programs now known as 
the Work Incentive Planning and Assistance (WIPA) program and the 
Protection and Advocacy for Beneficiaries of Social Security (PABSS) 
program. Under the WIPA program, SSA funds community-based 
organizations to assist beneficiaries in understanding SSA's complex 
work incentives policies and the effect of working on their benefits. 
Under the PABSS program, SSA funds protection and advocacy systems to 
provide advocacy services to help beneficiaries secure, maintain, or 
regain employment. The authorization for both programs will expire on 
September 30, 2009.
      
    SSA is also developing or conducting several demonstration projects 
to test new work incentive policies for Social Security disability 
beneficiaries, including a sliding scale benefit reduction. However, 
because SSA's demonstration authority for disability insurance 
beneficiaries expired in December 2005, SSA can continue demonstrations 
already initiated, but cannot begin new projects. Reports issued by the 
Government Accountability Office in 2004 and 2008 raised concerns about 
SSA's management of its demonstration projects and made recommendations 
for ways to strengthen their planning and implementation.
      
    In addition, an April 2009 report by the SSA Inspector General 
found that SSA was not acting quickly enough to terminate the benefits 
of disability beneficiaries who lose eligibility because they have 
returned to work. This has been a longstanding concern. Past testimony 
before the Subcommittee has reported that former beneficiaries have 
been overpaid tens of thousands of dollars due to SSA's delays in 
terminating benefits, even if beneficiaries have informed the Agency 
that they are working. The threat of receiving large overpayments which 
must later be repaid can be a significant work disincentive for 
disability beneficiaries. In addition, the failure to terminate 
benefits in a timely way increases costs to the Social Security Trust 
Fund, as overpaid funds may not be completely recovered.
      
    In announcing the hearing, Chairman Tanner said, ``Social Security 
beneficiaries who strive to return to work despite severe disabilities 
face many barriers. In 1999, Congress passed the Ticket to Work Act to 
make their path easier. We look forward to learning more about how 
Social Security's employment support programs are working and how we 
can make them even more efficient and effective. We will also examine 
the continued payment of benefits to individuals who have returned to 
work, the hardships these overpayments create for the individual, and 
the negative effect such payments have on the Social Security system.''
      

FOCUS OF THE HEARING:

      
    This hearing will assess the impact of SSA's recent efforts to 
improve the Ticket to Work program. The hearing will also examine the 
implementation and effectiveness of the WIPA and PABSS programs, delays 
in processing reports of earnings 
by disability beneficiaries, and SSA's plan to strengthen its demonstrat
ion authority.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://democrats.waysandmeans.house.gov, 
select ``Committee Hearings.'' Select the hearing for which you would 
like to submit, and click on the link entitled, ``Click here to provide 
a submission for the record.'' Once you have followed the online 
instructions, complete all informational forms and click ``submit'' on 
the final page. ATTACH your submission as a Word or WordPerfect 
document, in compliance with the formatting requirements listed below, 
by close of business Tuesday, June 2, 2009. Finally, please note that 
due to the change in House mail policy, the U.S. Capitol Police will 
refuse sealed-package deliveries to all House Office Buildings. For 
questions, or if you encounter technical problems, please call (202) 
225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman TANNER. If we could come to order, I just got a 
buzzer. The best laid plans of mice and men. We are going to 
have three votes in about 15 to 30 minutes. So we will try to 
go ahead and get started so we can--probably have to suspend 
for a few minutes, if you will allow that.
    But I thank all of you for being here, to the Social 
Security Subcommittee hearing today, which will focus on 
employment support programs for disability beneficiaries, the 
results thereof. We want to talk about the implementation of 
the marketing efforts that SSA has undertaken to help people 
get back into the workforce who so desire and who are able to 
accomplish that fact. And we also want to touch on the 
continuing disability review procedures.
    I want to thank our Ranking Member, Mr. Johnson, and other 
Members of the Subcommittee who are here today, and talk just a 
minute about the programs here, the Ticket to Work Act that was 
adopted by Congress in 1999 to try to help people who were on 
disability gain gainful employment in the workforce, should 
they be able to do so. And it was disappointing, in the least, 
in that it failed to--in the initial stages--to attract the 
kind of significant participation from both the employment 
services providers and beneficiaries.
    And so, last year the Social Security Administration issued 
some changes that show some promise. And we want to focus on 
those today and see if there are other things that we can do, 
as a Subcommittee, to help with this program. We are going to 
focus in that regard on the PABSS and WIPA programs that 
provide advocacy and personalized assistance with work 
incentives to help beneficiaries who want to go back into the 
workforce.
    These programs--the authorization of these programs, will 
expire at the end of this fiscal year, and we want to use this 
hearing as a groundwork to see what we need to do in that 
regard, and we also want to look at the overpayment situation 
from beneficiaries who have returned to the workforce, yet 
still are receiving disability benefits. They are a burden on 
those people who so receive, and of course it results in 
inadequate funding to the Social Security Administration.
    We have some very stimulating testimony to hear today. And 
with that, I would like to turn it over to Mr. Johnson for any 
comments you might have. Mr. Johnson.
    Mr. JOHNSON. Thank you, Mr. Chairman. Looks like you 
misjudged that vote.
    Chairman TANNER. I know it.
    Mr. JOHNSON. Or they did. As the Chairman indicated, this 
Act was implemented in 1999. What we wanted to do was try to 
get people back to work. And thanks to many, Social Security 
assembled, piece by piece, a new ticket to work, to issue 
tickets and pay for services available to over 10 million 
people receiving benefits. They've worked to educate those 
receiving benefits and the public about the program, recruited 
new service providers, known as employment networks, and 
developed and implemented new program rules.
    By September of 2004, when the program was fully phased in, 
over 11 million tickets had been issued and all State 
vocational rehabilitation agencies and 1,300 employment 
networks were enrolled in the program. Unfortunately, these 
achievements were followed by serious setbacks. Congress 
anticipated the new programs would need to be adjusted, and 
provided the commissioner the authority to make the fixes along 
the way.
    But Social Security's ability to find problems and 
implement solutions has been slow. For example, new program 
regulations initially proposed in 2005 were met with broad 
praise, but took more than 3 years before finally being put 
into place. Even molasses would be embarrassed if it moved that 
slow.
    [Laughter.]
    Mr. JOHNSON. This delay took the wind out of the sails of 
the Ticket program. Employment networks withdrew, recruitment 
of new networks stalled, and concerns that the program wasn't 
working spread.
    In addition, real choice of service and who provides the 
service has barely materialized. As of December 2005, less than 
one-half of the 1,300 employment networks had accepted a ticket 
to provide services, and 88 percent of the tickets used were 
assigned to State vocational rehabilitation agencies under the 
traditional system in place before the program was created.
    Most importantly, in a report issued last summer, Social 
Security's Office of the Inspector General found that in fiscal 
year 2005 Social Security made a payment for services resulting 
in work for 3,800 of the 10 million who had received a ticket, 
or less than one-tenth of 1 percent. The report concluded that 
``implementation of the Ticket program did not appear to 
increase the percentage of disabled beneficiaries who returned 
to work, nor realize the outcomes and savings envisioned by the 
Congress.''
    Put simply, we were spending money and not getting any 
results. Last week, we learned Social Security's looming 
insolvency is worse. And in just 11 years, there won't be 
enough payroll tax to pay full disability benefits. At the same 
time, the American people face unacceptable delays when they 
visit or contact a local Social Security office, call the 800 
number or wait over 16 months for a decision on their 
disability appeal before an administrative law judge.
    Now, more than ever, how every taxpayer dollar is spent 
matters. Programs that don't achieve results must be fixed, or 
they ought to end. Fortunately, we are beginning to see 
promising signs of success in the Ticket program, since new 
regulations were implemented last summer. And our witnesses on 
the first panel will remind us of the positive impact the 
Ticket program can have when it works.
    The question we need to answer today is, can we get the 
Ticket program to achieve the results Congress and the 
taxpayers expect, and those with disabilities deserve? Thank 
you, Mr. Chairman.
    Chairman TANNER. Thank you, Mr. Johnson. The Chairman would 
ask unanimous consent that all Members who wish to insert an 
opening statement in the record be allowed to do so without 
objection.
    And what I think we can do--we have 15 minutes, and we have 
these two witnesses, Ms. Clark and Ms. Christensen. I would ask 
you, if you could, to hold your oral testimony to 5 minutes. We 
will, of course, accept--without objection, any statements you 
may wish to put into the record will be happily received. But I 
think that we can have their testimony before we have to go 
vote, and then we can move swiftly when we get through voting 
to come back and reconvene.
    So, Ms. Clark, we are delighted to have you here today, and 
you are recognized.

 STATEMENT OF ROBIN CLARK, TICKET TO WORK PROGRAM PARTICIPANT, 
                         LARGO, FLORIDA

    Ms. CLARK. All right. Thank you, Mr. Chairman, and Members 
of the Subcommittee. Like you said, my name is Robin Clark, and 
I am a participant of the Ticket to Work program. And thank you 
for inviting me here today.
    I remember panic, anxiety, fear, and the realization that 
my nursing career was over. In the middle of a night shift 
working with a mother about to give birth, the doctor was 
present, the baby's head was beginning to crown, and then came 
flashes of memory: The feeling of terror, physically sick, 
unable to breathe, panic, and the intense need to escape.
    I excused myself from the room, walked to the nurse's desk, 
requested another nurse be sent to assist in the delivery. 
There must have been something in my voice or my manner. I only 
remember knowing that a nurse went into the room. Knowing that 
my patient was cared for, I walked outside and rapidly 
progressed from shaking to crying to sobbing. I have no memory 
of how I got home that night. The last night I worked as a 
labor and delivery nurse was on October 27, 1998.
    I am a registered nurse, and also have a bachelor's degree 
in education. As a registered nurse, I was trained to care for 
others. Somewhere along the line, I forgot to care for myself. 
That night was a culmination of years of developing physical 
and emotional stresses that I never dealt with, trying to 
continue to do a job that I was really unable to do at that 
point.
    I had multiple diagnoses of depression, anxiety panic 
disorder, post-traumatic stress disorder. And, at that time, 
due to medication and other issues, my weight had escalated to 
425 pounds. I am sure I don't have to review all the list of 
back and other medical conditions and co-morbidities that went 
along with that. I couldn't stand for more than 5 minutes, I 
couldn't walk. I couldn't do basic household chores to care for 
my family, shop, or anything like that, not to mention panic-
anxiety attacks when I went out in public.
    Suicide for me often seemed to be the only option. My 
mind's image of my life at that time is best described as a 
long, deep black hole with sporadic tree branches. I was 
falling at a rapid rate of descent. I was dying. Initially, 
just free-falling, and then, with help, I reached out and 
grabbed onto a branch, stopping the fall.
    I remember thinking, somewhere along the line, as I did 
start to feel better, that I did still have a brain, and that I 
was capable of learning. I had proved that before. In June 
2002, I received a letter from Social Security Administration, 
informing me of this new program, the Ticket to Work. My 
ticket--originally, I was contacted with a confirmation letter 
and never heard from the Agency again.
    Then, in 2003 I was notified that my ticket had been 
reassigned. At that point, I contacted Paula Vieillet at 
Employment Options, and made an appointment to work with her. I 
was embarrassed when I made that appointment because here I 
was, with two degrees, a supportive husband and a family. Why 
am I in this situation? I shouldn't be here.
    I worked with Paula, and learned to write resumes. You 
would think, as a professional, I would have been better at 
writing resumes, but no, I wasn't, because after I got my first 
nursing job, I never interviewed for another job, because 
recruiters came to me. I had a specialty certification, and I 
was known in my community as a good nurse.
    My first job attempt was in July 2002, as a home health 
nurse, but I was unable to stand long enough to do the more 
complex treatments. I worked with Paula, who was very 
encouraging. The techniques that she had which helped was she 
had a book that she wrote, which was teaching people in their 
rights in the job, in the Americans with Disabilities Act, that 
I didn't have to disclose my disability, but that I had to 
define and redefine what--a job I was able to do. She taught me 
on interview skills. She coached me on techniques such as, you 
know, making the followup phone calls afterward, guidelines for 
dressing.
    Most of all, what I received from Paula was if I didn't get 
a job offer I still had worth as a person, realizing that, with 
each job, I was gaining, you know, new skills.
    I had taken a position with a substance abuse treatment 
facility doing utilization management. It was low-paying for 
what nurse salaries go, but again, I wanted to work. The stairs 
there were an issue. There was supposed to be an elevator, but 
there was no elevator that ever worked. Eventually, I did end 
up leaving that position because they also eliminated the 
utilization management department.
    Then, in February 2005, I started working for a company 
that did computer Medicaid in-patient reviews. That was 
something I could do. I progressed from there. Today I am 200 
pounds lighter, and I work as a nurse, doing telephonic medical 
case management for Medicaid and Medicare members, which is 
interesting. Lots of times, when my members are ready to return 
to work--I have plenty that are on disability--I try to refer 
them to vocational rehab and a Ticket to Work program.
    I would like to thank you for this opportunity to tell my 
story, as this month I have been off of cash benefits for 5 
years. I received the cash benefits for 5 years. I have been 
off for 5 years. And this month I graduate from the Ticket to 
Work program. Thank you.
    [The prepared statement of Ms. Clark follows:]
                   Prepared Statement of Robin Clark,
           Ticket to Work Program Participant, Largo, Florida
    Mr. Chairman and Members of the Subcommittee, my name is Robin 
Clark. I am a participant in the Ticket to Work program. Thank you for 
inviting me here today.
    I remember panic, anxiety, fear, and the realization my nursing 
career was over. I was in the middle of a night shift working with a 
mother about to give birth, the doctor was present, the baby's head was 
beginning to crown, and then came the flashes of memory: The feeling of 
terror, physically sick, unable to breathe, panic, and the intense need 
to escape. I excused myself from the room, walked to the nurse's desk, 
requested another nurse be sent to assist in the delivery. There must 
have been something in my voice or my manner, I only remember knowing a 
nurse went into the room. Knowing my patient was cared for I walked 
outside and rapidly progressed from shaking, to crying, to sobbing. I 
have no memory of how I got home that night, as much of my life at that 
time is overshadowed by the illness. The last night I worked as a labor 
and delivery nurse was October 27, 1998.
    I am a registered nurse and also have a bachelor's degree in 
education. As a registered nurse, I was trained to care for others. 
Somewhere, I forgot to care for me. That last night culminated in years 
of treatment for depression and multiple physical conditions. I was 
hospitalized for depression, unable to find medication with side 
effects with which I could live or work. They affected my memory. I had 
tremors, headaches, body aches, visual changes and over a 5 year period 
I gained 125 pounds. It was no longer fair to my family, my co-workers 
nor my patients to ignore. So in 1998 I took a medical leave from my 
job and in March 1999 filed a claim for Social Security disability 
benefits.
    I was diagnosed with clinical depression, anxiety/panic disorder, 
post traumatic stress disorder and my weight had reached 425 pounds. My 
many co-morbidity's included sleep apnea, a fatty liver, elevated liver 
enzymes, diabetes, severe degenerative disc disease, facet syndrome, 
bone spurs in both thoracic and lumbar regions, spondylolisthesis and 
spinal stenosis. Translation . . . physically there was constant pain; 
I could not stand for more than 5 minutes at a time, shortness of 
breath, could not shop for even the basics, most all daily activities 
had to be adapted to sitting down. This by the way is how I had 
continued to work as long as I did in a highly physical job, adapting 
and choosing assignments when I could. I had trouble walking to the 
mail box. I became housebound, retreating into a deep depression. I had 
worked since the age of 14 years, that is what you do, you work. I had 
worked as a nurse since 1979, 19 years. At that point I think I was in 
bed for 6 months, paralyzed by pain and depression, rapidly becoming 
agoraphobic. If I would try to attend a normal event like go to a 
school open house, I could not. If physically I was able to get into 
the building, I would have to leave when an anxiety attack would take 
over. Suicide often seemed to be my only option. My minds image of my 
life at that time is best described as a long, deep, black hole with 
sporadic tree branches--I was falling at a rapid rate of descent, I was 
dying. Initially just free falling. Then, with help--I reached out and 
grabbed onto a branch. Stopping the fall.
    Medications, psychologist, psychiatrist, medical doctors, priest, 
family and prayer, all lifesaving tools. I began to feel better. I 
remembered I had a brain and was capable of learning. Just because the 
body could not work in familiar nursing or education positions, I began 
to think about exploring my options. First I got involved with a 
volunteer position at church and assisted in the opening of a pregnancy 
crisis center.
    In June 2002 I received a letter from the Social Security 
Administration informing me of this new program called the Ticket to 
Work. I was assigned to an agency that other than a confirmation letter 
never met with me. In March 2003 I was notified my ``Ticket'' had been 
reassigned. I contacted Paula Vieillet at Employment Options making an 
appointment to meet. She explained the program and encouraged me to 
work with her. I was embarrassed as here I was with two degrees, a 
supportive husband and family. I should not be in this situation.
    Working with Paula involved learning to write resumes. I had 
minimal experience with resumes because after I got my first nursing 
job I never applied for other jobs, the recruiters came to me. I had a 
specialty certification and colleagues in my community knew I was a 
good nurse. My first job attempt, July 2002, was as a home health nurse 
but I was unable to stand long enough to do the more complex treatments 
and left after 2 months. In June 2003, I interviewed and received a 
position at a substance abuse treatment facility doing utilization 
management chart reviews. A major barrier to this job was my office was 
on the second floor and the elevator was always broken. The pay was low 
as nursing salaries go, $14 per hour, and as it became more difficult 
to climb the stairs, thankfully, the company eliminated the utilization 
management department.
    Paula was very encouraging as we continued exploring the job 
market. I was looking at case management positions, a job title with 
many interpretations and surprisingly difficult to get a position in 
without ``experience.'' Paula worked with me on interview skills, post 
interview techniques, guidelines for dressing and most of all if I did 
not receive a job offer to realize--I still had worth as a person. The 
encouragement and support provided along the way perhaps was the most 
useful to myself: Realizing with each job I was gaining new skills.
    In February 2005, I went to work for a company doing inpatient 
medical reviews for the State of Florida Medicaid program. This was a 
computer-based company, this I could do! I used my 20-plus years of 
nursing knowledge while developing more skills. I became proficient in 
the company's computer program and processes. When awarded a new 
commercial contract a manager requested I join her case management 
team. I had worked for 2 years when I received a diagnosis of cancer 
which required I take a medical leave for surgery and radiation 
therapy. One of my fears was how will this effect my ability to 
continue working. I did return and, after being back for a few months, 
was recruited by a larger company with a large and developing case 
management department. The money was $12,000 more a year with equal 
benefits. A difficult decision, as I felt a certain amount of loyalty 
to a company that had given me my first real opportunity at re-entry 
into the workforce. However, the professional opportunity was one I 
needed to explore.
    Today, I am 200 pounds lighter, I work as a nurse doing telephonic 
complex medical case management with Medicaid and Medicare members and 
plan to take the national exam for certification in case management 
this year. I have been in my current position for 18 months, serve on 
the Policy and Procedure committee, orient new nurses, requested to be 
in the first group implementing a new computer program and recently was 
asked if I would be interested in applying for a management position 
within our case management department. I do continue to suffer from 
chronic pain and continue to have physical limitations but have 
progressed to where I can now walk for 30 minutes, in fact I can walk a 
mile. I can do grocery shopping, housework and actually can go to the 
mall. I volunteer at my church and I am the catechist for the youth 
group. Recently I was able to go to Washington State to help my 
daughter and her husband with the birth of their second child. Three 
years ago this would not have been possible, 10 years ago unthinkable.
    The Ticket to Work program offered me a way back to work, a way 
back to my life. Not losing benefits while trying to find the correct 
job helped me make the attempts, as the loss of benefits was a real 
concern. My case worker with Social Security, Ms. Fitchpatrick, was 
another great resource, answering my questions and confirming the 
details about this program. In my current position I occasionally have 
the opportunity to recommend the Ticket To Work program to my Medicare 
members on SSDI when exploring their readiness for re-entering the 
workforce. An offer of choice, an offer of hope.
    Thank you for this opportunity to tell my story as this month my 
ticket expires.

                                 <F-dash>

    Chairman TANNER. Thank you, Ms. Clark. May I apologize in 
advance, Ms. Christensen? We don't have time. We have to go 
vote. They have this unreasonable expectation that, no matter 
what you are doing, you are supposed to come vote.
    So, if you will allow, we will go vote, and we should be 
back within maybe 20, 25 minutes, hopefully. We will stand in 
recess.
    [Recess.]
    Chairman TANNER. If we might come back to order, the good 
news is those were the last votes of the day, so we won't 
impose that on the witnesses or our guests today.
    So, Ms. Clark, thank you very much for your testimony.
    And, Ms. Christensen, you are recognized.

    STATEMENT OF BOBBIE CHRISTENSEN, TICKET TO WORK PROGRAM 
                   PARTICIPANT, MESA, ARIZONA

    Ms. CHRISTENSEN. Thank you for inviting me today, Mr. 
Chairman. My name is Bobbie Christensen. I was born with 
Cerebral Palsy. Cerebral Palsy, as you can tell, affects me 
specifically in my speech and it slows down all my physical 
movements. It affects everybody who has Cerebral Palsy in 
different ways.
    I have been a Ticket to Work consumer for about 6 years. I 
moved to Arizona from Colorado because I fell in love with my 
fiance, at that time, and he, unfortunately, passed away in a 
motor vehicle accident in December of 2001. That caused me to 
go through some major depression at that point. And the job I 
had at that point I lost because of the depression I was in.
    About 6 months after that, my parents came down to assist 
me and help me figure out what I wanted to do. And I decided 
that I liked Arizona, and I wanted to stay there. So I decided 
to pull myself up by my bootstraps and get an apartment.
    And, from that point, I called Arizona Bridge to 
Independent Living, asked them if they had a bus trainer. The 
first thing I did was get bus-trained, so I could get around. 
The second thing I did was contact Susan Webb at Arizona Bridge 
to Independent Living, employment division. She then assisted 
me in several interviews. About, I would say, a year into the 
process, she helped me get an interview with the State of 
Arizona. They also helped me prepare with the test to become a 
program evaluator. I eventually landed the job. I have been 
there for about 6 years now.
    But about the third year into that process I was having 
some physical issues because of my Cerebral Palsy. And without 
the Ticket to Work program, I would not be able to afford the 
medical that I would need to continue to work. That is very 
important, even now, to still remain in my position, because 
without the attendant care that I receive now, I would not be 
able to work a full-time job.
    So--and my goal is to stay off of State assistance, as long 
as I can. And hopefully that will be forever.
    Access is a very important part of the whole entire 
program. And because of that, we need to keep this system 
going. And hopefully, a lot more people will be willing to do 
the program. Thank you very much.
    Currently, I am married to a wonderful gentleman who was 
actually my bus trainer when I got bus-trained. And I am fully 
able to support myself on my job. Thanks to Susan and thanks to 
the Ticket to Work program, I have been off Social Security 
disability assistance also since 2001.
    So thank you very much for giving me this opportunity. And 
if you have any questions, please ask.
    [The prepared statement of Ms. Christensen follows:]
               Prepared Statement of Bobbie Christensen,
           Ticket to Work Program Participant, Mesa, Arizona
    Mr. Chairman, Members of the Subcommittee, my name is Bobbi 
Christensen. I am a participant in the Ticket to Work program. Thank 
you for inviting me here today.
    I was born with Cerebral Palsy. Each person with CP has different 
challenges. For me, my muscle movements are slow, including my speech, 
so it takes me longer to do things. It is fair to say, however, that my 
physical limitations are pretty significant. But having my disability 
since birth, it is just a part of who I am. I just do what needs to be 
done, including working.
    I worked as a clerical assistant in the Sheriff's Office in Boulder 
County, CO for 8 years. During that time I also attended Front Range 
Community College. I earned an Associates Degree as a Paralegal 
Assistant and another in Computer Science.
    I met a wonderful man, fell in love, and we decided to get married. 
He worked in Arizona so I moved there to be with him. Life seemed 
perfect until my fiance was killed in a car accident. I was so 
depressed I lost my job and became homeless.
    After 2 years I contacted the local Center for Independent Living, 
Arizona Bridge to Independent Living. I told them I needed help with 
learning the bus system and finding a job. It turns out that ABIL is an 
employment network under the Ticket to Work program.
    I have participated in the Ticket to Work program for 6 years. ABIL 
helped me with job searching. They had a relationship with the Human 
Resource Manager for the State of Arizona Department of Economic 
Security. DES was hiring about 100 Eligibility Interviewers at the 
time. ABIL helped me with the rather complicated application process, 
including providing me with a book to study in preparation for an exam 
I needed to pass to be considered for the job.
    Just as important as helping me get the job in the first place is 
the availability of post-employment services. There have been several 
occasions when I needed help with accommodations, including a transfer 
from one office to another and evaluating my work station to identify 
solutions to some of the problems I was having with the way things were 
arranged.
    In addition to direct employment services, it is a real advantage 
that I can keep my State health care coverage (called AHCCCS in 
Arizona). I need attendant care, and even though I have great insurance 
coverage for medical, it doesn't provide the attendant care. Without 
that I would not be able to work.
    Life is good for me again. Along the way, I met and married my best 
friend, Scott. We have been married for 4 years.
    My original intent for returning to work after 2 years of 
depression was because I had no one else to depend on for support. What 
I discovered, however, is that returning to work actually helped pull 
me out of the depression. The Ticket to Work program gave me that 
opportunity.
    I really hope many other people with disabilities can find their 
way to this program and achieve the success in their life that I have 
in mine.
    Once again, thank you for the opportunity to share my story. I'd be 
happy to answer any questions.

                                 <F-dash>

    Chairman TANNER. Well, thank you very much, Ms. 
Christensen, and also Ms. Clark. Your testimony is truly 
inspiring, and gives, I think, hope to those who may wish to 
join the Ticket program in the future. And we certainly 
appreciate you being here and telling us of the benefits that 
the program has afforded you, and hopefully thousands of others 
in the future, as we try to help those people who are capable 
of working and who desire to work to do so. It is truly an 
inspirational story that you both have, and we thank you for 
sharing it with us.
    Mr. Johnson, do you have a question?
    Mr. JOHNSON. No, thank you, Mr. Chairman. I just want to 
echo what has been said. Thank you both for your testimony. It 
was moving. We appreciate you all working the system for us--
for America, really. Thank you.
    Chairman TANNER. Mr. Pomeroy is recognized.
    Mr. POMEROY. Thank you, Mr. Chairman. I want to join my 
colleague, Congressman Johnson, in saying what an inspirational 
panel. Each of you, thank you very much for your testimony.
    It strikes me that the worst thing we can do, in the effort 
to try and help people, is to essentially force them away from 
their inclinations toward independence, force them to work on 
being dependant and disabled in order to continue to receive 
essential security.
    I believe we have, in some instances, inadvertently crushed 
the spirit out of people to make certain their benefits weren't 
jeopardized. You want to have some--I think any one of us, we 
want to dwell on why we can't move forward? You know, we could 
pretty well convince ourselves we can't move forward. And the 
Ticket to Work changes all that dynamic.
    And so, we have people with the heart and the guts that you 
have shown, each of you outstanding witnesses. You can reach 
independence, and we are going to help you every step of the 
way. And everybody is better off, at the end of it.
    I am disappointed with the numbers, ultimately, that we 
have been able to reach through this program. I don't think we 
have--I had much bigger hopes for this program. And I don't 
quite understand why it has not been more of a tool for people 
getting back to work. And I will be--and that is part of my own 
education that I need to achieve.
    But, bottom line, your testimonies let me know that, for 
those who want to, and are determined, you have a program that 
can help get you independence without sacrificing everything as 
you take the first steps down that road. So, congratulations.
    And thank you, Mr. Chairman. I yield back.
    Chairman TANNER. Ms. Brown-Waite, you are recognized.
    Ms. BROWN-WAITE. Thank you very much, Mr. Chairman.
    I read your testimony last night. I had some constituents 
here, so I wasn't actually here for your presentation. But 
certainly you two are perfect examples of why we need to have 
this program up and operating, and operating well. And my 
district is just a little bit north of Largo, Ms. Clark. I 
don't go down that far, but I call that the wealthy district. 
But it's a beautiful, beautiful area.
    And I am so delighted that, as a nurse, you were able to 
return, not to the traditional nursing duties, but other 
necessary nursing work. My youngest daughter is a nurse, and I 
have often wondered if anything happened to her, how she could 
transition into something like this. Thankfully, you are a 
great role model, and I really appreciate the fact that you 
have the--what they call the old-fashioned work ethic, and my 
hat is off to both of you.
    Thank you, Mr. Chairman.
    Chairman TANNER. Thank you. Mr. Yarmuth, do you care to be 
recognized?
    Mr. YARMUTH. Thank you, Mr. Chairman. All I can say is that 
I congratulate you on your successes, and thank you for sharing 
your stories with us. I can't think of a more compelling case 
for this program than you both have made.
    And I would also just reflect for a second that this is one 
example of a number of programs across government where we 
actually have a very, very cost-effective program that returns 
many, many times its investment back to society and, of course, 
in this case, provides an incredibly important human benefit, 
as well.
    So, I commend you both, again, for your successes, and 
thank you for being here. Thank you, Mr. Chairman.
    Chairman TANNER. Well, thank you both very much. I think 
you can tell from the comments of the Members that your 
testimony has been both inspirational and effective. Thank you 
for being here. We now will excuse you all. We have a second 
panel. So, thank you so much.
    Our second panel will be Ms. Sue Suter, from SSA; Ms. 
Cheryl Bates-Harris, on behalf of the Consortium for Citizens 
with Disabilities; Ms. Susan Webb, National Employment Network 
Association; Thomas P. Golden, President, National Association 
of Benefits and Work Incentives Specialists; Dr. Bruce Growick, 
the Ohio State University, Columbus, Ohio; and Dr. John Kregel, 
Virginia Commonwealth University in Richmond.
    If you all could please take your seats, I have a statement 
for the record here that Mr. Astrue, the Commissioner of Social 
Security, has asked me to provide. And that is a commendation 
for Sue Suter for her public service.
    [Applause.]
    Chairman TANNER. She has been a dedicated advocate for 
people, it says, for decades. But as young as she looks, that 
has to be a typo. But she has been--significantly contributed 
to the Ticket to Work program and Social Security's efforts to 
expand its return to work initiatives, as well as many other 
endeavors. So thank you very much for your service, Ms. Suter.
    And without any other interventions, Ms. Suter, I have you 
first on our list to be recognized. Thank you for being here, 
and congratulations on your commendation.

 STATEMENT OF SUE SUTER, ASSOCIATE COMMISSIONER FOR EMPLOYMENT 
        SUPPORT PROGRAMS, SOCIAL SECURITY ADMINISTRATION

    Ms. SUTER. And thank you for taking the time to do that. 
That was very nice.
    Mr. Chairman and Members of the Subcommittee, my name is 
Sue Suter, and I am the Associate Commissioner for Social 
Security's Office of Employment Support Programs. I have spent 
much of my life working with individuals with disabilities to 
obtain and retain meaningful work, and I thank you for the 
opportunity to discuss our efforts to assist beneficiaries 
returning to work.
    Encouraging beneficiaries to return to work has been a part 
of our disability program since its beginning. Both Title I and 
Title XVI of the Social Security Act include comprehensive work 
incentive policies designed to foster return to work. Thanks in 
large part to the Subcommittee's leadership, Congress passed 
the Ticket to Work and Work Incentives Improvement Act of 1999. 
Today I will discuss several programs established by the Ticket 
Act and briefly discuss the effect of work on benefits.
    Congress established the Ticket program to expand the 
universe of service providers, and to provide beneficiaries 
choices in obtaining the services and supports they need to 
find, enter, and maintain employment. Beneficiaries' employment 
networks and State Vocational Rehabilitation (VR) agencies 
voluntarily participate in the program.
    Under the Ticket program, we issue a ticket to 
beneficiaries who then have the option of using the ticket to 
obtain services from an employment network or EN, or from a 
State VR agency. Upon agreement with the beneficiary, the EN 
may supply various employment support services. When the 
beneficiary achieves certain work outcomes, we pay the 
provider.
    Our early experience showed that the Ticket program did not 
meet our expectations. In response, we published several 
revised regulations that we believed would significantly 
enhance access to, and choice of services for beneficiaries 
which would, in turn, improve the likelihood that the 
beneficiary would return to work. These regulations became 
effective last July.
    Specifically, the revised regulations increase payment 
rates to ENs, providing an incentive necessary to increase 
their participation, and allowing more people to use EN 
services. The regulations also encourage better coordination of 
services provided by State VR agencies and ENs.
    I am pleased to say that in the 11 months since the new 
rules became effective, early data show promising trends in the 
number of new EN contracts, the number of people using ENs, and 
the number of individuals entering the workforce.
    The Ticket Act also created two grant programs to 
supplement the assistance available at our field offices, and 
to help our beneficiaries understand the work incentive rules--
Work Incentive Planning and Assistance (WIPA), and Protection 
and Advocacy for Beneficiaries of Social Security (PABSS) 
grants. Through our grants to organizations with ties to the 
disability community at the local level, these programs provide 
an alternative to the help available at our local field 
offices. This help includes disseminating information on Social 
Security work incentives, and providing advice on VR and other 
employment services.
    Unless Congress re-authorizes these programs, funding for 
the WIPA program will end on March 31, 2010, and funding for 
the PABSS program will end on November 30, 2009.
    The Ticket Act also granted Social Security authority to 
conduct demonstration projects to test how certain changes in 
the program would affect beneficiary work activity. Our 
authority to initiate projects under this provision ended in 
December 2005.
    However, we have several projects initiated prior to that 
date now underway. We expect these demonstration projects to 
yield valuable insight on factors such as providing enhanced 
rehabilitation services, and health care to individuals with 
disabilities.
    Finally, I would like to discuss the relationship between 
our return-to-work efforts and our continuing disability review 
process. To help protect the long-term health of the disability 
program, we strive to pay disability benefits only to eligible 
persons.
    Toward the end, we periodically conduct continuing 
disability reviews to determine whether an individual still 
qualifies for disability benefits. We initiate a work CDR when 
a beneficiary voluntarily reports he or she is working, when a 
third party reports a beneficiary is working, or when wages are 
posted to an earnings record. Beneficiaries who demonstrate an 
ability to work, in spite of their medical impairment, may no 
longer continue to qualify for benefits.
    We may delay completing some work CDRs because of competing 
high-priority workloads, or the complexity of our work 
incentive rules. We fully understand the confusion and the 
hardship that overpayments can cause, and we are exploring 
policy changes that can reduce overpayments.
    In closing, we are taking a number of steps aimed at 
fostering return to work. The ticket program started slowly, 
but our new regulations have given new life to the program. We 
are on the right path to reducing those barriers within our 
control, so that every beneficiary can realize his or her 
fullest potential. With your support, we will continue to 
improve the service that we provide.
    Thank you, and I would be happy to answer any questions 
that you may have.
    [The prepared statement of Ms. Suter follows:]
        Prepared Statement of Sue Suter, Associate Commissioner
    for Employment Support Programs, Social Security Administration
Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to discuss our efforts to help 
beneficiaries with disabilities return to work. We have been committed 
to encouraging beneficiaries to return to work since the disability 
program \1\ began more than 50 years ago. Thanks in large part to this 
Subcommittee's leadership, Congress expressed its bipartisan support 
for expanding these efforts by passing the Ticket to Work and Work 
Incentives Improvement Act of 1999 (Ticket Act). Among other 
provisions, this legislation established the Ticket to Work program 
(Ticket program), created two programs to help beneficiaries understand 
the work incentive rules, and authorized us to test the effect of 
certain changes in the disability program on beneficiaries' work 
activity.
---------------------------------------------------------------------------
    \1\ The Social Security Disability program began more than 50 years 
ago and the Supplemental Security Income program began more than 35 
years ago. In this testimony, ``disability program'' refers to both 
programs.
---------------------------------------------------------------------------
    We serve a diverse population of beneficiaries with disabilities 
through the Social Security Disability Insurance (SSDI) and the 
Supplemental Security Income (SSI) programs. SSDI and SSI beneficiaries 
represent a wide range of age groups and have different impairments, 
levels of education, work experience, and capacities for working. 
Assisting beneficiaries to return to work has been challenging, and 
helping these beneficiaries take advantage of employment opportunities 
remains one of our highest priorities.
    Today, I will update the Subcommittee on the Ticket program, 
discuss the demonstration projects currently underway, and briefly 
discuss one of our program integrity measures. We believe recent 
changes to the Ticket program ensure that all beneficiaries have the 
opportunity to engage in productive work.
The Ticket to Work Program
    The Ticket program is an important part of the Social Security 
Act's comprehensive set of work incentive policies designed to help 
beneficiaries with disabilities return to work. Other examples of work 
incentives include the Trial Work Period, which allows SSDI 
beneficiaries to test their work abilities for 9 months, and Expedited 
Reinstatement, which enables us to quickly reinstate benefits to 
beneficiaries who are unable to sustain their return to work. Our Red 
Book (which can be accessed online at http://www.socialsecurity.gov/
redbook/) provides basic explanations for all of our work incentives.
    Prior to the Ticket program, State Vocational Rehabilitation (VR) 
agencies were the primary entities that provided return-to-work 
services at no cost to beneficiaries. We would reimburse the State VR 
agency's costs if a beneficiary it served engaged in substantial 
gainful activity (SGA) for 9 consecutive months. (SGA is significant 
work normally done for pay or profit. For example, if a non-blind 
beneficiary earns above $980 in a month this year, we consider that 
beneficiary to be engaged in SGA. We adjust the SGA dollar amount every 
year.)
    The Ticket Act represented an historic milestone. It was the first 
time Congress explicitly recognized that while many people receiving 
disability benefits from Social Security want to work and could become 
able to work, they face a number of significant barriers that prevent 
them from reaching their employment goals. Congress established the 
Ticket program to expand the universe of service providers and to 
provide beneficiaries choices beyond the State VR agencies in obtaining 
the services and supports they need to find, enter, and maintain 
employment.
    We do not expect the Ticket program to help every beneficiary 
return to full-time employment. However, even if the Ticket program 
were to help only a small number of beneficiaries return to work full-
time, Congress noted that it could generate enormous savings. In 1999, 
Congress noted in the Ticket Act's findings that, if the number of 
beneficiaries who returned to full-time employment increased by only 
one-half of 1 percent, there would be $3.5 billion in savings to the 
Social Security Trust Funds and the general fund of the Treasury.\2\
---------------------------------------------------------------------------
    \2\ We are evaluating the Ticket program's potential savings and 
will have a report later this year.
---------------------------------------------------------------------------
Ticket Program Overview
    Under our current Ticket program rules, an SSDI or SSI beneficiary 
receives a Ticket to Work (Ticket) if he or she is at least 18 years 
old and younger than 65. We enter into contracts with Employment 
Networks (EN), which are qualified State, local, or private 
organizations that offer employment support services. We also contract 
with State VR agencies acting as ENs. We have also been working closely 
with the Department of Labor to expand the involvement of workforce 
investment boards and One-Stop Career Centers in becoming ENs.
    Beneficiaries, ENs, and State VR agencies voluntarily participate 
in the Ticket program. A beneficiary who receives a Ticket may choose 
to assign it to any EN or to the State VR agency. An EN may decide 
whether to accept a Ticket from the beneficiary. Once a beneficiary 
assigns a Ticket to an EN, the EN may supply various employment support 
services to assist the beneficiary in obtaining, regaining, or 
maintaining self-supporting employment. Providers may supply these 
services directly or by entering into agreements with other 
organizations or persons to supply the appropriate services. The 
beneficiary receives the services at no charge.
    We pay ENs based on their success in assisting beneficiaries secure 
and maintain employment. An EN may elect to receive these payments 
under one of two systems. Under the Outcome Payment System (Outcome 
System), an EN receives a payment for each month in which a beneficiary 
it serves does not receive cash benefits due to work or earnings--up to 
60 months for SSI beneficiaries and up to 36 months for SSDI 
beneficiaries. Under the Outcome-Milestone Payment System (Milestone 
System), an EN receives a payment when a beneficiary it serves reaches 
one or more milestones toward self-supporting employment. The EN will 
also receive reduced outcome payments for each month--up to 60 months 
for SSI beneficiaries and up to 36 months for SSDI beneficiaries--that 
a beneficiary does not receive cash benefits because of work or 
earnings. An EN can receive up to 22 milestone payments for SSI 
beneficiaries and up to 15 milestone payments for SSDI beneficiaries.
Ticket Program Regulations
    On December 28, 2001, we published our initial regulations 
implementing the Ticket program. Under those regulations, an EN outcome 
payment was worth only 40 percent of an average SSDI or SSI benefit. An 
EN that opted to receive payments under the Milestone System was 
limited to four milestone payments. Furthermore, an EN would receive 
these milestone payments only when a beneficiary it served engaged in 
SGA.
    We rolled out the Ticket program in phases; the implementation 
began in February 2002 and ended in September 2004. Early experience 
showed that the Ticket program did not meet expectations. The program 
did not increase beneficiary choice or increase work outcomes as much 
as we would have liked. Through our conversations with members of the 
advocacy community and the evaluations carried out for us by our 
contractor, Mathematica, we learned that the program had not developed 
the vibrant market of ENs envisioned by Congress. In fact, by 2005, 
very few ENs were accepting Tickets.
    Experience revealed that our initial Ticket regulations contributed 
to this problem. The regulations set the EN milestone and outcome 
payment amounts too low and set the bar for receiving those payments 
too high. This unattractive combination discouraged service providers 
from becoming ENs. As a result, beneficiaries in many areas did not 
have an EN to provide them with services, and the overwhelming majority 
of beneficiaries with disabilities receiving services received them 
from traditional State VR agencies.
    To address these concerns, we published new Ticket program 
regulations on May 20, 2008. These rules became effective on July 21, 
2008, and made several key changes to the Ticket program. We created a 
more attractive EN payment structure. The 2008 regulations increased 
the value of outcome payments (they are now worth 67 percent of an 
average SSDI or SSI benefit) and increased the value of milestone 
payments (increasing the total payout under the Milestone System 
relative to the Outcome System). The new Ticket regulations increased 
the number of milestone payments an EN can receive from 4 for serving 
any Ticket beneficiary to 15 for SSDI beneficiaries and 22 for SSI 
beneficiaries. The regulations also allow an EN to receive the first 4 
milestone payments when a beneficiary it serves earns $700 in a month, 
which is below the SGA level. We expect this payment structure will 
entice more service providers to become ENs.
    In addition, experience showed that many beneficiaries wanted to 
ease their way back into the workforce via part-time work. However, 
since the previous EN payment structure based payments on attainment of 
SGA, ENs were reluctant to accept Tickets from beneficiaries seeking 
part-time employment. The current EN payment threshold removes previous 
disincentives to serve these beneficiaries.
    We also increased available services by permitting State VR 
agencies to work collaboratively with ENs in an arrangement known as 
Partnership Plus. This ``team'' approach allows State VR agencies to 
provide training and job placement services and then refer 
beneficiaries to ENs, who can offer job retention supports. This 
initiative increases the likelihood that beneficiaries will keep 
working and leave the rolls. In addition, the new regulations 
abbreviated the process for the One-Stop Career Centers to become ENs.
    Prior to publishing the new Ticket program regulations, we 
identified three key indicators to assess the degree to which the new 
regulations addressed the concerns we had heard. We measure success by: 
(1) the number of new EN contracts, (2) the number of beneficiaries 
accessing EN services, and (3) the number of beneficiaries entering the 
workforce. In the 11 months since the new rules became effective, our 
early data show a promising trend for these indicators. Compared to the 
11 months preceding the new Ticket rule's publication, the number of 
new EN contracts has increased from 5 to 34 per month. At the end of 
last month, there were over 1,300 ENs. Furthermore, the number of 
beneficiaries assigning their Tickets has increased from 332 per month 
to 867, and the number of job starts has increased by 83 percent. So 
far, it looks like the new regulations have truly hit the mark.
Ticket Program Outreach Activities
    In addition to revising our regulations, we have recruited more 
ENs. Through our marketing contractor, Cherry Engineering Support 
Services, Inc. (CESSI), we are contacting ENs that have gone 6 months 
without taking a Ticket to determine whether we can resolve any 
problems. CESSI also holds State and regional ``Ticket Express'' 
conferences to recruit new ENs and share best practices. With CESSI's 
support, we have also increased our conference attendance, EN training, 
and frequency of webinars to recruit ENs.
    We have extended outreach activity to beneficiaries. For example, 
we created the Work Incentive Seminar (WISE) event to encourage 
beneficiaries to attempt to work. WISE events educate beneficiaries and 
their families about work incentives. Employers, ENs, State VR 
agencies, Protection and Advocacy agencies, and other employment 
support providers attending these events share information with 
beneficiaries about available services and employment opportunities in 
their communities. In 2008, we conducted 111 WISE events, and these 
events have been well attended. Working with the Department of Labor, 
40 State workforce investment entities have become ENs, and they 
provide return-to-work services in 119 One-Stop Career Centers. In 
addition, approximately 300 new organizations are in the process of 
becoming ENs.
    We strive to give beneficiaries with disabilities the robust return 
to work services they need and deserve. We are optimistic that the new 
Ticket rules, coupled with our expanded outreach activities, will 
foster the level of beneficiary work activity we envisioned when 
Congress passed the Ticket Act.
WIPA and PABSS
    The Ticket Act created two programs to supplement the assistance 
available at our field offices and help beneficiaries understand the 
work incentive rules. The two programs provide grants to organizations 
with ties to the disability community at the local level. All SSDI and 
SSI beneficiaries may use these services.
Work Incentives Planning and Assistance (WIPA)
    WIPA grantees help beneficiaries with disabilities understand our 
work incentives and their effect on disability benefits. Specifically, 
WIPA grantees provide benefit planning and assistance, job placement, 
and career development. By working with a WIPA grantee, our 
beneficiaries can make informed choices about work. WIPA grantees also 
conduct the WISE events.
    We currently have 104 community-based cooperative agreements that 
ensure the availability of WIPA in all 50 States, the District of 
Columbia, and U.S. Territories.
Protection and Advocacy for Beneficiaries of Social Security (PABSS)
    The PABSS is a network of Protection and Advocacy projects in all 
50 States, the District of Columbia, U.S. territories, and the tribal 
entities. This network represents the Nation's largest provider of 
legal-based advocacy services for persons with disabilities. The 57 
PABSS advise beneficiaries about obtaining vocational rehabilitation 
and employment services. They provide advocacy and services 
beneficiaries may need to secure, maintain, or return to gainful 
employment.
    For example, PABSS projects have helped beneficiaries regain 
employment. In one case, a beneficiary with epilepsy lost his job as a 
cashier after suffering an on-the-job seizure. He filed a charge of 
discrimination with the Equal Employment Opportunity Commission (EEOC) 
and sought representation from PABSS for the EEOC mediation. The PABSS 
appeared at the mediation and was able to negotiate a settlement that 
allowed the beneficiary to return to his job.
Expiring Grant Authority
    The Ticket Act initially authorized appropriations for these grants 
for each fiscal year (FY) through FY 2004. The Social Security 
Protection Act of 2004 extended this authorization through the end of 
the current fiscal year. Unless we receive reauthorization, funding for 
the WIPA program will end on March 31, 2010, and funding for the PABSS 
program will end on November 30, 2009.
    Both the WIPA and PABSS programs provide services to beneficiaries 
seeking to return to work or maintain their current employment. If 
after a review of these programs a decision is made to pursue 
reauthorization, we will work with Congress to reauthorize funding.
Disability Demonstration Projects
    The Ticket Act authorized us to test how certain statutory changes 
to the disability program would affect beneficiary work activity. 
Pursuant to this authority, we initiated four demonstration projects--
the Benefit Offset National Demonstration (BOND), the Mental Health 
Treatment Study (MHTS), the Accelerated Benefits Demonstration (AB), 
and the Youth Transition Demonstration (YTD). Each project has distinct 
test objectives. The following sections provide a brief overview of our 
progress in each project.
Benefit Offset National Demonstration
    Because SSDI beneficiaries lose all of their cash benefits for any 
month in which they engage in SGA after the trial work period, they are 
often reluctant to attempt to work. The BOND project tests the effects 
of replacing this ``cash cliff'' with a benefit offset that reduces 
SSDI benefits $1 for every $2 a beneficiary earns above the SGA 
threshold. This benefit offset takes effect after the beneficiary 
completes the trial work period and subsequent 3-month grace period. We 
also offer certain BOND participants enhanced work incentives 
counseling. Based on data from this project, we will estimate the 
effect of the benefit offset and counseling on beneficiary work 
activity.
    This demonstration consists of two phases. In the first phase, 
which lasted from August 2005 to December 2008, we conducted a four-
State pilot. We used our experience with the pilot to strengthen the 
design for the BOND. The pilot also helped us design and build a stand-
alone agency system that partially automated the benefit offset 
calculations and notices, which currently have many manual elements and 
are very labor-intensive. We have also received some preliminary 
findings for this pilot and expect to complete a final evaluation 
report this June.
    In the second phase, we will conduct a more expansive demonstration 
in sites across the Nation. We awarded a design contract for this phase 
of the BOND to Abt Associates in 2004. We approved the design in 
September 2008, and we will award an implementation and evaluation 
contract for this project no later than September 2009.
Mental Health Treatment Study
    About 27 percent of all SSDI beneficiaries have severe mental 
illness. Many persons with mental illness respond well to treatment and 
want to work. The MHTS tests the effectiveness of providing medical 
care and employment supports to a sample of SSDI beneficiaries with 
schizophrenia or affective disorders who have expressed a desire to 
work. Testing began in October 2006 and will continue through July 
2010.
    For the most recent reporting period, treatment group participants 
had an employment rate of about 40 percent, compared to an employment 
rate of only 22 percent for control group participants. This difference 
may result from the specific types of supports the MHTS provides 
(psychiatric nurse-care coordinator, case worker, and a supported 
employment specialist) and the manner in which the MHTS integrates 
those supports.
    Through the MHTS, we have helped many beneficiaries return to work; 
in any given quarter of a year, about 400 participants work. For 
example, some MHTS participants with schizophrenia talk back to the 
voices they hear. One of our study sites has an ongoing relationship 
with a sports arena. The sports arena hires these participants, and the 
arena's noise masks any conversations the participants have with these 
voices. Thus, the MHTS has placed these participants in employment 
situations where they can succeed. In other situations, we purchase 
items that enable participants to return to work, such as dentures and 
glasses.
    We will analyze the demonstration's results and plan to submit our 
final report by January 2011.
Accelerated Benefits Demonstration
    Under current rules, most SSDI beneficiaries have a 24-month 
waiting period after the date of entitlement before they are eligible 
for Medicare. This project tests the effect of providing immediate 
health care to newly-entitled SSDI beneficiaries. Specifically, the 
project tests whether providing medical benefits sooner will result in 
better health and return to work outcomes for beneficiaries. Since the 
start of this project in October 2007, we have enrolled about 2,000 
beneficiaries in one of three study groups: A control group, a group 
that receives a medical benefits package, and a group that receives the 
medical benefits package and comprehensive support services. We will 
complete this project in November 2010.
    To date, project data show that a little over 85 percent of the 
beneficiaries contacted for inclusion in the project were ineligible 
for the project because they already had some type of health insurance 
coverage. Participants in the study have embraced the additional 
supports offered in this project. We have found that many beneficiaries 
in the third study group are using the employment counseling, 
behavioral support program, and medical care management offered as part 
of this demonstration. However, it is too early to tell whether using 
these services translates into improvements in health and employment 
and reduced dependence on SSDI benefits.
    We plan to submit a final report on this project by January 2011.
Youth Transition Demonstration
    The YTD seeks to identify effective and efficient methods for 
assisting youths to transition from school to work and become self-
sufficient. This project identifies services, implements service 
interventions, and tests modified SSI income and resource exclusions 
(referred to as waivers) that lead to better education and employment 
outcomes for youth with disabilities. The YTD serves youths between the 
ages of 14 and 25 who receive SSI or SSDI (including child's insurance 
benefits based on disability) or who are at heightened risk of becoming 
eligible for those benefits. This study will produce the first 
empirical evaluation of the effects of enhanced youth transition 
programs and modified SSI work incentives on disabled youth.
    We began the YTD in September 2003 with seven projects. At present 
eight YTD projects are underway in New York (two sites), California, 
Colorado, Florida, Maryland, Mississippi, and West Virginia. The last 
YTD project will in end in spring 2012.
    As of January 2009, 503 of the 2,028 YTD participants (25 percent) 
had full- or part-time employment. Most of the YTD participants are 
students. By comparison, in December 2007, only about 11 percent of all 
SSI beneficiaries aged 18 through 21 were working. The nature of the 
YTD participants' work varies widely and some participants hold only 
short-term or summer work.
    Early data from the projects show that the interventions and the 
YTD waivers help participants gain experience in both work-related 
activities and paid employment, increase earnings, improve attitudes 
and expectations about the future, and achieve greater engagement in 
education (for those projects with a focus on educational activities).
    Among the beneficiaries helped by this project is a young artist 
enrolled in the Mississippi Model Youth Transition Innovation (MYTI) 
project. She has intellectual disabilities, but with the help of a 
specialized savings account allowed under the YTD and counseling she 
has received from MYTI, she is on her way to establishing a successful 
business.
    We plan to complete a comprehensive final report on this project by 
2014.
New Disability Demonstration Authority
    We believe that the projects we have in place will yield 
information Congress can use when it considers certain statutory 
changes. We want to test other disability program modifications and 
have several new ideas for demonstration projects.
    However, our authority to initiate demonstration projects for SSDI 
beneficiaries expired on December 17, 2005. Therefore, we would need 
authority to start new projects and would like to work with you toward 
that goal. To start this process, we will develop and present to 
Congress and other stakeholders a detailed plan for how we would use 
this authority if reinstated.
Continuing Disability Reviews (CDRs)
    To help protect the long-term health of the disability program, we 
strive to pay disability benefits only to eligible persons. Toward that 
end, we periodically conduct continuing disability reviews (CDR) on 
beneficiaries with disabilities to determine whether they still qualify 
for disability benefits. These reviews come in two types--medical CDRs 
and work CDRs.
Medical CDRs
    We conduct medical CDRs on a periodic basis to ensure that only 
those who have a disabling condition under our rules continue to 
receive benefits. We use two methods to conduct these CDRs. We send 
some cases to the disability determination services (DDS) for a full 
medical review; others may be completed using the mailer process. The 
mailer process includes a profiling system that uses data from our 
records to determine the likelihood of medical improvement and the 
individuals' responses to a mailer questionnaire.
    We send most cases profiled as having a high likelihood of medical 
improvement to the DDSs for a full medical review and no mailer is 
sent. In addition, if a beneficiary's responses to our mailer 
questionnaire indicate medical improvement, we send the case for a full 
medical review. Otherwise, based on the mailer response, we may decide 
not to initiate a full medical review, and we schedule the case for a 
future CDR. We also conduct medical reviews when we receive a voluntary 
or third-party report of medical improvement.
    We will not initiate a medical CDR on a beneficiary who is using a 
Ticket. Furthermore, if a beneficiary has received SSDI benefits for at 
least 24 months, we will not initiate a medical CDR solely on the basis 
of his or her work activity.
    Historically, we have realized program savings of $10 for every $1 
we spend on medical CDRs. In FY 2008, we processed 240,000 full medical 
CDRs, an increase of about 50,000 over FY 2007. The FY 2009 
appropriation provides an upward adjustment to the discretionary caps 
to fund program integrity activities such as CDRs. At this level, we 
will be able to process 329,000 full medical CDRs this year, an 
increase of 89,000 compared to FY 2008. For FY 2010, the President's 
Budget requests $359 million to conduct medical and work CDRs, which is 
part of a larger request of $758 million for program integrity 
activities at the Agency.
Work CDRs
    We initiate a work CDR when a beneficiary voluntarily reports he or 
she is working, when a third-party reports a beneficiary is working, or 
when wages are posted to a beneficiary's earnings record. Because the 
work CDR process intersects with our return-to-work efforts, I would 
like to briefly explain our process and how we address the overpayments 
that can result.
    To process work CDRs, we use a centralized national database called 
eWORK. This automated system collects the necessary work information, 
prepares the necessary forms and notices, and generates receipts for 
work reports. A separate system, the Continuing Disability Review 
Enforcement Operation (CDREO), alerts us to possible unreported work 
activity by a beneficiary. The CDREO alerts approximately 522,000 cases 
annually for possible work CDRs. We review and process all work reports 
we receive. From 2006 to 2008, we processed an estimated 174,000 work 
CDRs annually in our field offices. At present, there are approximately 
62,000 work CDRs pending in field offices.
    While most work CDR overpayments occur because we do not receive a 
timely report of work activity, some overpayments occur because we do 
not process the related work CDRs timely. Delays in processing these 
cases may occur for several reasons. First, we have concentrated on 
high-priority workloads, such as processing retirement and disability 
claims. Consequently, we have delayed acting on work reports and CDREO 
alerts. The current recession and the aging population have caused an 
overall increase in our workloads, thereby exacerbating this situation. 
Finally, our work incentive rules, which affect how we treat a 
beneficiary's earnings, are complex. Therefore, these work CDRs may 
take more time to process correctly.
    We know that the potential of an overpayment may discourage some 
beneficiaries from working. We are committed to reducing the likelihood 
of overpayments, and we are collaborating with all stakeholders to 
develop proposals to ensure that beneficiaries who report their 
earnings timely will not be penalized for our delays in processing 
their work CDRs.
Conclusion
    We are firmly committed to assisting beneficiaries with 
disabilities who want to return to work. The Ticket program started 
slowly, but our new regulations have given new life to the program. 
Since the new rules became effective, we have seen increases in new EN 
contracts, in Ticket assignments, and in beneficiary work activity. We 
will continue to monitor the program and consider any advice we receive 
from beneficiaries, service providers, and Congress to make sure the 
program continues to meet the needs of our beneficiaries.
    We have embraced a comprehensive approach to helping beneficiaries 
return to work. We are on the right path to reducing those barriers 
within our control so that every beneficiary can realize his or her 
fullest potential.
    Thank you again for your support and interest in this matter.

                                 <F-dash>

    Chairman TANNER. Thank you very much, Ms. Suter.
    Ms. Bates-Harris, you are recognized, please.

 STATEMENT OF CHERYL BATES-HARRIS, SENIOR DISABILITY ADVOCACY 
 SPECIALIST, NATIONAL DISABILITY RIGHTS NETWORK, ON BEHALF OF 
 THE CONSORTIUM FOR CITIZENS WITH DISABILITIES EMPLOYMENT AND 
       TRAINING TASK FORCE AND SOCIAL SECURITY TASK FORCE

    Ms. BATES-HARRIS. Thank you, Chairman Tanner, and Members 
of the Subcommittee, for holding this important hearing today. 
I am Cochair of the Consortium for Citizens with Disabilities 
Employment and Training Task Force, and an active member of the 
Social Security Task Force. CCD is a coalition of national 
consumer, advocacy, provider, and professional organizations 
working on behalf of the 54 million American children and 
adults with disabilities and their families.
    The Ticket to Work and Work Incentives Improvement Act was 
created a decade ago to reduce barriers to work for Social 
Security Title II and Title XVI beneficiaries. TWWIIA was not a 
perfect program at its inception, but Social Security has put 
significant effort to improve the program. Some of those 
improvements include creating incentives to encourage service 
providers to become employment networks, including one-stop 
centers, acknowledging that return to work is an incremental 
process, and that self sufficiency often begins with part-time 
employment. They recognized that education and training of work 
incentives is vital to the employment of people with 
disabilities, and have made strides to better coordinate 
services and supports, and to collaborate rather than compete 
with the State Vocational Rehabilitation agencies.
    In addition, the increased payment system, as a result, has 
allowed more ENs--has made ENs more readily accessible, and 
willing to provide services to both SSI and SSDI beneficiaries.
    While these are very positive trends, there is still more 
work to be done. And CCD is concerned that the level of 
attention on work incentives seems to have waned at the Agency.
    For example, there is the continued delay of the required 
benefit offset demonstration. This project has been in the 
planning process since TWWIIA's inception, and is not scheduled 
for implementation until 2010. The very purpose of this project 
has been tested in a four-State study on the subject, and the 
effects of the employment outcomes have been demonstrated, 
that--when benefits are reduced to reflect employment, 
beneficiaries can successfully work their way off benefits.
    This analysis already exists in the SSI program, and has 
shown itself to be a powerful work incentive. If properly 
implemented, the results of this study could prevent 
beneficiaries from experiencing an abrupt dropoff in benefits 
when employment earnings reach the substantial gainful 
activity. We believe the results from this demonstration do not 
require an additional long, drawn-out evaluation, but rather, 
that policy changes could be implemented based on the evidence 
already gained.
    As you know, work incentives already exist in both 
programs. But the success of these incentives to the Ticket to 
Work rest heavily on the ability of SSA to record and track 
wages and make prompt adjustments to benefits level, thereby 
reducing overpayments.
    I think I am going to skip some of the statements around 
overpayments. We just believe that it is important to recognize 
that there is no standardized way of filing or tracking wage 
information. Social Security does not require a specific report 
format--it can be made in writing, by calling an 800 number, or 
by reporting in person, and staff are not always sure what to 
do with the complex work rules. Until such time as Social 
Security addresses this issue, overpayments will continue.
    I want to address some of the expiring provisions in TWWIIA 
in my time remaining. The work incentive planning and 
assistance program grants provide benefits planning services to 
SSDI and SSI beneficiaries about work incentives and services 
for finding, maintaining, and advancing an employment. Trained 
staff are skillful at helping beneficiaries understand what 
will happen to their benefits when they gain employment. This 
is a vitally important program that has been flat-funded since 
its inception, and it needs to continue with an increase in 
appropriations.
    The protection and advocacy for beneficiaries of Social 
Security is another crucial program for ensuring TWWIIA's 
success, by protecting the rights of beneficiaries who 
transition to work. With a presence in every State, territory, 
and the District of Columbia, they provide advice and legal and 
administrative advocacy to remedy complaints of beneficiaries, 
ranging from things to overpayments to workplace 
discrimination.
    Recent incidents, such as that of Henry's Turkey Service, 
demonstrate the need for the PABSS program to be expanded, not 
cut back. Despite the demand for services, the program receives 
a modest $7 million, and has been flat-funded.
    We believe that the PABSS program should also be able to 
address and monitor representative payees who may have a 
conflict of interest in serving those beneficiaries.
    I am way over my time. There are a number of other 
provisions in TWWIIA that are important--or provisions outside 
of the jurisdiction of this Committee but part of the larger 
discussion. They are well documented in my written testimony. 
And, although I have tried to keep this testimony short to 5 
minutes, I request that you enter the full testimony into the 
record.
    Thank you for extending me this opportunity to testify 
before you.
    [The prepared statement of Ms. Bates-Harris follows:]
               Prepared Statement of Cheryl Bates-Harris,
   Senior Disability Advocacy Specialist, National Disability Rights 
                                Network,
 on behalf of the Consortium for Citizens with Disabilities Employment
         and Training Task Force and Social Security Task Force
    I would like to thank Chairman Tanner, Ranking Member Johnson and 
Members of the Subcommittee for inviting me to testify at today's 
hearing on the Social Security Administration's (SSA) employment 
support programs for beneficiaries with disabilities. The focus of this 
hearing is extremely important to people with disabilities as they seek 
to return to work or work for the first time.
    I am a Senior Disability Advocacy Specialist for the National 
Disability Rights Network (NDRN), but I am here today in my capacity as 
a Cochair of the Consortium for Citizens with Disabilities (CCD) 
Employment and Training Task Force as well as an active member of the 
Social Security Task Force. CCD is a working coalition of national 
consumer, advocacy, provider, and professional organizations working 
together on behalf of the 54 million children and adults with 
disabilities and their families living in the United States. The two 
CCD Task Forces (hereinafter ``CCD'') focus on disability policy issues 
in employment programs and services for people with disabilities as 
well as the Title II disability programs (for beneficiaries with 
disabilities in the Old Age, Survivors, and Disability Insurance 
programs) and the Title XVI Supplemental Security Income (SSI) program. 
Also, as a former member of the Ticket to Work and Work Incentives 
Advisory Panel, I have considerable experience with the Ticket to Work 
and Work Incentive Improvement Act including the Ticket to Work and 
Self Sufficiency program.
    Roughly 10 years ago, the Ticket to Work and Work Incentives 
Improvement Act (TWWIIA) was signed into law as P.L. 106-170. Its 
intent was to reduce barriers to work for Social Security Title II and 
Title XVI beneficiaries with disabilities by offering greater choice in 
vocational rehabilitation and employment services providers, to assure 
ongoing access to affordable health care coverage, and to assure access 
to benefits planning services and legal advocacy, if needed, to protect 
the rights of the individuals with disabilities.
    The original Ticket to Work regulations became effective January 
28, 2002, before the first Tickets had been released. It quickly became 
evident that the regulations were insufficient to support the true 
purposes of expanding choice in vocational providers and supports. In 
September 2005 and August 2007, the Social Security Administration 
(SSA) issued Notices of Proposed Rule Making (NPRM) which proposed 
changes to the Ticket regulations. Revised regulations were issued 
effective July 2008. We want to recognize and commend SSA for the 
revised Ticket regulations which aimed to improve the Employment 
Network (EN) payment systems and provided greater financial incentives 
and flexibility for ENs. This action encouraged service providers and 
other entities to become ENs by making the Ticket program more 
appealing financially. ENs now earn milestones earlier in the 
employment process and are reimbursed at a higher rate based on 
beneficiary attainment of specific earnings targets (such as placement 
with earnings at $335.00 month, Trial Work Period earnings of $670.00 
month, and SGA earnings at $940.00 a month) even if cash benefits are 
never reduced to zero.
    The changes encourage beneficiary participation by recognizing that 
return to work is an incremental process and self-sufficiency often 
begins with part-time employment. In addition, individuals with 
disabilities--regardless of whether they are receiving Supplemental 
Security Income (Title XVI) or disability benefits (Title II) can now 
expect to receive similar levels of service from providers because the 
outcome payments and milestone payments are about the same for both 
programs. Moreover, the payment system no longer requires a higher 
level of earnings for the Title XVI beneficiary, which had discouraged 
ENs from serving those individuals under the old regulations.
    The regulations also encourage better coordination of services and 
supports available to beneficiaries and include incentives for ENs to 
partner with, rather than compete with, State Vocational Rehabilitation 
(VR) agencies. This is reflected in the simplified and improved 
definition of ``using a ticket'' which means that individual has 
assigned a ticket to an EN or a State VR agency that has elected to 
provide services to that individual as an EN. The regulations also 
streamlined the related requirement for measuring ``timely progress 
toward self-supporting employment'' by allowing a beneficiary to 
complete either a work requirement or to obtain educational/vocational 
credit which will assuredly improve their employment potential through 
the acquisition of skills and training.
    Indeed, SSA was ``listening, learning, and responding'' as SSA 
stated in its ``messaging'' during the March 2008 Ticket to Work 
Partners Summit. A recent SSA report shared with the Protection and 
Advocacy Systems (P&As) indicates that since the revised regulations 
became effective on July 21, 2008, the number of new service providers 
signing up to become ENs has increased from an average of 5 a month to 
an average of 34, and as a result SSA reports higher return to work 
rates as ENs are more readily accessible and more willing to provide 
services.\1\
---------------------------------------------------------------------------
    \1\ Ticket Trends--May 19, 2009 Hearing.
---------------------------------------------------------------------------
    While these are positive trends, there is still more that needs to 
be done.
    From a broader policy perspective, CCD is concerned that the level 
of attention at the Agency on work incentives seems to have waned. The 
Cochairs of both of these CCD Task Forces met with SSA legislative and 
policy staff in March of 2008 to discuss ways to simplify the work 
incentives for SSI and SSDI beneficiaries. Since then there has been no 
followup or further discussion on this issue. In a recent long term 
plan issued by SSA, only one paragraph contained any mention of work 
incentives, and that statement failed to recognize SSA's own role in 
the number of overpayments, as well as structural contributions (such 
as retrospective accounting in SSI). We recognize SSA's need to focus 
on reducing the disability claims backlog, but believe that more must 
be done to assist those who want to try to work.
Benefit Offset Demonstration
    Long before TWWIIA, SSA was required to initiate a national 
demonstration to test alternate methods of treating work activity in 
the Social Security Disability Insurance (SSDI) program through a 
benefit offset project. The purpose of the Benefit Offset demonstration 
was to determine the effect of employment outcomes including wages, 
benefits, hours worked, and job retention when a financial offset in 
benefit payment is applied reducing Title II disability benefit 
payments by only 1 dollar for each 2 dollars earned. This work 
incentive already exists in the SSI program and enables a beneficiary 
to successfully and gradually work their way off benefits and move 
toward self sufficiency by decreasing benefit payments as earnings 
increase. This encourages work but does not penalize the individual or 
force them to give up a full benefit amount when they are working their 
way back to full employment.
    Despite years of planning and design, the Benefit Offset National 
Demonstration (BOND) is not scheduled for implementation until FY 2010. 
Prior to this national implementation, SSA conducted a four-State pilot 
demonstration, which began in August 2005. The results have not been 
shared publicly. This long overdue project will allow beneficiaries to 
face a gradual reduction in their benefits eliminating the abrupt loss 
of cash benefits in the Title II disability programs when the 
beneficiary works and has earnings over the Substantial Gainful 
Activity (SGA) level which is currently $940.00 a month. If properly 
conducted and implemented, the strategies developed for this project 
could serve as a powerful incentive and should considerably reduce 
barriers to work for SSDI beneficiaries by allowing them to maintain or 
increase their employment, earnings and financial independence. CCD 
believes it is imperative that this project not languish any longer but 
instead move forward with full deliberation and intent. In addition SSA 
should be required to report the results of their findings to the 
public in a timely manner.
Overpayments
    As you know, the SSI and SSDI programs include numerous work 
incentives which allow beneficiaries to work and test their ability to 
become self-sufficient. The success of these work incentives, as well 
as that of the Ticket to Work program, rests heavily on the ability of 
SSA to record and track wages and make prompt adjustments to benefit 
levels when working beneficiaries report earnings, thereby reducing 
overpayments. According to an SSA Office of Inspector General report 
dated April 2006, income or earnings from work activity was the most 
significant reason for overpayments. These overpayments were said to be 
much larger and spanned longer periods of time than the overpayments 
identified by SSA's normal processes of Continuing Disability Reviews 
(CDRs) and data matches to detect deaths, prisoners, fugitives, and 
other issues that impact eligibility.\2\
---------------------------------------------------------------------------
    \2\ Congressional Response Report--Overpayments in the Social 
Security Administration's disability programs, A-01-04-24065, April 
2006.
---------------------------------------------------------------------------
    Overpayments have been a huge concern for many years and are 
recognized as a tremendous disincentive for beneficiaries to try work. 
Many beneficiaries do the right thing: They report their work in person 
or to the 800 number and are told that SSA will let them know if 
anything is a problem. At best SSA takes a month or two to process the 
report, which causes overpayments that the beneficiary is obligated to 
repay. However, SSA very often fails to process the earnings reports 
and adjust the payments for months or even years. Beneficiaries 
reasonably assume that SSA is paying them the correct amount. When SSA 
finally gets around to processing the earnings reports, the beneficiary 
is hit with a demand to repay overpayments that often amount to 
thousands of dollars. This can be devastating for someone whose sole or 
primary source of income is their benefit payment (currently a maximum 
of $674 per month for SSI beneficiaries).
    In one reported case, the New York Protection and Advocacy for 
Beneficiaries of Social Security (PABSS) reported that a client file 
clearly showed timely wage reporting by the beneficiary, yet he still 
received an overpayment notice of almost $64,000. The overpayment 
occurred because the beneficiary was a dual SSI/SSDI recipient. When he 
reported his monthly earnings to SSA; the SSI benefits were adjusted 
but the SSDI benefits were not adjusted until several years later. 
Furthermore, while PABSS was assisting with the client with the SSDI 
waiver request, SSA was initially refusing to look at the information 
contained in his separate SSI file. 
Only when PABSS insisted did they retrieve his SSI file and finally gran
t the waiver.
    CCD and the disability community continue to struggle with the 
inability of SSA to record and appropriately adjust benefits in a 
timely manner. SSA does not require earned income reports to be made in 
any specific way; they can be made in writing, by calling the 800 
number, or by stopping in to report at an SSA field office. There is no 
particular form to complete or file, and until the Social Security 
Protection Act of 2004 was implemented, there was no official record 
for the beneficiary to use that proved the report was made. In 
addition, there appears to be no effective internal system for 
recording the income which beneficiaries report. And despite the 
development of internal electronic tools such as eWorks,\3\ this 
program is not used consistently across the country. In addition, SSA 
does not seem to realize that people do not understand the terms of art 
used by the Agency when making SGA determinations and staff are not 
always clear in their explanations or do not have the time necessary to 
explain them well enough. Therefore, important wage deductions such as 
Impairment Related Work Expenses (IRWEs), Blind Work Expenses, 
Subsidies and Special Conditions do not get reported or considered.
---------------------------------------------------------------------------
    \3\ In December 2004, SSA finished its national rollout of eWork, 
an interactive web-based application system that monitors the work flow 
of Social Security field staff and tracks reported earnings of Social 
Security Disability Insurance beneficiaries.
---------------------------------------------------------------------------
    In terms of overpayment issues, field office staff seem to have a 
single rule: ``You worked; you are at fault for the overpayment.'' The 
staff is very reluctant to apply the other work incentive rules, like 
IRWEs or special conditions after wage reporting has occurred, and 
rarely are these questions asked during the submission of this type of 
wage information.
    SSA clearly needs to improve its processing of work and earning 
reports. Most individuals who receive these benefits are overwhelmingly 
low income and do not have the income cushions to deal with unreliable 
application of the work rules. Some at SSA seem to have a cavalier 
attitude about overpayments (considering them low interest loans), not 
understanding the financial and emotional effect of a large overpayment 
on someone who is low income and who thought s/he was doing a good 
thing by going to work.
    Many claimants do not understand the differences between SSI or 
Title II disability benefits and many do not know which is which even 
though they may get both. These concurrent beneficiaries will not know 
to report work activity separately to the Claims Representatives 
assigned to each of the benefit programs. As a result, concurrent 
beneficiaries are doubly impacted with overpayments over time. The SSI 
file and Title II disability file are separately maintained and 
information within the office is not communicated across programs. SSA 
staff who are assigned to only one benefit program (SSI or Title II 
disability) should understand that claimants will not know to 
separately report work and they should make sure that the work report 
gets to all the right places, including the payment processing center, 
and that it is acted on in a timely fashion.
Expiring TWWIIA Provisions
    There are several expiring or expired provisions contained within 
TWWIIA that are critical to facilitating the participation of those on 
Title II and/or Title XVI in the workforce. The failure to extend these 
programs could undermine the long-term impact of the law in improving 
employment opportunities for this population of people with 
disabilities. Two such programs include the Work Incentive Planning and 
Assistance (WIPA), and the Protection and Advocacy for Beneficiaries of 
Social Security (PABSS).
    Work Incentive Planning and Assistance (WIPA) Program--The Social 
Security Administration has long been committed to the WIPA program and 
issued a Request for Proposal inviting application for these programs 
in May of 2000, with a second round of application in the fall of 2006. 
WIPA grants to nonprofits and other agencies fund outreach, education 
and benefits planning services to Title II Disability and SSI 
beneficiaries about work incentives and services for finding, 
maintaining and advancing in employment.
    WIPA grantees inform beneficiaries of the impact that employment 
will have on their disability income and medical coverage, and address 
many of the real fears that individuals have about going to work, 
including the risk of losing health coverage. These grants have 
consistently demonstrated their effectiveness in explaining work rules 
and stressing the important information that people need to know before 
going back to work. Relevant pamphlets and the ``Red Book'' are not 
enough to help individuals understand the confusing work rules. People 
often need more than one explanation and need to see the rules applied 
to the facts of their cases. Trained WIPA staff is skillful at making 
sure that beneficiaries know what will happen to their benefits when 
they go to work.
    WIPA programs have been flat funded at $23 million since their 
inception and are struggling to maintain their high level of service. 
In addition, these grants will terminate 6 months into FY 2010 unless 
renewed by Congress. Increased appropriations are needed to continue 
and expand this very important program.
    The Protection and Advocacy for Beneficiaries of Social Security 
(PABSS)--This program was created in TTWWIIA to protect the rights of 
beneficiaries as they attempt to go to work and was the last programs 
within TWWIIA to be fully implemented. It is the responsibility of the 
PABSS programs to provide information, advice, and remedy to complaints 
of beneficiaries utilizing their options to explore work. This work is 
consistent with the mission of P&As, created by Congress in the 1970's 
to protect individuals with disabilities from abuse, neglect, and 
discrimination based on disability. With a presence in every State and 
U.S. territory, and the District of Columbia, the Protection and 
Advocacy (P&A) systems offer an advocacy and legal voice to individuals 
with disabilities as they venture into the workforce.
    The PABSS program assigns an extensive set of duties to the P&A 
agency. In addition to resolving work related overpayments and 
assisting individuals to access the services and supports they need to 
work, this program assures that legal protections are given to 
beneficiaries in the difficult economic climate where discrimination 
against people with disabilities may increase. Using the powerful tools 
afforded by the recent passage of the ADA Amendments of 2009, PABSS 
helps people with disabilities maintain employment, enforces the 
nondiscrimination provisions of the ADA, works for the provision of 
reasonable accommodations, and seeks to protect other basic employment 
rights that are important to the employment of people with 
disabilities. In addition, P&As have worked tirelessly with community 
partners to improve the employment rate of people with disabilities 
thereby changing the quality of life for many people with disabilities.
    An increase needs to be authorized for the program to be able to 
continue, let alone thrive. The static funding of $7 million annually 
since its inception has resulted in staff cutbacks across programs and 
has clearly strained the ability to serve all eligible clients. Given 
the recently uncovered abuses with Henry's Turkey Service in Atilissa, 
Iowa, (see story at http://www.desmoinesregister.com/ 
article/20090208/NEWS/902080344), Congress should consider expanding 
the jurisdiction of the P&A program into other SSA areas such as 
monitoring organizational representative payees to assure adequate 
protection and advocacy services are available to this vulnerable 
population.
TTWWIIA Health Care Work Incentives
    The Ticket to Work and Work Incentive Improvement Act included 
several key provisions to ensure that workers with disabilities are 
able to access crucial health care supports. We urge you to ensure that 
these critical health programs are maintained and strengthened. Three 
of these provisions are the Medicaid Infrastructure Grants (MIG), the 
Medicaid Buy-in for Workers with Disabilities, and the Demonstration to 
Maintain Independence and Employment (DMIE). As the findings of the Act 
state: ``For individuals with disabilities, the fear of losing health 
care and related services is one of the greatest barriers keeping the 
individuals from maximizing their employment, earning potential, and 
independence'' (Section 2a(5)). These provisions are critical to 
ensuring the success of other programs within the Act. Therefore, CCD 
encourages this Committee to collaborate with your colleagues on the 
Health Subcommittee as well as the Energy and Commerce Committee to 
strengthen and maintain these critical health programs.
    Medicaid Infrastructure Grants--These grants were authorized from 
2001-2011 by section 203 of the TTWWIIA and are administered by the 
Centers for Medicare and Medicaid Services. These grants provide States 
with flexible funds to enhance State infrastructure that supports 
workers with disabilities. Due to the MIGs, over two-thirds of States 
have implemented Medicaid buy-ins, redesigned Medicaid waivers and 
personal care programs to ensure that individuals can go to work, and 
improved coordination between Social Security, WIPAs, Medicaid and 
related agencies. In 2009, 42 States and the District of Columbia 
received these grant funds.
    Medicaid Buy-in--The Medicaid buy-in provides Medicaid coverage to 
people with disabilities who would be receiving SSI but for their 
earnings from employment. Many of these individuals need services 
beyond what private insurance covers, or they would be unable to 
acquire coverage on the individual market. Over 40 States have created 
a Medicaid buy-in under TWWIIA or under the earlier buy-in created 
under the 1997 Balanced Budget Act and are experiencing positive fiscal 
returns. An analysis in Kansas demonstrated that Medicaid buy-in 
participants increased the taxes paid to the State and Federal 
Government, increased premiums paid to the Medicaid program, and 
decreased their medical costs.\4\
---------------------------------------------------------------------------
    \4\ http://www.workinghealthy.org/publications/policybriefs/
WHPolicyBriefno12.pdf.
---------------------------------------------------------------------------
    Scott's Story--One success story thanks to the Medicaid buy-in 
comes from Minnesota Work Incentives Connection. Scott was in college 
when he had a car accident, which left him with a severe spinal cord 
injury. Despite his injury, Scott continued his studies. Having a 
disability increased Scott's desire to help others, so he pursued a 
graduate degree in biomedical engineering. When he was offered a job at 
a medical device firm, Scott contacted the Minnesota Work Incentives 
Connection. He was willing to give up his Social Security cash 
benefits, but was concerned about health coverage. Like most insurance, 
his employer's health plan did not cover the daily personal care 
assistance Scott needed, nor could he afford to pay out of pocket for 
those services, despite earning a decent salary. For people with 
injuries like Scott's, personal care assistance alone can easily cost 
over $3,000 per month.
    Scott's Benefits Specialist told him about the Medical Assistance 
for Employed Persons with Disabilities (MA-EPD) program, which allows 
him to maintain Medical Assistance (Medicaid) for services his 
insurance doesn't cover. Scott doesn't mind paying a monthly premium, 
based on his income. He says, ``Despite the opportunities that my 
degree has opened up to me, I am fairly certain that I would not be 
working in my current capacity if it were not for MA-EPD. MA-EPD allows 
me to participate, to compete, to excel on the same stage as those I 
consider as peers, regardless of the obstacles my disability 
presents.''
    Demonstration to Maintain Independence and Employment (DMIE)--the 
DMIE program provides preventive care to individuals with serious 
medical conditions that have not yet reached a level of severity to 
qualify them for Social Security disability benefits. Examples of 
individuals who have benefited from the DMIE include persons with 
mental illness, AIDS, and diabetes.
    DMIE Successes--Using a rigorous experimental model, including a 
control and treatment group, the State of Minnesota found that only 4% 
of the intervention group applied for Social Security while 15% of the 
control group reported applying for benefits.\5\ Another example of 
DMIE success comes from Texas. Janie is a home health aide. She has 
diabetes, epilepsy, Hepatitis C, hypertension, chronic depression, 
anxiety disorder, and suffers from debilitating headaches. Janie's case 
manager obtained Working Well (a private insurance program) vision, 
dental and medical services for her. The case manager also provided 
employment counseling and medical education. Janie has been able to 
start and maintain a diabetic diet. Her symptoms have greatly improved 
and she is now earning significantly more as she is able to increase 
her work hours.
---------------------------------------------------------------------------
    \5\ Stay Well, Stay Working: Policy Brief, The Lewin Group, March 
2009.
---------------------------------------------------------------------------
    The MIGs, the Medicaid buy-in, and the DMIE provide invaluable 
supports that enable individuals with disabilities to obtain and 
maintain employment. Yet Congress has undermined the ability of many of 
these health care work incentives to have an impact on the broader 
population of people with disabilities either through specific action 
or through inattention. For example, despite the positive results 
evidenced by DMIE, Congress rescinded the unspent funds for the program 
in the 2009 omnibus budget bill because the authority for the 
demonstration ends in FY 2009. What Congress may not have recognized is 
that CMS delayed issuing an application for funding which resulted in 
unspent program money which CCD believes should be carried over and 
continued.
    The Medicaid buy-in has several lingering policy concerns that have 
weakened its effectiveness and should be addressed during Ticket 
reauthorization. These issues include, but are not limited to, how to 
define if a person is `employed' and the inability of individuals to 
participate in a buy-in beyond their 65th birthday.
    Section 201 (a)(2)(B) of Title II offers a definition of employment 
for individuals with medically improved disabilities who are eligible 
for the Medicaid buy-in in which they must be working at least 40 hours 
per month and earning at least the applicable minimum wage. A similar 
definition of employment exists under Section 204 of Title II for 
workers with potentially severe disabilities. Unfortunately, some 
States have been reluctant to undertake a buy-in program over confusion 
as to how to define employment. Thus, Congress may wish to clarify this 
for the future.
    Sec. 201 (a)(1)(C) allows participation in the Medicaid buy-in for 
those ``at least 16 years of age but less than 65 years of age'' 
despite the increase in normal retirement age beyond age 65. Thus, 
someone can be using the buy-in to work until he/she retires at 
``normal retirement age'' but then is confronted by the loss of the 
resource/asset limit suspensions when they reach age 65. This anomaly 
needs to be corrected.
    Finally, because the buy-ins are State options, this has created a 
patchwork of access across the country. Either States should be 
required to establish Medicaid buy-in programs or deemed Medicaid 
eligibility should be provided to Title II beneficiaries up to the 
current buy-in earnings levels.
SSA and Work Incentives
    The Ticket to Work program and other provisions of TTWWIIA are only 
one part of a larger discussion needed concerning barriers to 
employment for Social Security disability beneficiaries. Many other 
policies within the Social Security Disability and Supplemental 
Security Income programs serve as disincentives to workforce 
participation for people receiving these benefits. Broader system 
changes--beyond TTWWIIA--are needed to address these impediments--as 
outlined in the CCD Social Security Task Force's Statement of 
Principles: Social Security Disability Program Work Incentives and 
Related Issues. (See--http://www.c-c-d.org/task_forces/social_sec/CCD-
Principles-and-Recom-29-08.pdf.) These include:
    The elimination of the 24-month waiting period for Medicare--Good 
health is essential to a successful return to work. Failure to have 
access to health coverage undermines the person's ability to stabilize 
his or her condition and to attempt a return to work when that is 
appropriate.
    Allowing permanent premium-free access to Medicare for 
beneficiaries who work--Social Security disability beneficiaries who 
have lifelong conditions should retain lifetime access to Medicare. 
Once someone goes beyond the premium-free Part A coverage provided 
under TTWWIIA, a working person with a disability can buy-in to 
Medicare but at significant expense. Providing continued attachment to 
Medicare for working beneficiaries would ensure ongoing eligibility for 
health care. Some beneficiaries, based on their earnings, should have 
the ability to obtain this coverage through a buy-in program.
    Elimination of the Medicare ``homebound'' rule--Current Medicare 
policy for durable medical equipment (DME) restricts its use to ``in 
the home,'' meaning that people on Title II disability benefits cannot 
obtain the devices and technology they need for independent living or 
risk violating the law if they use their DME to go to work. We are 
pleased to see that the Senate Finance Committee has included several 
possible options for phasing out the 24-month Medicare disability 
waiting period in its May 14 description of policy options for 
expanding health care coverage.
    Increasing Medicaid asset and resource limits--SSI assets/resource 
limits have increased only minimally since 1974. As a result, working 
people with disabilities who rely on that program for critical services 
and supports cannot earn and save like most Americans.
    Modifying ``deemed'' SSI eligibility to protect Medicaid for 
certain working people who transition to Title II--The deeming of SSI 
eligibility is important to avoid creating an unintended disincentive 
to work, especially for younger individuals who receive Disabled Adult 
Child or DAC benefits. Current law creates a constraint against 
attempting to work because it only provides protection when the sole 
reason a person's income exceeds the SSI level is the Title II benefit 
increase. Thus, working and having any earnings will automatically make 
the person ineligible for the deemed SSI status that protects his or 
her Medicaid. This is especially ironic, because if s/he had been 
solely an SSI recipient, the person would be able to benefit from the 
1619(a) and (b) work incentives. This can be fixed by providing that 
SSI deemed status will continue so long as the person's only other 
reason for ineligibility is earnings from work.
    These are but a few of the recommendations in the CCD principles 
and recommendations paper. We urge you to consider improvements, as 
outlined in the paper, to assist people with disabilities to work.
    Thank you again for extending me the opportunity to testify before 
you. I look forward to working with the Subcommittee on these important 
issues for people with disabilities.

      On Behalf Of:

        ACCSES

        American Network of Community Options and Resources

        APSE--The Employment Network

        Association of University Centers on Disabilities

        Bazelon Center for Mental Health Law

        Community Access National Network (TIICANN)

        Council of State Administrators of Vocational Rehabilitation

        Easter Seals

        Epilepsy Foundation of America

        Inter-National Association of Business, Industry and 
Rehabilitation

        National Council on Independent Living

        National Disability Rights Network

        National Organization of Social Security Claimants' 
Representatives

        National Rehabilitation Association

        National Spinal Cord Injury Association

        Paralyzed Veterans of America

        The Arc of the United States

        The Epilepsy Foundation

        United Cerebral Palsy

        United Spinal Association

        World Institute on Disability

                                 <F-dash>

    Chairman TANNER. Thank you very much. We were not going to 
be insistent on the 5-minute rule, because we were interested 
in what you have to say. And all of your testimonies will, in 
their entirety, be inserted into the record.
    Ms. Webb, the Chair is pleased to yield the floor to you.

  STATEMENT OF SUSAN WEBB, PRESIDENT AND CO-FOUNDER, NATIONAL 
       EMPLOYMENT NETWORK ASSOCIATION, AVONDALE, ARIZONA

    Ms. WEBB. Thank you, Mr. Chairman. My name is Susan Webb, 
and I am here today on behalf of the National Employment 
Network Association, or NENA. NENA is a membership association 
that provides technical assistance and training to employment 
networks around the country.
    Our comments today revolve around three particular topics: 
The new Ticket to Work regulations that took effect in July of 
2008; marketing the program to beneficiaries; and the statutory 
requirements to validate earnings in order to get paid is a 
problem, so we want to talk about that.
    Our written testimony also contains additional information 
and comments about capitalization of ENs and the utility of the 
work opportunity tax credit.
    First, the Ticket program is innovative, in that it pays 
for outcomes, not services. This is a significant departure in 
methodology from most employment services providers who chose 
to sign up for the program as employment networks.
    Social Security developed the original payment structure to 
maintain fiscal integrity, and not being overly generous. But 
they also tried to design a structure that would encourage 
employment networks to participate, and to be able to cover our 
costs of delivering services.
    Unfortunately, without any data to draw upon at the time, 
the original regulations in place until July of 2008 proved to 
be inadequate. NENA believes this is the reason why most of the 
more than 1,400 ENs who originally signed up either left the 
program or accepted few tickets.
    After 3 years of rulemaking, SSA published new regs that 
took effect in July of 2008. This is well past the time period 
analyzed in the Inspector General's August 2008 report, making 
that report an outdated snapshot of the Ticket program's 
current methodology.
    The new rules primarily changed the payment structure, so 
that ENs could more effectively participate in the program. SSA 
started making payments under the new rules in November of 
2008. Without exception, our members told us that the new rules 
are a vast improvement over the original rules. We expect that 
once new and prospective ENs see the data from the new rules, 
there will be significantly more ENs participating in the 
program, and thus accepting new tickets.
    To give you a snapshot of the difference, and why the new 
rules will likely help ENs participate, let me give you my own 
agency's experience as an example. ABIL Employment Services in 
Phoenix began taking tickets as a stand-alone program when the 
tickets were first mailed in February of 2002.
    Under the old rules, through November of 2008 our ticket 
revenues were more than $865,000. When you look at the data, 
that is a significant portion of the total payouts in one 
little EN in Phoenix, Arizona.
    The kicker, though, is that on the surface that looks like 
a pretty good return, except that we spent $1.7 million to get 
that $865,000. That's $2.03 we spent for every $1 we returned. 
Not very many ENs have the resources to do that. And, of 
course, it begs the question, ``Why should they?''
    In contrast, thus far under the new rules, that statistic 
has completely turned around. Since December of 2008, for the 
first time, we consistently brought in enough revenue under the 
new rules to more than cover our cost. As a result, we now plan 
to expand the program by hiring more staff and conducting more 
beneficiary marketing.
    In addition, we are budgeting to provide more services to 
beneficiaries. And we believe these are exactly the kind of 
program enhancements that SSA wanted, and that will stimulate 
interest, not only on the part of ENs, but also on the part of 
beneficiaries.
    The beneficiary marketing--we understand that SSA really 
has very limited resources to do much marketing. We hope that 
will change under the new rules, however, because of the 
expanded payments that will be generated--NENA is working with 
States to develop State employment network chapters that will 
pool their resources to help us market directly to 
beneficiaries in our local community.
    So, we believe that with more partnership between the 
program manager for recruitment and outreach, the work 
incentive planning and assistance, and NENA, we could 
significantly improve beneficiary awareness and the benefits of 
the Ticket program. It is indeed a new day. And with aggressive 
beneficiary marketing, we think that we can turn this around 
and make more people participate.
    My final comments will have to do with earnings validation. 
I don't think that Congress intended, when this program began, 
that we would be chasing after pay stubs for 5 years. But, 
unfortunately, that is what we are doing. The Agency has done a 
yeoman's job of trying to develop less onerous ways to collect 
earnings data. But, unfortunately, it appears that many 
different stakeholders have looked at very many different ways 
to possibly collect earnings data, and nothing seems to be 
working.
    It is because of the language in the statute that says, 
``Due to work or earnings''--that is at section--oh, it is in 
my written testimony. It is actually in several places 
throughout. But we recommend that the statute be amended to 
remove the ``Because of work or earnings'' language. Ticket 
stakeholders, as I said, have discussed the issue. And we 
believe that, at last blush, that is the only way that we are 
going to eliminate this onerous requirement to collect pay 
stubs.
    Mr. Chairman, Members of the Subcommittee, it is a new day. 
We look forward to another 5 years of the Ticket to Work 
program. And with program enhancements to marketing, to help us 
remove that language regarding validation of pay stubs, and 
with the new payment structure that SSA has put into place, we 
believe that this will be effective and will help millions of 
people--not hundreds of thousands, but millions--to return to 
work.
    I would be happy to answer any questions that you might 
have.
    [The prepared statement of Ms. Webb follows:]
      Prepared Statement of Susan Webb, President and Co-founder,
       National Employment Network Association, Avondale, Arizona
    Mr. Chairman, Members of the Subcommittee, my name is Susan Webb. I 
am here today on behalf of the National Employment Network Association 
(NENA). NENA is a membership association providing training, technical 
assistance and program updates to Employment Networks (EN) nationally 
who provide employment services under the Ticket to Work and Self-
Sufficiency program. Five of the largest, most active private ENs sit 
on NENA's Board of Directors.
    Our oral comments today cover three key areas: (1) the new TTW 
regulations that took effect in July 2008; (2) marketing the program to 
beneficiaries; and (3) the statutory requirements to validate earnings 
in order to get paid. Our written testimony contains additional 
comments regarding EN capitalization and utility of the work 
opportunity tax credit (WOTC).
I. New Ticket Regulations
    First, the Ticket program is innovative in that it pays for 
outcomes, not services. This is a significant departure in methodology 
for most employment service providers who chose to sign up for the 
program as ENs. SSA developed the original payment structure to 
maintain fiscal integrity in not being overly generous; but they also 
tried to design a structure that would encourage ENs to participate and 
be able to cover our costs of delivering service. Unfortunately, 
without any data to draw upon, the original regulations in place until 
July of 2008 proved to be inadequate. NENA believes this is the reason 
why most of the more than 1,400 ENs who originally signed up either 
left the program or accepted few tickets.
    After 3 years of rulemaking, SSA published new regulations that 
took effect in July 2008. This is well past the time period analyzed in 
the Inspector General's August 2008 report, making that report an 
outdated snapshot of the Ticket program's current methodology. The new 
rules primarily changed the payment structure so that ENs could more 
effectively participate in the program. SSA started making payments 
under the new rules in November 2008. Without exception our members 
told us the new rules are a vast improvement over the original rules. 
We expect that once new and prospective ENs see the data from the new 
rules, there will be significantly more ENs participating in the 
program and accepting new tickets.
    To give you a snapshot of the difference and why the new rules will 
likely help ENs participate, let me give you my own agency's experience 
as an example. ABIL Employment Services in Phoenix, Arizona began 
taking tickets as a stand-alone program when the first tickets were 
mailed in February 2002. Under the old rules, through November 2008 our 
ticket revenues were more than $865,000. On the surface, when you look 
at the total payouts during that time for all ENs, we received a 
significant percentage of the total. However, our expenses to operate 
the program during that time were $1.76 million! In other words, we 
invested $2.03 for every $1 in revenue we received. Few organizations 
have the resources to operate such a program, and it begs the question: 
Why would we do so?
    In contrast, thus far under the new rules, that statistic has 
completely turned around. Since December 2008, for the first time, we 
consistently brought in enough revenue under the new rules to more than 
cover our costs. As a result, we now plan to expand the program by 
hiring more staff and conducting more beneficiary marketing. In 
addition, we are budgeting to provide more services to beneficiaries, 
such as short-term job training and paying for licenses and other 
expenses to help beneficiaries get a job and keep it. We believe these 
are exactly the kind of program enhancements SSA desired to stimulate 
with the new Ticket program rules, and the rules are working for us at 
ABIL.
II. Beneficiary Marketing
    No matter how good the new rules prove to be, beneficiary marketing 
is a critical component of program success. NENA recognizes that SSA 
faces priorities that place significant demand on its resources, most 
notably reducing the backlog of initial claims and completing mandated 
continuing disability reviews. This resource demand is not likely to 
subside any time soon.
    Some of the new initiatives SSA plans to implement such as more 
targeted mailings will help. In addition, the valuable contributions of 
the Work Incentive Planning and Assistance contractors cannot be 
overestimated.
    NENA believes the new rules will create revenues that ENs can use 
to conduct marketing locally. NENA plans to help ENs develop 
Association chapters in their States. These chapters can encourage 
their EN members to pool resources to develop and distribute marketing 
materials to ticket users most likely to succeed in the program. The 
mailings can be targeted using the beneficiary list currently available 
on CD. These consortia of ENs can build upon the targeted information 
being developed by SSA's Program Manager for Recruitment and Outreach 
(PMRO).
    Although NENA would very much like to see SSA devote more resources 
to beneficiary marketing, we understand that is not likely. We believe 
more collaboration between the PMRO, WIPAs and NENA could significantly 
improve beneficiary awareness of the benefits of the Ticket program.
III. Earnings Validation
    In addition to the promise of the new rules and collaborative, 
aggressive beneficiary marketing, we believe there is one other area in 
particular that could significantly help the Ticket program succeed. In 
Section 1148(h)(2)(B) and other sections throughout the statute that 
discuss payments to ENs, the language says, ``. . . payments to an 
employment network . . . for each month . . . for which benefits . . . 
are not payable . . . because of work or earnings.'' [emphasis added].
    This language has been interpreted by SSA to mean that an EN cannot 
be paid without collecting earnings data in the form of a pay stub or 
other equally valid document. This interpretation has proven to be a 
tremendous burden to ENs and SSA field office staff. One major goal of 
the program is to ensure that beneficiaries have access to continued 
services after they go to work with the intent that such services will 
help them achieve self-support and they can end their use of cash 
benefits. One of the key provisions of the Ticket program is this 
follow-on support for 3-5 years after the beneficiary actually achieves 
an earnings level that is sufficient to end their dependence on cash 
benefits. An unintended consequence of this language is that it 
requires an EN to chase down pay stubs for up to 60 months after the 
individual leaves cash benefits. Otherwise, we forgo timely payments. 
SSA has implemented some helpful procedures to ease this burden. 
However, we still wait months for payment unless we can collect pay 
stubs.
    In our experience, once a beneficiary starts working, we want them 
to be as independent as possible. The requirement to collect pay stubs 
from them is often annoying, especially after they have been working 
for an extended period of time. Even though we tell them about this 
requirement upfront, we are completely at their mercy to get paid in a 
timely manner.
    NENA recommends that the statute be amended to remove the ``. . . 
because of work or earnings'' language. Ticket stakeholders have 
discussed this issue since first implementation of the statute. Several 
alternatives to this problem have been discussed and rejected for 
various reasons as unworkable.
    There are reasons a beneficiary might cease using cash benefits 
other than because of work. But NENA believes that the potential 
overpayments to ENs would be minimal, especially in light of the 
tremendous administrative burden this provision has demonstrated itself 
to be. It is a burden not only to ENs, but also to SSA field office 
staff, who are struggling to meet SSA goals despite staff attrition and 
tight budgets. Overpayment to ENs is a simple problem and easily 
solved; since ENs are contractors, overpayments can easily be recovered 
with the next month's billing.
    We wholeheartedly ask the Subcommittee to seriously review this 
language. We believe you will agree with us that this is an onerous 
requirement that should be eliminated.
    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to address you today. I would be happy to answer any 
questions you have.
IV. Work Opportunity Tax Credit
    The Work Opportunity Tax Credit (WOTC) allows employers to claim a 
tax credit up to $2,400 during the first year of employment for hiring 
workers from certain disadvantaged groups. Ticket program participants 
are one of the groups for which the employer may take the credit. About 
one-third of our members who responded to our survey said they find the 
WOTC useful as an incentive for employers to hire our Ticket 
participants.
    NENA recommends that the WOTC be evaluated at its next 
reauthorization to consider increasing it to attract the interest of 
more employers. The WOTC and the amount of the credit was established 
in 1996. Using the Consumer Price Index Calculator found at 
www.bls.gov/data/inflation_calculator.htm, if the credit had been 
increased each year consistent with inflation, the rate would currently 
be $3,250. We recommend increasing it to that level and indexing it 
each year from there.
V. Capitalization
    NENA supports the outcome-based design of the Ticket program. 
However, it can take several months to appreciably start up a program 
during which an EN will not realize revenues. It can be quite costly 
and difficult from a cashflow perspective for ENs to capitalize their 
program. Consequently, many ENs start out very small and only add the 
program to serve consumers already served by their other programs. ENs 
need capital to take a larger number of tickets, especially from 
ticketholders who are not otherwise already engaged through other 
services. Lack of capital is likely another reason ENs have accepted 
such a small number of tickets.
    One of the key objectives of the Ticket program is to widen the net 
of available providers and services. Many of the ENs who responded to 
our survey are working through their State Vocational Rehabilitation 
agency instead of going it alone. In some ways, that defeats the 
purpose of expanding the availability of services other than the VR 
system. This is further exacerbated by the fact that VR agencies around 
the country are suffering under budget cuts, which reduces the 
availability of VR services.
    NENA has been advocating to bring in the Community Development 
Financial Institutions (CDFI) managed by the Department of Treasury. 
NENA is poised to develop a template business plan that ENs can 
customize for their organization and take to their local CDFI. 
Concurrently, NENA is advocating on a State-by-State basis to bring the 
local CDFIs on board to understand the Ticket to Work program with an 
eye toward infusing capital and financial technical assistance to ENs 
so they may use loans and grants to buffer them through the lengthy 
startup phases of their development.
    We believe that through the local NENA chapters discussed earlier, 
ENs can build collaborative efforts to approach their local CDFIs for 
the seed capital they need. We ask that the Social Security 
Subcommittee would notify the Department of Treasury to add Ticket 
program ENs to the list of programs that CDFIs consider funding. This 
will greatly assist ENs in working with CDFIs on the local level.

                                 <F-dash>

    Chairman TANNER. Thank you very much, Ms. Webb. We may well 
have some followup questions on your suggestions later on. So 
thank you for raising those.
    Mr. Golden, you are recognized, sir.

STATEMENT OF THOMAS P. GOLDEN, PRESIDENT, NATIONAL ASSOCIATION 
          OF BENEFITS AND WORK INCENTIVES SPECIALISTS

    Mr. GOLDEN. Thank you, Chairman Tanner, Ranking Member 
Johnson, and Members, thank you for inviting me to testify 
today on behalf of the National Association for Benefits and 
Work Incentives Specialists, a national association composed of 
many and varied professionals providing assistance to 
individuals who receive disability benefits and public 
entitlements.
    With the passage of the Ticket to Work and Work Incentives 
Improvement Act came a promise to millions of Americans with 
disabilities who receive SSI and SSDI, that they would have 
access to the critical supports that they need to realize the 
American dream: The ability to work and earn wages and not have 
the path to employment blocked by policy barriers and risks 
associated with losing critical health care coverage.
    Over a decade later, while we have minimized some obstacles 
in employment, this critical piece of legislation, as you had 
expressed earlier, has yet to fully recognize its potential. 
Today I would like to share with you our perceptions of 
successes to date, challenges for the future, and specific 
recommendations for your consideration to re-establish a new 
course that ensures not just achieving, but exceeding the 
original intentions and purpose of the Act.
    Specifically, my testimony is going to fall into four 
categories: Implementation of the Ticket to Work program; work 
CDRs, backlogs and overpayments; reauthorization of the work 
incentives outreach provision of the law; and SSA's 
demonstration authority.
    While prior to the release of the recent Ticket to Work 
regulation changes the outlook for the program seemed bleak, as 
you have heard from testimony from Sue Suter, there has been a 
new program released, and we have seen increased numbers of ENs 
engaged in the program, increased numbers of ENs actively 
participating, and increased numbers of payments to employment 
networks for successful outcomes.
    WIPA and PABSS, along with the area work incentive 
coordinators employed by SSA and other return-to-work partners 
have played a critical role in supporting these outcomes 
through a variety of strategic outreach events, including work 
incentive seminars, or WISE. These types of high-touch outreach 
events provide opportunities to educate community partners, and 
hold great promise for the continued success of the program.
    While we are hopeful that the new regulations and increased 
recruitment and marketing activities will continue to expand 
the universe of providers currently available under the 
program, we feel strongly that a national education campaign to 
increase beneficiary information regarding the program is very 
much needed. The ongoing need to educate beneficiaries, 
parents, and other stakeholders about the program and the 
opportunity that it provides is critical.
    Another challenge needing to be addressed is the extent to 
which the adequacy of incentives population, or the AOI 
population, in the original legislation is participating in the 
Ticket to Work program. While the new regulations and payment 
scheme for the program recognize and value beneficiaries who 
work part-time, there is no convincing data to date to 
substantiate that individuals requiring high-cost 
accommodations, beneficiaries who require long-term supports, 
or individuals earning sub-minimum wage are able to participate 
in the program.
    Therefore, we offer two recommendations for the 
Subcommittee's consideration to improve the Ticket to Work 
program.
    First, Congress should require SSA to conduct a general 
education campaign for beneficiaries, and allocate additional 
resources to WIPA for increased educational and outreach 
activities to support the program in recognizing its full 
potential.
    Second, Congress should require SSA to conduct a second 
adequacy of incentives study to gauge participation of this 
population in the program. This could be accomplished by 
modifying reporting requirements for ENs, and asking them to 
identify when a beneficiary is part of one of the four targeted 
groups.
    In regard to work CDRs, backlogs, and overpayment, NABWIS 
applauds Congress' allocation of personnel resources to SSA to 
aid them in addressing the issue of work CDRs, backlogs, and 
overpayments. But there is where we stop. This one area has 
done more to undermine the marketing of work incentives than 
any other single thing. NABWIS members, regardless of setting 
and location, are experiencing overpayments resulting from CDR 
backlogs and weak SSA operations in documenting earnings.
    We need to have resources allocated to SSA in the form of 
AWICs and WILs, because they play a critical role in 
adjudicating work issues on behalf of the Social Security 
Administration. Because the work CDRs are rarely done on a 
timely basis, even when beneficiaries report wages timely, the 
quality of the results can be greatly diminished.
    Also, the notices that are sent out are becoming poorer and 
poorer in quality, often not explaining the basis for 
decisions, as required by the regulations. Addressing the issue 
requires SSA to prepare and assign adequate personnel with 
knowledge of work and employment supports to process these 
critical work claims.
    Therefore, we would like to recommend that SSA expand the 
current AWIC and WIL corps of work incentives specialists that 
are outlined in the work incentive outreach provision of the 
law by 50 percent to increase resources for adjudicating these 
work claims.
    In regard to reauthorization of the work incentive planning 
and assistance programs, as well as the PABSS program, I 
presented information in my testimony that showed clear and 
convincing evidence of the positive outcome of that provision 
of the law.
    Most unfortunate, though, is recognizing that over the past 
two decades we continue to see a decrease in work incentive 
utilizations, specifically the IRWE, the PASS, the blind work 
expense, as well as other work incentive programs, despite our 
best efforts at providing more information. That speaks to a 
potential that possibly those work incentives aren't actually 
work incentives at all. While they may work for a very small 
portion of the population, they don't seem to be allowing 
individuals the necessary resources that they need to be able 
to start down that path to employment.
    We can't report to you on SSDI work incentives, because 
SSDI does not make that data public regarding the number of 
work incentives that are utilized under that program.
    Therefore, to close very quickly, we would like to 
recommend that Congress think, as they look at reauthorizing 
this piece of legislation, that they clearly set out a much 
more clear set of performance standards and indicators for the 
WIPA program, the PABSS, as well as the AWICs, as well as 
require a data management system that can be integrated with 
SSA administrative data to report attainment and progress 
toward specific employment goals, as well as to be able to 
begin to report on SSDI work incentive utilization, and just 
not the work incentives under the SSI program.
    I do have some additional thoughts regarding SSA 
demonstrations that are included in my testimony, and 
appreciate your consideration of those. Thank you.
    [The prepared statement of Mr. Golden follows:]
           Prepared Statement of Thomas P. Golden, President,
    National Association of Benefits and Work Incentives Specialists
I. Introduction
    Chairman Tanner and Members of the Subcommittee, thank you for 
inviting me to testify today on behalf of the National Association for 
Benefits and Work Incentives Specialists (NABWIS). I am both honored 
and proud to be here as the current President of the NABWIS--a national 
association composed of many and varied professionals providing 
assistance to individuals who receive disability benefits and public 
entitlements. In communities all across America, hundreds of benefits 
and work incentives specialists are trained to provide information and 
indepth analysis to individuals currently receiving benefits so that 
those individuals can make informed choices about employment. Some 
practitioners are funded by the Social Security Administration, some of 
us work for State agencies, while others work in community 
rehabilitation programs--all committed to seeing that people with 
disabilities get the highest quality information available to support 
choices regarding work and increased economic self-sufficiency. The 
profession of benefits and work incentives planning and assistance is a 
growing field--taking its place as a critical employment support 
service for individuals who receive disability benefits. I am extremely 
grateful for this Subcommittee's support and assistance in, among other 
things, efforts to increase employment support, and ensure that the 
Ticket to Work Act realizes its full potential.
II. Background
    With the passage of the Ticket to Work and Work Incentives 
Improvement Act came a promise to millions of Americans with 
disabilities who receive Supple- 
mental Security Income (SSI) and Social Security Disability Insurance 
(SSDI) that they would have access to the critical supports they need 
to realize the American dream--the ability to work and earn wages and 
not have the path to employment blocked by policy barriers and risks 
associated with losing critical health care coverage. Over a decade 
later, while we have minimized some obstacles to employment resulting 
in increased employment participation and created some new health care 
options, the vision cast on December 17, 1999 and potential of this 
critical piece of legislation has yet to be fully recognized.
    Today, I would like to share with you our perceptions of successes 
to date, challenges for the future, and specific recommendations for 
your consideration to reestablish a course that ensures not just 
achieving but exceeding the original intentions and purpose of the Act. 
A critical part for resetting that course is the ongoing commitment of 
this Subcommittee to continue to identify and remove obstacles to 
employment for beneficiaries who want to work while at the same time 
encouraging and supporting the SSA to continue the culture shift within 
their work environment to become focused on return-to-work. 
Specifically, we will address the overall implementation of the Ticket 
to Work and Self-Sufficiency program; Work CDRs, backlogs and 
overpayments; reauthorization of the work incentives outreach provision 
of the law; and, SSA's demonstration authority.
III. The Implementation of the Ticket to Work and Self-Sufficiency 
        Program
    As mentioned earlier, Congress hoped that the creation of the 
Ticket program would: Stimulate private sector providers and employers 
to participate; engender competition, and; empower beneficiaries with 
more choices and greater involvement in the employment and 
rehabilitation process. While in 2004, with the release of the Ticket 
to Work and Work Incentives Advisory Panel's report, ``The Crisis in EN 
Participation,'' the outlook seemed bleak for the Ticket to Work 
program, SSA's promulgation of new regulations, increased focus on 
marketing and recruitment and alignment of the WIPA, PABSS and AWIC 
efforts to strategically support employment outcomes heralded a new 
beginning for the program.
    As you will hear in other testimony today, implementation of the 
new Ticket to Work program has increased the number of ENs engaged in 
the program, the number of ENs actively participating, the number of 
payments to ENs for successful outcomes, and increased numbers of 
beneficiaries achieving successful work outcomes. WIPA, PABSS, AWICs 
and other return to work partners have played a critical role in 
supporting these outcomes through a variety of strategic outreach 
events, including Work Incentives Seminars (WISE). These types of high-
touch outreach events provide opportunities to educate community 
partners and hold great promise for the continued success of the 
program.
    While we are hopeful that the new regulations and increased 
recruitment and marketing activities will continue to expand the 
universe of providers available under the program, a national education 
campaign to increase beneficiary information regarding the program is 
needed. Beneficiaries need to hear information about return to work 
from more than just one sector, and more than one time to consider 
employment options. The ongoing need to educate beneficiaries, parents 
and other stakeholders is critical. They need to hear the information 
several times from knowledgeable people who provide accurate 
information. Individuals who do not understand or trust the information 
will not choose to work. The programs in the work incentives outreach 
provision of the law are tasked with huge responsibilities to support 
successful outcomes under the Ticket to Work program. Another challenge 
needing to be addressed is the extent to which the Adequacy of 
Incentives (AOI) population in the original legislation is 
participating in the Ticket to Work program. While the new regulations 
and payment scheme for the program recognize and value beneficiaries 
who work part-time, there is no convincing data to substantiate that 
individuals requiring high cost accommodations, beneficiaries who 
require long-term supports or individuals earning sub-minimum wage are 
participating in the program. While SSA has used administrative data to 
attempt to identify these potential populations, the experience of 
disability is not homogenous and specific disability categories are not 
representative of the AOI populations. We offer two recommendations for 
the Subcommittee's consideration. Congress should require SSA to 
conduct a general education campaign for beneficiaries and allocate 
additional resources to WIPA for increased educational and outreach 
activities to support the program in recognizing its full potential. 
Congress should require SSA to conduct a subsequent AOI study to gauge 
participation in the program. This could be accomplished by modifying 
reporting requirements for ENs and asking them to identify when a 
beneficiary is part of one of the four targeted populations.
IV. Work CDRs, Backlogs and Overpayments
    NABWIS applauds Congress' allocation of personnel resources to the 
SSA to aid them in addressing the issue of work CDRs, backlogs and 
overpayments. Beyond that though, this is the one area that has done 
more to undermine the marketing of work incentives than any other 
single thing. NABWIS members, regardless of setting and location, are 
experiencing overpayments resulting from CDR backlogs and weak SSA 
operations in documenting earnings. One of the most critical work 
support roles that SSA can engage in is the timely input of wages and 
processing decisions based on that information. SSA has had pockets of 
excellence in addressing these operations issues. In New York State, as 
part of the State Partnership Initiative from 1999-2005 interventions 
under this research demonstration almost eliminated the occurrence of 
overpayments. A key to the success of this part of that intervention 
was adequately trained and allocated personnel within the SSA office to 
process work claims. AWIC and WIL personnel play a critical and vital 
role in adjudicating work issues. Because the work CDRs are rarely done 
on a timely basis, even when beneficiaries report wages timely, the 
quality of the results can be greatly diminished. Also, the notices 
that get sent out are becoming of poorer and poorer quality, often not 
explaining the basis for decisions as required by the regulations. A 
huge process finding from the $1 for $2 benefit Offset Pilot was the 
number of overpayments and inappropriate suspension of benefits that 
were the result of delays in development of the Trial Work Period 
(TWP). The inability of SSA to manage the TWP in a timely manner is 
itself an additional work disincentive. The TWP is an ineffective work 
incentive that is costly for SSA to administer. Addressing this issue 
requires SSA to prepare and assign adequate personnel with knowledge of 
work and employment supports to process work claims. This investment of 
personnel, while costly at first will prove advantageous in the long 
run as work claims are processed in effective and proactive ways. We 
recommend that: SSA expand the current AWIC and WIL corps of work 
incentive specialists by 50% to increase resources for adjudicating 
work claims and increasing contact and outreach within local 
communities.
V. Reauthorization of the Work Incentives Outreach Provision of the 
        Ticket to Work Act
    Since the passage of the Ticket to Work Act, extensive work 
incentives training and dissemination efforts have been implemented 
nationally as a result of the work incentives outreach provision of the 
law which included three important dimensions: Development of a corps 
of work incentive specialists within the SSA; a national network of 
benefits and work incentives planning and assistance practitioners, 
and; protection and advocacy services and supports for beneficiaries of 
Social Security. Generally, the purpose of the work incentive outreach 
provision of the law was to increase the availability of work incentive 
information to disability beneficiaries to support informed choice 
regarding work. While clearly there was a well-documented need for 
knowledge dissemination about work incentive provisions, an underlying 
assumption of many in the disability community leading up to the 
passage of the Act was that increased knowledge would translate into 
individual beneficiary change as well as organizational practice 
change. Yet, research on organizational change suggests that knowledge 
transfer alone is often not sufficient to bring about behavioral 
changes in individuals and/or organizations. Similarly, research shows 
that knowledge-based training programs may be weak interventions for 
bringing about organizational change; the barriers to changing 
individual and organizational practice may not be based in insufficient 
knowledge. Rather, barriers to change may lie more in elements of 
individual and organizational culture that subtly contradict the aims 
of the intended change.
    There are many successes along the road to implementation of this 
provision of the law that should be celebrated.
    A customer satisfaction survey conducted by the SSA in 2004 of a 
random sampling of 1,764 beneficiaries having accessed benefits 
planning, assistance and outreach services found that: 89 percent of 
respondents rated the counseling they received as ``good,'' 94 percent 
felt the information they received was correct and 21 percent began 
working subsequent to having received benefits counseling. While the 
survey also found that only 43 percent of respondents stated that the 
benefits counselor contacted someone on their behalf to move them into 
employment, SSA developed an action plan to realign the national 
network reinforcing their role as an essential support leading to 
employment and strategically conducting outreach to populations of 
beneficiaries with an expressed interest in work.
    From the establishment of the original BPAO initiative to the 
current Work Incentives Planning and Assistance (WIPA) network we have 
seen increasing numbers of individuals returning to work under the SSI 
program and participating in the 1619(b) provision (from 6.7% in 1999 
to 7.9% in 2007 with an approximate 7% increase in 1619(b) 
participation rates).
    Research from the State of Vermont showed a 102% increase in 
earnings after an enrollment in benefits and work incentives counseling 
for beneficiaries who chose to work. The study also documented that in 
the year following enrollment in benefits and work incentives 
counseling that participants brought in an additional $800,000 in 
additional earnings and raised their employment rates from 35-50%. The 
study's conclusions highlight that enrollees earned on average $1,400 
more after enrolling in benefits counseling services. Similar empirical 
results have been found in other States like New York, Minnesota, 
Wisconsin, Connecticut and others although average costs for services 
varies based on level of intensity, credentials and level of 
preparation of personnel and other variables.
    The SSA has successfully established an internal corps of work 
incentive specialists through the Area Work Incentive Coordinators 
(AWICs) and Work Incentive Liaisons (WILS) that have become integral 
change agents not only within the SSA but also on a regional and 
Statewide level.
    While we celebrate the successes of this provision to date, the 
future holds many challenges.
    While the network of work incentives practitioners have contributed 
to increased employment outcomes for beneficiaries, we have seen no 
improvement in work incentive utilization. In 1995, 10,322 SSI 
recipients were using the PASS as a work incentive. By 2000, only 1,382 
SSI recipients were using the PASS.\1\ While the number of SSI 
recipients using a PASS increased to 1,582 in 2005 through the BPA&O 
years, since implementation of the WIPA initiative the number of PASS 
has declined to 1,515 in 2007. Use of an IRWE as a work incentive 
continues on a steady decline as well from 9,940 SSI recipients in 1995 
to 5,161 in 2007. Use of BWE as a work incentive has shown more than a 
50% reduction in utilization from 4,433 SSI recipients in 1995 to 2,142 
SSI recipients in 2007. This data might suggest the existence of a 
knowing/doing gap on several fronts. First, potentially the knowledge 
gained from work incentive training programs may not be translating 
into ``doing'' or assisting the beneficiary into putting an action plan 
into place that results in work incentive utilization or employment. 
Further, it recognizes that the choice to work lies in the hand of the 
beneficiary and there may be other obstacles out of the control of the 
profession that come to bear on the beneficiary's final decision. 
Finally, it may provide strong evidence that the current package of 
work incentives continue to be too complicated and may not provide 
adequate enough incentives to make work pay. Regardless of the reason, 
this does not augur well, and holds significant implications for the 
ongoing evolution of public policy--with an emphasis not only on 
knowledge-based learning objectives but also behavioral and 
performance-based objectives as well.
---------------------------------------------------------------------------
    \1\ During the spring of 1996 SSA completely redesigned the way in 
which the PASS incentive was administered in response to a report 
issued by the GAO. This drastically reduced the number of PASS in the 
United States.
---------------------------------------------------------------------------
    Recipients of cooperative agreements under the WIPA program, as 
well as PABSS, have operated on the same or reduced levels of funding 
now for more than 8 years, meaning that resources/staffing is going 
down when the demand for work is going up. At the same time, SSA has 
not conducted research or required a rigorous data management system to 
document costs of services under either program to substantiate the 
need for increased allocations. Data clearly substantiates that both 
projects can have a positive impact on employment outcomes if funding 
is increased substantially.
    The current AWIC and WIL networks are spread too thin and while 
having a positive impact on a larger regional and Statewide level, 
cannot make a meaningful contribution at the local level where it is 
needed most.
    The lack of performance benchmarks for the work incentives outreach 
provision of the Act make it difficult to gauge the effectiveness of 
work conducted to date. The Ticket to Work and Work Incentives Advisory 
Panel in their report entitled ``Update, Simplify and Educate: A 
National Call to Optimize Work Incentives'' called for establishment of 
clear performance objectives and standards for these networks although 
to date no action has been taken to build in accountability measures.
    Unfortunately, we were not able to present data on the return to 
work and work incentive utilization rates of SSDI beneficiaries as SSA 
does not produce annual statistical supplements of this information. 
The Ticket to Work and Work Incentives Advisory Panel in both their 
Final Report and Work Incentive Utilization Report provided clear 
guidance to the SSA as to the need for this information, format and 
frequency with which it should be reported although to date the SSA has 
yet to respond to this critical guidance.
    To continue to broaden the impact of this provision, we strongly 
recommend action in the following areas:
    Require the SSA to conduct a demonstration to simplify the existing 
array of work incentives that exist and improve consistency across the 
SSI and SSDI programs.
    Expand the current allocation of resources for both the WIPA and 
PABSS by 25% with an annual cost of living adjustment to ensure that 
the existing workforce and effort are maintained at adequate levels. 
Subsequently, require the SSA to conduct a cost/benefit analysis to 
determine per beneficiary costs to provide a formula for future 
allocations.
    Expand the resources available to the SSA to increase the number of 
AWIC/WIL 50% to increase impact at the local level.
    Identify a clear set of performance standards and indicators for 
the three facets of the work incentives outreach provision and a 
national data management system that can be integrated with SSA 
administrative data to report attainment and progress toward these 
benchmarks.
    Require the SSA to collect and annually distribute a statistical 
supplement/update on the return to work and work incentive utilization 
rates of SSDI beneficiaries.
VI. SSA's Demonstration Authority
    The Benefit Offset Demonstration. Under the Ticket to Work Act, SSA 
was required to conduct a national demo of a $1 for $2 offset for the 
SSDI program to address the issue of the substantial gainful activity 
cliff. Until very recently there have been no research data to support 
the assumption that beneficiaries would increase their employment if an 
offset were available. However, in 2008, data from the four pilot 
projects in Connecticut, Utah, Vermont and Wisconsin established by the 
Social Security Administration (SSA) have begun to provide clear 
evidence that a gradual offset of SSDI benefits would result in 
increased earnings. Originally, the State pilots were established as an 
implementation test, to inform a much larger national demonstration 
planned to start in 2009 and be completed in 2015. However, the pilots 
were each implemented with a rigorous experimental research design and 
have each begun to produce outcome data. To date, the results from the 
States appear to support a gradual offset as policy for the SSDI 
program.
    Based on the experiences and results from these States, a policy 
change could accomplish several important goals: Increase the 
employment levels of SSDI beneficiaries; increase the economic well-
being and self-sufficiency of SSDI beneficiaries; generate cost savings 
or at minimum be cost neutral to the Trust Fund; simplify the 
administration of the SSDI program.
    While the four pilot States are producing very promising data to 
reinforce the need for significant policy change, it has been over a 
decade and the national demonstration has still not happened. At this 
rate, even if the demo occurs, there will not be results until 2017. 
The four State pilots have already produced data indicating an offset 
would result in increased earnings rates for beneficiaries. While the 
numbers are small, the pilots were conducted using random assignment 
experimental design. In addition, the SSA Advisory Council in an April 
2009 policy brief, has proposed SSA look to modeling and simulation to 
evaluate the possible impact of a $1 for $2 instead of doing a lengthy 
demo that may not yield results that are useful in terms of 
policymaking. They support the implementation of an SSI like offset for 
DI beneficiaries will ``do much to encourage work by SSDI 
beneficiaries.'' There is concern that the large scale of the demo 
(across 10 sites) and the inevitable implementation challenges that SSA 
and the sites will experience will result in a false negative result. 
For example, if SSA ramps up the demo without sufficient resources on 
the ground (benefits counseling and other supports), the first couple 
of years of the demo will be lost because folks simply won't understand 
it. Also, if there are implementation issues with administration of the 
offset beneficiaries will be unwilling to risk participation for fear 
of errors.
    Based on the results to date and to accomplish the intended goals 
of Congress, the following broad policy changes are recommended:
    A $1 reduction (offset) of SSDI cash benefits for every $2 in 
employment earnings.
    Elimination of the ``Trial Work Period'' and ``Extended Period of 
Eligibility.''
    Continued attachment to the SSDI program for beneficiaries.
    These proposed policy changes would bring the work rules of the 
SSDI program into alignment with other broad State and Federal program 
initiatives launched under the umbrella of the 1999 Ticket to Work and 
Work Incentives Improvement Act. Most importantly, this change will 
provide beneficiaries with significant disabilities the opportunity to 
try to return to work without risking everything in the process.
    SSA Demonstration Authority. It is critical that SSA be provided 
ongoing authority to demonstrate program innovations that promote 
return to work and test new approaches to establishing disability 
standards. While SSA has executed their authority in the past, it has 
only been as directed by Congress. It is critical that this 
Subcommittee identify demonstration priorities for the next 10 years 
that contribute to innovations that result in reduction of the 
disability rolls and promote increased employment outcomes. Beyond 
rolling out the policy recommendations above pertaining to the $1 for 
$2 offset under the DI program, Congress should direct SSA to conduct 
additional demonstrations that include:
    Creating, piloting and evaluating new work incentives that 
streamline, simplify and bring consistency between both the SSI and DI 
program.
    Creating, piloting and evaluating a new disability standard leading 
to a voluntary and elective short-term employment support benefit.
    These recommendations are consistent with past recommendations put 
forth by the Ticket to Work and Work Incentives Advisory Panel in their 
final report.
VII. Conclusion
    I would like to thank you again for the privilege and opportunity 
to appear before you today, and to thank the SSA and its staff for 
their hard work, vision and commitment to ensuring that disability 
beneficiaries have access to the critical employment supports they need 
to realize the American dream. I would be happy to answer any questions 
you might have.

            Respectfully submitted,

            Thomas P. Golden, President
            National Association of Benefits and Work Incentives 
Specialists

              Cc: NABWIS Board of Directors

                                 <F-dash>

    Chairman TANNER. Thank you. As all of you know, your 
statement in its entirety is in the record, and that staff is 
already looking at some of the suggestions. So, thank you for 
your testimony.
    Dr. Growick, you have the floor, please.

      STATEMENT OF BRUCE GROWICK, ASSOCIATE PROFESSOR OF 
 REHABILITATION SERVICES, THE OHIO STATE UNIVERSITY COLLEGE OF 
                   EDUCATION, COLUMBUS, OHIO

    Mr. GROWICK. Yes. Thank you, Chairman, and Members of the 
Subcommittee. I certainly do appreciate being here. My name is 
Bruce Growick, and I am on faculty at Ohio State University, 
where I train rehabilitation professionals at the master's 
level, those individuals who work both in the public and 
private sector to return individuals with disabilities back to 
work.
    For those of you who are perhaps not familiar with the 
Ticket program, since it does have a rather strong legacy, and 
having been dated back to the 1980s with initial demonstration 
projects, I do have two scholarly papers that I have authored 
that are going to be included in the record, and I strongly 
encourage you to take a look at them if you are not familiar 
with the Ticket.
    One is entitled, ``The Political Implications of the 
Ticket,'' which outlines the quid pro quos of the basic aspects 
of the Ticket that were important, in terms of it initially 
getting passed.
    The second article, which was published afterward, is 
entitled, ``The Unintended Consequences of an Imperfect Law.'' 
And in that article what I try to do is outline what the 
current shortcomings of the Ticket are.
    And what I am here to do today is to share with you my 
disappointment with the Ticket. I was involved in the Ticket as 
early as the 1980s, when Social Security Administration first 
developed demonstration projects showing that rehab counselors 
in the private sector, as they do in other disability venues, 
such as workers compensation, long-term disability, and 
personal injury cases, help individuals with disabilities 
return to work.
    With those demonstration projects, it became clear that the 
existing sole provider of rehabilitation services, namely the 
State Federal system, should not be the only provider of 
rehabilitation services, return-to-work services. So, what the 
Ticket did, in part, was provide an opportunity for private 
providers, called the ENs, to become part of the equation in 
helping the over 10 million Social Security beneficiaries 
return to work.
    Unfortunately, that has not been the case. The number of 
ENs that are participants in the Ticket to Work program is very 
small, if not totally negligible. Individuals that I train at 
the master's level at the university are clearly not interested 
in entering into this venue to provide services for individuals 
who sorely need them.
    The Ticket to Work program has not increased the number of 
beneficiaries that have returned to work. Initially, in the 
preamble of the law, it talks about the State Federal rehab 
system returning less than one-half of 1 percent of 
beneficiaries back to work. And that has continued to be the 
case. The Ticket program has not had an appreciable and 
positive impact on the number of individuals who are receiving 
Social Security benefits.
    In my remarks I would like to make three suggestions, in 
terms of ways in which perhaps this can be improved. First of 
all, the Social Security Administration convened a committee of 
which I was a part a couple of years ago called, The Adequacy 
of Incentives. That committee focused on the beneficiaries and 
incentives that would increase the number of beneficiaries who 
might be interested in the program.
    What I would like to suggest to the Committee is that you 
convene, through the Social Security Administration, a similar 
committee to focus on the ENs, the providers, the providers of 
the other half of the equation here, those individuals, other 
than that State Federal rehab system that can return 
individuals with disabilities back to work. It is crucial that 
you make the Ticket program as inviting and as friendly to 
providers as you do to beneficiaries.
    Second of all, regarding the WIPA program and the PABSS 
program, I would like to see some goals and milestones attached 
to those programs that are related to the return to work. The 
purpose those provisions are in the Ticket is to help 
beneficiaries understand the Ticket program and return to work. 
If those milestones or goals are not included, then perhaps the 
WIPA program and the PABSS program can be decoupled from the 
Ticket program.
    And then, lastly, as a creative suggestion, I would like to 
see the State Federal VR system focus on individuals who are 
applicants to the Social Security disability system, and not 
necessarily beneficiaries. If one separates out the service 
providers between public and private, in terms of who is 
disabled under Social Security and who isn't, I think we can 
accomplish a lot more.
    Thank you very much for the opportunity to provide these 
comments. I would be happy to answer any questions that you 
might have.
    [The prepared statement of Mr. Growick follows:]
                  Prepared Statement of Bruce Growick,
            Associate Professor of Rehabilitation Services,
     The Ohio State University College of Education, Columbus, Ohio
        Employment Support Programs for Disability Beneficiaries
(1) Biographical Statement
     <bullet>  Faculty member at Ohio State University in Vocational 
Rehabilitation Services since 1982.
     <bullet>  Former State Director of the Vocational Rehabilitation 
Division of the Bureau of Worker's Compensation in Ohio (1989-1990).
     <bullet>  Past National President of the Association of 
Rehabilitation Professionals (1994-1995).
     <bullet>  Presidential Appointee to the U.S. Access Board (2002-
2006).
     <bullet>  Practicing vocational rehabilitation professional with 
SSA, Ohio Workers' Compensation, Ohio Police and Firemen Disability 
Fund, and civil courts (1992-present).
(2) Involvement with the `Ticket'
     <bullet>  As President of the Association of Rehab Professionals 
in the Private Sector (which has 3,200 members nationally and 38 State 
Chapters) in 1995, I was asked to represent vocational rehab 
professionals in disability determination and management in various 
settings, such as workers' compensation, personal injury, Social 
Security, and pension funds.
     <bullet>  Participated in the negotiations for the passage of the 
Bill during the 1990s, and attended the Bill signing ceremony in 12/
1999.
     <bullet>  Conducted for the SSA a national survey of ENs in 2002 
on their interest in providing services under the `Ticket' program.
     <bullet>  Participated in the Adequacy of Incentives (AOI) 
committee of SSA that developed the most recent rule changes in the 
`Ticket.'
     <bullet>  Has presented numerous times to the `Ticket' Advisory 
Panel on the role and functions of ENs in the `Ticket' program.
     <bullet>  As a Commissioner for VR in Ohio, I have continued to 
promote the advantages of the `Ticket' for RTWs, such as suggesting the 
use of Federal stimulus money for the development of ENs.
(3) The Basic Premise of the `Ticket' (Insert for the Record: Growick, 
        Bruce (2001). ``The Political Implications of TTW-WIIA.'' 
        Rehabilitation Education. 15(1), 89-93.)
     <bullet>  The GAO has repeatedly reported in the 1990s that many 
SSA disability beneficiaries are not receiving RTW services under the 
model of RSA as the sole provider of VR services.
     <bullet>  Other indemnity systems, such as Workers' Compensation 
and Long-Term Disability, use independent rehabilitation professionals 
(i.e., the private-sector) to return beneficiaries to work and save 
Trust Fund money.
     <bullet>  The SSA in Demonstration Projects in the late 1980s and 
early 1990s substantiated the fact that 12-15% of the SSA beneficiaries 
would be feasible for RTW services with 5-8% actually returning to work 
and saving the Trust Fund money.
     <bullet>  `Consumer Choice' or `Fair Trade' in the delivery of VR 
services to SSA disability beneficiaries should be paramount.
     <bullet>  According to a national study by the GAO, the major 
obstacle or disincentive for SSA disability beneficiaries to RTW is 
health care, and NOT monthly cash payments.
     <bullet>  The basic `quid pro quo' of the `Ticket' is the 
provision of health care coverage to RTW beneficiaries, in return for 
the use of the private sector for those RTW services.
(4) Why the `Ticket' is Currently Not Working (Insert for the Record: 
        Growick, Bruce (2003). ``The Ticket to Work: The unintentional 
        consequences of an imperfect law.'' Rehabilitation 
        Professional. 12(3), 18-21.)
     <bullet>  The eventual rules and regulations covering the `Ticket' 
were not provider (EN) friendly, such as the enrollment process, the 
fee schedule including milestone and annuity payments, the inability to 
review cases before contact, and the overall lack of cooperation of SSA 
as the regulatory body for the `Ticket' program.
     <bullet>  Even though the `Ticket' program was not meant for 
everyone, as the SSA demo projects indicated, the guidelines developed 
for the program tried to be too inclusive. All disabilities and 
functional limitations, i.e., potential barriers to employment, are not 
the same.
     <bullet>  The State-Federal VR System continues to monopolize the 
delivery of VR services to SSA beneficiaries, and is still not willing 
to relinquish its role as sole provider of rehab services; it is `all 
about the money.'
(5) Where Are We Now and What Should Be Done
     <bullet>  SSA still needs to function more like a private 
insurance company, and less like a public bureaucracy if possible.
     <bullet>  VR services, after disability determination, should be 
delivered by the private sector under the `Ticket' where competition 
among providers makes it more effective and efficient.
     <bullet>  WIPA and P&A services, although worthy services, should 
not be tied to the `Ticket' program.
     <bullet>  With looming health care changes, it is imperative to 
reexamine the basic `quid pro quo' of the `Ticket.'
     <bullet>  The State-Federal system of VR should concentrate mostly 
on RTW services for pre-SSA disability cases.
     <bullet>  Different VR paradigms exist across the country for 
different indemnity systems with the same goal: Reduced Trust Fund 
payments, and more RTWs.
(6) Summary
     <bullet>  Vocational rehabilitation is a necessary element of the 
SSA disability program which is good for both SSA Trust Fund and 
beneficiaries when done `right.'
     <bullet>  The rules and regulations for the `Ticket' program 
should be evaluated and reformulated for their willingness to 
incorporate ENs into the service delivery system, just like the 
incentives were.
     <bullet>  The WIPA and P&A programs, although laudatory, should be 
decoupled from the `Ticket' program.
     <bullet>  Greater synergy should be developed between SSA and RSA 
in the delivery of VR services to applicants for, rather than 
beneficiaries of SSA disability (i.e., an early intervention program).

    Thank you for the opportunity to present these observations and 
suggestions to you, and I am pleased to respond to any questions that 
the Subcommittee Members may have.

                                 <F-dash>

    Chairman TANNER. Thank you very much. A most interesting 
presentation, and we will follow up.
    Dr. Kregel, you have the floor.

    STATEMENT OF JOHN KREGEL, CENTER ASSOCIATE DIRECTOR AND 
    DIRECTOR OF RESEARCH, VIRGINIA COMMONWEALTH UNIVERSITY, 
   REHABILITATION RESEARCH AND TRAINING CENTER ON WORKPLACE 
         SUPPORTS AND JOB RETENTION, RICHMOND, VIRGINIA

    Mr. KREGEL. Mr. Chairman, thank you very much for this 
opportunity. I will focus my comments today on SSA's employment 
programs, particularly the WIPA program.
    First, I would like to say that, while we, as a country, 
spend over $100 billion per year on our disability benefit 
programs, SSA spends far less than $1 billion on our efforts to 
return beneficiaries to work. The programs that you have heard 
about today, funded under the Ticket legislation, represent 
SSA's only effort to assist beneficiaries to work their way 
back off benefits.
    These programs should be carefully designed, stringently 
monitored, and continuously evaluated. The parts of the 
programs that are not working should be fixed or eliminated. 
The parts that are working successfully should be maintained 
and expanded.
    Let me now turn my attention to one of these programs, the 
Work Incentive Planning and Assistance, or WIPA, program. The 
WIPA program is a large, SSA-operated employment program which 
has provided assistance to over 350,000 SSA beneficiaries since 
its inception. The WIPA program is not focused on helping 
individuals remain on benefits, express complaints or concerns 
to SSA, or solve every beneficiary payment problem. It has a 
clear, concise mission: Assist the 2 million current 
beneficiaries who today are working or actively seeking 
employment, to ultimately work their way off of SSA cash 
benefits.
    Let me provide you an example based on these data. The 
Center for Independent Living of Middle Tennessee work 
incentive planning and assistance program serves 40 counties in 
western and central Tennessee, an area that contains more than 
150 WIPA-eligible adults with disabilities receiving SSI and/or 
SSDI. Best estimates indicate that there are 15,000 
beneficiaries residing in these counties who have engaged in 
employment, or actively sought employment during the past 12 
months alone. These individuals should be the focus of SSA's 
return-to-work efforts.
    The CIL in middle Tennessee is recognized as one of the 
best WIPA projects in the country. It's a highly productive 
program, staffed by outstanding CWICs. The project has provided 
intensive WIPA services to over 1,200 beneficiaries since its 
inception in 2006 alone. The situation is equally challenging, 
and full of opportunities in each of the districts represented 
by your colleagues on the Committee.
    My written testimony documents only a few of the remarkable 
case studies that are occurring daily across the country, 
illustrating how beneficiaries are obtaining employment for the 
first time, returning to employment after a lengthy absence, or 
working their way off benefits with the assistance of a CWIC, a 
community work incentive coordinator.
    But WIPAs are overwhelmed and extremely frustrated at their 
inability to meet the needs of all the beneficiaries requesting 
their services. Their meager funding--the program has been 
flat-funded since its inception in 2000--makes it difficult for 
them to provide effective and timely services. Wait lists for 
WIPA services in many of your districts are reaching 30 days. 
This flies in the face of everything we know about providing 
employment services, which should be provided to the 
individuals at precisely the moment where they have made a 
serious commitment to obtain or return to employment.
    An additional 1,000 CWICs could work tomorrow to 
significantly improve the current lack of program capacity. 
Since current evidence indicates that WIPA services such as 
those provided by Easter Seals of Greater Northwest Texas can 
increase the rate of beneficiaries working their way off 
benefits to three times over the national average, this type of 
increase would ultimately result in savings to both the Trust 
Fund and the general fund.
    Also, additional CWICs are required to prevent or 
ameliorate the effects of overpayments. The overpayment problem 
may be difficult for you to grasp, Mr. Chairman. It seems 
illogical, because it is illogical. The system isn't designed 
to pay beneficiaries the proper amount of benefits. It is 
designed to pay them too much, and then demand that they pay it 
back, even though the individual is trying to work, reduce or 
eliminate the need for disability benefits, and has complied 
with all program rules for timely reporting.
    Overpayments are built into our system. They are 
demoralizing to working beneficiaries, and frequently result in 
the individual disengaging from the workforce. With funding for 
an additional 200 CWICs, the WIPA program can significantly 
ameliorate the impact of overpayments on individuals and their 
families, and help to ensure that the problem doesn't lead to 
individuals abandoning their employment efforts altogether.
    Finally, additional resources to the WIPA program would 
increase services to underserved populations. There are 
subgroups of the beneficiary population, as has been pointed 
out, that are not adequately served by the WIPA program at the 
present time. Foremost among these are transition-aged youth 
leaving secondary special education programs and veterans who 
receive disability compensation or disability pension benefits 
under VA, as well as Social Security benefits. An additional 
200 to 400 CWIC positions would enable the WIPA program to 
seriously meet this unmet need.
    Mr. Chairman, thank you very much for your opportunity, and 
I look forward to responding to any questions you may have.
    [The prepared statement of Mr. Kregel follows:]
      Prepared Statement of John Kregel, Center Associate Director
      and Director of Research, Virginia Commonwealth University,
             Rehabilitation Research and Training Center on
        Workplace Supports and Job Retention, Richmond, Virginia
    Work Incentives Planning and Assistance (WIPA) is an integral part 
of SSA strategy to promote employment among SSA beneficiaries, reduce 
dependence on SSI and SSDI cash benefits, reduce the number of 
burdensome overpayments and other post entitlement problems experienced 
by beneficiaries engaged in employment, and decrease Trust Fund and 
general fund expenditures by reducing cash payments to beneficiaries. 
Authorized by Section 121 of the Ticket to Work and Work Incentive 
Improvement Act of 1999, 104 WIPA projects are providing services to 
SSA beneficiaries in all 50 States and territories. Collectively, the 
104 projects employ over 400 Community Work Incentive Coordinators 
(CWICs), many of whom are themselves individuals with disabilities, and 
have served over 350,000 individuals since the program's inception in 
2000.
    The mission of the WIPA program is to provide timely and accurate 
information to beneficiaries on SSA's work incentives and other Federal 
efforts to remove regulatory and programmatic barriers to employment 
for persons with disabilities. To achieve this purpose, the program 
uses a highly skilled and rigorously trained cadre of CWICs to provide 
individual counseling to beneficiaries seeking employment and intensive 
followup services to ensure that the beneficiaries are using the work 
incentives appropriately, that they have been connected to employment 
service programs in their community, and that they are communicating 
their work activities to the Social Security Administration. CWICs in 
local WIPA programs work with individual beneficiaries to explain the 
myriad of regulations, provisions, work incentives and special programs 
that complicate an individual's decision to enter or reenter the 
workforce.
    The questions posed to benefits specialists by beneficiaries are 
basic and straightforward. What will happen to my benefit check if I 
return to work? I want to start my own business--is this possible if I 
receive SSA benefits? I am currently working and got a letter from SSA 
indicating that I have been overpaid and have to pay back money--can 
you help me? I want to start a new career--where should I begin? As 
simple and basic as these questions are, their answers are often 
complex and highly individualized. Even more frustrating to 
beneficiaries is the overwhelming amount of confusing and inconsistent 
information they often receive from SSA field offices, Employment 
Networks, Vocational Rehabilitation and other agencies involved in the 
employment process. This sea of misinformation makes employment seem a 
perilous and terrifying undertaking and lessens the resolve of many 
beneficiaries to pursue their career goals.
    The WIPA program is designed to fill this information void by 
providing beneficiaries access to complete, individualized information 
from a trained professional in a confidential setting apart from SSA. 
SSA field office staffs, overwhelmed with processing current disability 
claims, are simply unable to provide this level of intensive services. 
Armed with an understanding of the impact of employment on their 
benefits, beneficiaries can confidently pursue employment options, 
maintain health care coverage, and obtain necessary employment supports 
and services. With the help of benefits planning and assistance, 
beneficiaries can take charge of their own careers without the constant 
worry that the application of an unknown rule or a mistake by a Federal 
caseworker will jeopardize their ability to pay for their basic needs 
or treat their health conditions.
    It's about trust. If beneficiaries are to accept personal 
responsibility for their careers and their economic self-sufficiency, 
they have to be able to trust the information they receive and the 
service providers that assist them. If beneficiaries are told that 
employment will affect their benefits in a certain manner, they have to 
be able to trust and act on that information. If individuals with 
diabetes, epilepsy or a psychiatric disability are told that they will 
still have access to health care coverage even though they no longer 
receive a cash benefit from SSA, they must be able to depend on this 
information, as erroneous information may literally put them in a 
potentially life-threatening situation. If an individual complies with 
all SSA regulations and reporting requirements and SSA fails to 
accurately apply the reported information to the individual's case, the 
resulting overpayment can have a catastrophic and disheartening effect 
on even the most courageous and patient beneficiary. Viewed from this 
perspective, the WIPA program is the most basic of all employment 
services. For example:

    <bullet>  Staff from the Center for Independent Living--Middle 
Tennessee report talking to many individuals who have received 
conflicting and often inaccurate information from the Vocational 
Rehabilitation agency, SSA field offices, and Employment Networks. This 
confusion increases fear and causes concerns among beneficiaries 
bravely attempting to return to work.
    <bullet>  In eastern Pennsylvania, WIPA project staff members 
describe a number of consumers who have stopped working while on 
benefits because of substantial overpayment situations, many of which 
occur even though the beneficiaries have maintained meticulous earnings 
records and are accurately following SSA wage reporting procedures.
    <bullet>  In Kentucky, staff from the Center for Accessible Living 
report that beneficiaries have responded positively to the simple fact 
that accommodations such as sign language interpreters are provided by 
the WIPA project upon requests. Many beneficiaries have noted they have 
not been provided accommodations at the SSA office even when requested.
    <bullet>  In California, most beneficiaries contacting the Familia 
Unida WIPA project have language and cultural barriers that affect 
their communication with SSA. Most of these individuals are afraid to 
call the SSA office and are not clear about the information they have 
received.

    This testimony contains four sections. The first section discusses 
the need for WIPA services and summarizes current program outcomes. The 
second section describes the job of the CWICs and illustrates their 
role in promoting employment among SSA beneficiaries. The third section 
summarizes some of the major accomplishments of the WIPA initiative. 
Finally, the fourth section recommends additional resources to maintain 
and enhance the program.
The Need for WIPA Services
    The WIPA program is a large, SSA operated employment support 
program, which has provided assistance to over 300,000 SSA 
beneficiaries who are currently employed or interested in pursuing 
employment since its inception in 2000. The WIPA program is not focused 
on helping individuals remain on benefits, express complaints or 
concerns to SSA, or solve every beneficiary concern. It has a clear, 
concise mission--assist the over 1 million current beneficiaries who 
desire to work to obtain employment and pursue their careers, 
ultimately working their way off SSA cash payments.
    The overwhelming need for the program is clearly documented in the 
results of the National Beneficiary Survey (NBS), conducted by 
Mathematica Policy Research under contract from SSA. The NBS is the 
most methodologically rigorous and precise estimate of the employment 
aspirations and activities of SSA beneficiaries currently available to 
policymakers. The most recent administration of the survey, in 2006, 
found that 44% of beneficiaries reported that their personal goals 
include getting a job, getting a better job, or moving up in a job and/
or that they see themselves working for pay sometime in the next 5 
years.
    The survey discovered that not only are SSA beneficiaries setting 
employment goals for themselves, they are also taking direct, concrete 
actions to achieve these goals. Many beneficiaries had engaged in 
employment, vocational training, or job-seeking activities over the 
past year. In real terms, the NBS found 2 million SSA beneficiaries who 
are working or actively seeking. These individuals should be the focus 
of SSA's employment and return to work efforts. In short, the NBS 
reaffirms what beneficiaries and advocates have repeatedly articulated 
to Congress over the recent past--that they desire lives of 
productivity over idleness, self-sufficiency over poverty, independence 
over dependence, and that they can achieve these goals if provided the 
right services and supports.
    Estimating the Need for WIPA Services--The NBS results described 
above indicated that large numbers of beneficiaries are currently 
employed or pursuing employment. Even if the reported expectations tend 
to be overly optimistic, the findings imply that large numbers of 
beneficiaries (over 4 million) are interested in employment and they 
might benefit from employment services or policies designed to promote 
employment. Of those individuals, 52% had engaged in recent work 
activities (worked in previous year, working or actively seeking work 
at interview, participated in vocational training). Extrapolating these 
figures to individual States or localities, it can be conservatively 
estimated that approximately 20% of all working age SSA beneficiaries 
could benefit from WIPA services, either immediately or in the near 
future.
    WIPA Participant Characteristics--WIPA projects serve a group of 
individuals who are seriously pursuing careers. Overwhelmingly, 
beneficiaries served are between the ages of 22 and 59. Youth were not 
significantly represented among WIPA participants, with less than 5% of 
beneficiaries reported to be under the age of 22. Males (49.8%) and 
females (50.2%) were equally represented among total participants. The 
program serves individuals with a broad variety of both physical and 
mental disabilities throughout its 5-year implementation. The most 
commonly indicated disabilities were mental and emotional disorders and 
system diseases, which jointly accounted for over half of WIPA 
participants.
    Nearly 90% of all individuals who contact a WIPA project are either 
employed, actively seeking employment, or interested in obtaining 
employment in the near future. Less than 1% of individuals contacting 
WIPAs are in the process of terminating employment or reducing their 
work hours. The services and supports provided by WIPA programs to 
assist beneficiaries to achieve these goals will be illustrated later 
in this testimony.
The Role of CWICs in the WIPA Program
    The foundation of the WIPA program is the national cadre of highly 
skilled and rigorously trained Community Work Incentive Coordinators 
(CWICs). CWICs complete a demanding preparation and certification 
program and participate in an intensive program of ongoing technical 
assistance and training. These dedicated professionals are using their 
knowledge, skill, and personal experience to assist other persons with 
disabilities to navigate the maze of SSA work incentives and 
regulations to obtain employment and maximize their economic self-
sufficiency. CWICs are not peer counselors or trained volunteers. They 
are a group of highly trained professionals dealing with extremely 
technical information in a way that makes sense to beneficiaries and 
allows them to pursue their career goals.
    All WIPA project personnel (CWICs) providing direct services to 
beneficiaries are required to successfully complete a highly 
challenging training and certification process. The CWIC Initial 
Certification process consists of four components. The amounts of time 
CWICs devote to these components are summarized in the table below.

    Component 1--First, CWICs participate in a 32-hour Face-to-Face 
Training Class. The training class addresses each of the 20 training 
competencies found in the National Training Curriculum. Sixteen Initial 
Training classes have been conducted over the past 16 months.
    Component 2--CWICs engage in extensive self-study activities to 
prepare for and complete the required CWIC certification assessments. 
Self-study activities include review of the National Training 
Curriculum, review of other resource documents, and study calls 
moderated by the NTC trainers. Data reported by CWICs completing the 
certification process revealed that on average they spent approximately 
30 hours completing the self-study and activities.
    Component 3--CWICs are required to complete six competency-based 
assessments that address each of the major training modules of the 
National Training Curriculum. Assessments are conducted entirely online 
using the Blackboard Learning System and consist of objective test 
items, essay responses, and case studies. CWICs reported spending 
approximately 20 hours completing the six assessments. Approximately 
30% of all initially certified CWICs receive additional support from 
NTC staff during the early stages of service delivery. Based on a 
recommendation from NTC or OESP staff, a CWIC may be required to submit 
a prescribed number of individual beneficiary reports to VCU technical 
experts prior to sharing the reports with beneficiaries. This ensures 
that the information provided by initially trained CWICs is complete 
and accurate.
    Component 4--Finally, CWICs completing the certification process 
are enrolled in the NTC Supplemental Training and Technical Assistance 
Activities. The activities include face-to-face and online training, 
and individual, State, and regional technical assistance. The NTC 
estimates that CWICs receive approximately 60 hours of technical 
assistance in the first year post certification and participate in an 
additional 25 hours of supplemental training events.

    Number of CWICs Certified--Between December 2007 and May 2009, a 
total of 572 individuals have been formerly certified as Community Work 
Incentive Coordinators (CWICs). Approximately 50 of these individuals 
are professionals working in SSA demonstration projects or other local 
partners. To date, 87% of individuals attempting to become certified as 
CWICs have successfully completed the process. At the present time, 
between 400 and 450 individuals are providing services across the 104 
projects.
    The Typical CWIC--The ``typical'' CWIC has a college degree, is 
employed by a public agency (VR, University, etc.) and has been 
employed as a CWIC for over 3 years. One-third of the time, he or she 
will be a person with a disability, including many individuals who have 
previously received SSA benefits and have worked their way off the SSA 
rolls.
    The ``typical'' CWIC participates in 160 hours of training and 
technical assistance activities during his or her first year of 
employment. After the first year, the CWIC receives 85 hours of 
training and technical assistance each year.
    The ``typical'' CWIC serves multiple counties or large sections of 
metropolitan areas. In some instances, such as North Dakota, a single 
CWIC may serve virtually an entire State. Typically, from 30,000-50,000 
SSA beneficiaries will reside in an individual CWIC's catchment area. 
Many of the beneficiaries in the catchment area are gravely ill or 
possess significant health related disabilities that preclude their 
ability to work at the present time. However, as discussed above, at 
least 40% of beneficiaries report that their personal goals include 
getting a job, advancing in their careers, or working for pay sometime 
in the next 5 years.
    Based on these data, the ``typical'' CWIC will serve a catchment 
area that contains 12,000-20,000 beneficiaries who are currently 
employed or who will be seeking employment in the near or intermediate 
future. Of those, approximately 5,000 had engaged in recent work 
activities (worked in previous year, currently working or actively 
seeking employment). These beneficiaries are the target population for 
WIPA projects--beneficiaries who are employed or actively seeking 
employment whose ongoing employment, health care, and benefit status 
may be jeopardized without complete and accurate information on the 
effects of employment on their SSA benefits.
    The ``typical'' CWIC maintains a wait list for services. Most CWICs 
are overwhelmed by the number of beneficiaries seeking their services. 
Wait periods are generally from 15 to 20 days, with many projects now 
reporting that wait time for services has reached 30 days from initial 
contact. These long waits are very unfortunate, since the best time to 
encourage a beneficiary to seek employment is immediately when he or 
she has indicated a desire to seek employment or when employment is 
imminent.
    Illustrations of the Accomplishments of Individual WIPA Projects--
All over the country, WIPA project staff members are providing services 
and supports to beneficiaries who are attempting to enter the workforce 
for the first time, reenter employment after a long period of 
disengagement, improve the financial situation of themselves and their 
families, pursue employment training or education that will lead to 
meaningful and rewarding employment and eliminate their dependence on 
SSA cash benefits. Examples of services provided by WIPA projects are 
provided below.
Center for Independent Living of Middle Tennessee
    The Center for Independent Living of Middle Tennessee (CIL-MT) Work 
Incentives Planning and Assistance (WIPA) program serves 44 counties in 
western and central Tennessee. This area includes Nashville and 
Memphis--two of the most populous areas in the State. The project 
covers a WIPA service area that contains more than 150,000 WIPA 
eligible adults with disabilities receiving SSI and/or SSDI (nearly 
three-fourths of the State's disability beneficiaries).
    Five full-time CWICs provide WIPA services across the 44 counties. 
Three of the five CWICs have been with the project since the inception 
of the program 8 years ago. Based on data from the National Beneficiary 
Survey, the National BPAO database, and the perceptions of the project, 
there are an estimated 60,000 individuals in the counties served by the 
project who are interested in obtaining employment, including 25,000 
who have engaged in employment or actively sought employment during the 
past 12 months.
    The CIL-MT is a highly productive program staffed by outstanding 
CWICs. The project has provided intensive WIPA services to 1,224 
beneficiaries since the inception of the WIPA contract in 2006. Two of 
literally hundreds of success stories documenting the delivery of 
quality services by the project are provided below.
    In Shelby County, CWIC Hope Johnson worked with Shawn, a 39-year-
old woman who is visually impaired who came to the WIPA program in 2007 
after being referred by her VR Counselor. Shawn was a concurrent 
beneficiary. The CWIC assessed her situation and found that she was a 
good candidate for a PASS, a very powerful, although complex, SSA work 
incentive. Her goal was to be a massage therapist. She needed assistive 
technology and training before she was ready for school. She began 
Orientation and Mobility training, plus Braille and computer classes.
    After completing her training at Clovernook Center for the Blind 
and Visually Impaired, her VR Counselor agreed to pay for tuition, 
books, some supplies, some assistive technology, and transportation for 
her to attend school. However, VR was not able to pay for the Braille 
Writer that she would need. In addition, there were many other school-
related expenses, such as a school application fee, massage supplies, 
massage table, uniforms, required background check, licensure exam, and 
CPR certification.
    Ms. Johnson helped Shawn write her PASS and gather all of the 
needed documentation regarding expenses and steps to reach her goal. 
The PASS was approved in February 2008 and Shawn received the funds 
necessary to start massage therapy classes the very same month. Shawn 
has now completed her classes, passed her licensure exam, and started 
working as a massage therapist in Memphis. She uses her own Braille 
Writer to keep up with appointments. Shawn utilized community 
resources, such as VR and Clovernook, to get her schooling and 
equipment. The PASS was a great SSA work incentive for Shawn to use in 
order to receive all of the items, supports and equipment she needed in 
order to be successfully employed.
    In Tipton County, Ms. Johnson worked with Cindy, a 27-year-old, 
visually impaired woman from Millington, TN, who contacted the WIPA 
program in 2007 after receiving confusing information in the mail from 
Social Security. Her father had recently retired, making her eligible 
for Childhood Disability Benefits (a special type of SSDI benefit for 
adults disabled as children). The SSA letter stated that her SSI check 
would be stopping and SSDI would start. Ms. Johnson explained the 
ramifications of ``switching'' from one disability program to another. 
Since she was currently working full-time, she had many questions about 
the work rules under the SSDI program, Medicare, and TennCare coverage.
    Cindy and her CWIC gathered earnings information and disability-
related work expenses to report to SSA. They tracked her Trial Work 
Period and the CWIC assisted her with the SSA work review. Because 
Cindy had so many work and disability-related expenses, her SSDI check 
continued past the Trial Work Period even though her gross earnings 
exceeded the Blind SGA (earnings) level. That was only due to the 
CWIC's help in documenting Impairment-Related Work Expenses (IRWE). 
Otherwise, Cindy's SSDI check would have stopped. The CWIC has 
continued to assist Cindy with questions regarding her health insurance 
and properly reporting earnings information to SSA. She has received 
two raises in the past couple of years and has contacted the WIPA 
program as needed.
Easter Seals of North Texas
    The WIPA program of Easter Seals North Texas serves individuals 
receiving Social Security Disability and/or Supplemental Security 
Income benefits in 19 counties in the North Texas area. Each 
beneficiary we meet receives an individualized Benefits Summary which 
summarizes the work incentives discussed and an action list. This 
action list acts as a catalyst for taking those needed steps to enter 
employment. It is the goal of the WIPA project to not only educate 
beneficiaries but to guide them to take the steps necessary to obtain 
and maintain employment.
    Over the past 3 years, the project's 5 CWICs have provided 
intensive, long-term work incentives support to 1,302 beneficiaries. Of 
these 1,302 consumers, 184 are employed, with 52 working at or above 
the current SGA level of $980 a month. Sustaining this level of income 
will mean that approximately 3.5% of the individuals provided more 
intensive WIPA services will eventually become self-sufficient. This 
success rate is more than 3 times the national benchmark rate of 1% of 
all SSA disability beneficiaries.
    The project employs four full-time CWICs, with one serving as both 
a CWIC and the Project Director, and one part-time CWIC. The project 
serves a 19 county area in North Texas, some parts of which are rural. 
Out of the five staff members, three of them have significant 
disabilities. Two of them were once on the Social Security benefit 
rolls but have now worked to the point where they are not. One staff 
member was a client under the BPAO program and now is employed as a 
full-time CWIC covering three counties. The Project Director, Ms. Cindy 
Herzog stated recently,

          Over the history of both BPAO and WIPA, we have been able to 
        see thousands of beneficiaries and many have entered into 
        employment. We have seen clients who have never worked before, 
        enter into employment for the first time, breaking that cycle 
        of dependence on benefits. The program as a whole has been a 
        great success and we look forward to increasing the numbers of 
        beneficiaries who leave the rolls completely, one case at a 
        time. This is a challenging but fulfilling line of work. We 
        have the opportunity and privilege to present and create 
        positive change for individuals living with disabilities.

The Need for Expanded WIPA Services
    The WIPA projects provide encouragement and direct assistance to 
SSA beneficiaries seeking to obtain employment for the first time or 
improve their employment situation. The SSA rules and regulations 
regarding beneficiaries are complex and often overwhelming for 
beneficiaries. WIPA projects can directly support beneficiaries who 
otherwise may be unnecessarily apprehensive of pursuing their career 
goals due to fears that employment may lead to a loss of health care 
and other benefits. Every day CWICs are assisting beneficiaries to take 
the first step toward employment.
    Unfortunately, the national WIPA initiative lacks sufficient 
capacity to adequately meet current and future demand. The number of 
beneficiaries requesting services has continually overwhelmed a large 
number of local programs. The problem is particularly acute for WIPA 
programs in rural areas where extensive travel requirements reduce 
potential service time.
    The WIPA capacity problem is exacerbated by the fact the program 
has been flat-funded since its inception in 2000, without any inflation 
increase over the past 7 years. In addition, when SSA wisely increased 
the minimum amount of funding for WIPA projects from $50,000 to 
$100,000 in 2005, the funding level of a number of WIPA projects, 
particularly in SSA Region IV, actually declined.
    WIPA projects struggle to find the resources to provide long-term 
followup services to beneficiaries. In most projects, CWICs are doing 
an outstanding job of providing initial advisement services to 
beneficiaries. However, the demands on their time make it difficult for 
them to provide proactive followup services to beneficiaries weeks or 
months after their initial contact with the beneficiary. Lack of 
ongoing followup services reduces the ability of CWICs to assist 
beneficiaries to access and benefit from needed employment services, 
decrease the number of individuals experiencing an overpayment, and 
assist the beneficiaries in career advancement activities.
    Youth are currently not significantly represented in the population 
served by the program. Less than 6 percent of beneficiaries receiving 
services from the prior BPAO program were under the age of 22. The 
challenges faced by transition-aged beneficiaries are unique, and 
specific work incentives have been developed to assist them in their 
employment efforts. Future BPAO outreach activities should focus on 
contacting and serving adolescents and young adults.
    The WIPA projects assist many other entities to provide employment 
services and supports. Across the country, WIPAs are coordinating their 
efforts with Workforce Development Centers, Vocational Rehabilitation 
agencies, mental health centers, community rehabilitation programs, 
secondary schools and institutions of higher education, veterans 
service centers and employment service organizations. These 
partnerships, which have expanded dramatically over the past several 
years, enable the WIPA projects to more effectively assist 
beneficiaries to pursue their employment goals.
    Many State Vocational Rehabilitation agencies refer most if not all 
SSA beneficiaries applying for services to WIPA projects prior to 
initiating services. The WIPA program has contributed significantly to 
the ability of vocational rehabilitation to better meet the needs of 
beneficiaries. Similarly, many Employment Networks and mental health 
centers request the services of WIPAs prior to delivering services. The 
WIPA program is critical to efforts to promote employment outcomes and 
economic self-sufficiency among beneficiaries.
    An example of the assistance provided to other employment programs 
is the SSA/Vocational Rehabilitation reimbursement program, in which 
SSA reimburses individual State Vocational Rehabilitation agencies for 
serving SSA beneficiaries who meet specific employment goals, returned 
over $124 million to State VR agencies in FY 08. When serving SSA 
beneficiaries, many VR agencies require the beneficiary to seek the 
services of a WIPA prior to initiating employment services. As a 
result, WIPA projects play a critical role in the successful employment 
outcomes of literally thousands of these beneficiaries, even though the 
WIPA projects receive absolutely none of the reimbursement funds 
generated in part by their services.
    The WIPA program is vital to SSA's efforts to reduce and eliminate 
the chronic problem of overpayments. The vast number of overpayments 
currently facing beneficiaries in every State creates a second 
``disability backlog'' for them and SSA. The overpayment backlog has 
many causes and very few solutions. Among the causes are the 
unnecessarily complex SSA rules that don't even measure earnings across 
the SSI and SSDI programs in a consistent way and a lack of automation 
in wage reporting systems makes it very difficult for beneficiaries to 
comply with wage reporting rules. Even SSA's attempts at further 
automating the system have significant limitations. For example, the 
recently initiated telephone reporting system has significant 
potential, but currently cannot be used by beneficiaries who are taking 
advantage of the work incentive provisions that SSA has encouraged them 
to use.
    At the core of the problem is the lack of resources currently 
devoted to addressing this issue. Responsibility for processes that 
could eliminate or ameliorate the overpayment problem is currently 
spread across teleservice centers, program service centers, and field 
offices. WIPA projects can work with beneficiaries to accurately report 
their earnings and minimize the impact of overpayments on their 
personal and family finances. This is a function that cannot be 
performed by SSA field offices but is vital to any realistic SSA 
employment initiative.
    Today literally hundreds of SSA beneficiaries are in overpayment 
status. Frustratingly, SSA continues to devote extensive resources to 
an intractable administrative problem that continually gets worse and 
worse. The fear and reality of overpayments actually causes many 
beneficiaries to reduce and curtail their employment efforts. Many 
others experience extreme financial hardship as they and their families 
are forced to repay monies they erroneously received, even though they 
complied with every reporting deadline in a timely and accurate manner. 
Continuing and expanding the WIPA program will greatly assist in a 
reduction of the overpayment backlog and lessen the impact of 
overpayments in beneficiaries and their families.
    Over time, the WIPA program can literally ``pay for itself.'' The 
WIPA program should be judged on two outcomes. The first is increased 
beneficiary use of specific SSA work incentives. The second is 
increased employment participation and reduced receipt of disability 
benefits by program participants. When a CWIC works with a beneficiary 
to overcome their fears of employment and increased earnings on their 
benefits, he or she is not only contributing to the employment success 
of the beneficiary, but also the employment service program (VR, DOL, 
EN, etc.) that assists the beneficiary. When a State VR agency or EN 
requires some or all referrals to receive WIPA services prior to 
initiating a support plan, and then receives SSA reimbursement for 
specific beneficiary employment outcomes, the ``credit'' for these 
outcomes should fall not only to the employment agency, but also to the 
WIPA program. Over time, the implementation of a more sophisticated 
program to evaluate the outcomes of WIPA activities can clearly 
document the cost-effectiveness of the program.
    An example from the State of Kentucky illustrates the extent to 
which WIPA projects are working to create significant savings for 
Congress and SSA. In Louisville, the Center for Accessible Living, Inc. 
provides services to 70 counties, including Jefferson and Fayette--the 
two most populous counties in the State of Kentucky. Four CWICs serve 
this large project area that includes 175,000 WIPA eligible SSA 
beneficiaries, an average of 42,000 per individual CWIC.
    The lone CWIC serving Jefferson County (Louisville) responded over 
600 referrals for WIPA services over the past 2 years. Referrals could 
be much higher and additional resources are needed to address current 
demand. However, with only one staff member serving a county with over 
35,000 beneficiaries, very little outreach activity actually occurs. 
Over the past 2 years, this single CWIC has assisted 14 beneficiaries 
to work their way off SSA cash benefits, saving Social Security over 
$130,000 per year. These savings will increase exponentially over time 
as additional beneficiaries no longer receive cash benefits.
The Need for Additional WIPA Resources
    The current WIPA program has been highly successful. It has 
increased the employment participation and self-sufficiency of hundreds 
of thousands of individuals and has assisted other employment service 
agencies to more effectively meet the needs of beneficiaries. However, 
the program simply doesn't have the resources necessary to respond to 
the current and future demand for services. With additional resources, 
the program can serve a larger number of beneficiaries, reduce the 
number of beneficiaries negatively impacted by the overpayment backlog, 
and continue to generate additional program savings.
    The WIPA project is currently staffed by approximately 450 CWICs 
nationwide. The number of CWIC positions should be significantly 
expanded. Based on all currently available data and the results of a 
current program capacity workgroup, it is recommended that funding be 
provided to support an additional 1,600-1,800 CWICs. This increase 
could be easily absorbed into the existing service delivery network and 
would have the following benefits.

    <bullet>  Additional WIPA resources would allow the program to 
expand the number of beneficiaries supported in their employment 
efforts and reduce the current wait time for services (1,000 CWICs).
    <bullet>  Additional WIPA resources would allow programs to provide 
more intensive long-term services to beneficiaries, improving 
employment retention and reducing beneficiary dependence on SSA cash 
benefits (200 CWICs).
    <bullet>  Additional WIPA resources would allow the program to 
conduct more directed outreach efforts to currently underserved 
populations, such as transition-age youth and veterans (200-400 CWICs).

                                 <F-dash>

    Chairman TANNER. Well, let me thank the panel for a most 
informative--and I might say thorough--examination of the 
topics under discussion today. I have one question I want to 
follow up with Ms. Webb on, and some other--we have other 
questions, as well.
    But by the way, I noticed that you are going to get your 
law degree here shortly.
    Ms. WEBB. Yes, 3 weeks.
    Chairman TANNER. When my great-grandmother--who lived to be 
101--was 100 years of age, I went to see her on her birthday. 
And she said, ``Son, what are you doing now?'' And I said, 
``Well, Grandmother, I am in law school.'' And she went, ``That 
is a mighty poor calling.''
    [Laughter.]
    Chairman TANNER. I think that we both will share that law 
degree, and it is all right. I want to congratulate you on 
that.
    Getting back to the subject at hand, could you tell us a 
little more, or expand on the problem that you are having with 
collecting pay stubs, and how that is negatively impacting the 
situation?
    Ms. WEBB. It creates a real problem. First of all, when we 
provide services to a beneficiary, and they go back to work, 
they really are achieving independence, and they don't want to 
hear from us anymore. Even in my EN, we pay them a stipend to 
give us the pay stubs, and at some point they want to feel like 
adults and just be left alone.
    And, in the beginning, when they are obligated--when they 
are still on benefits and they are using their trial work 
period, for example, they are still obligated to report their 
earnings to SSA. There is no problem there. But once they leave 
the benefit rolls because they are working, we need to leave 
them alone. And for an EN to be calling them every month just 
to get paid--because we need those pay stubs, is irritating to 
them. In some cases, it can lead to identifying a disability to 
an employer when, in fact, the employer didn't know there was a 
disability.
    And for us to have to chase down those pay stubs, we 
sometimes will wait months and months beyond the time that we 
were really eligible for the payment in order to get paid. That 
is particularly demoralizing for a new EN who is trying to get 
their cash flow going, and it's taking them 6 months or longer 
to get paid, when they know somebody is working.
    As I mentioned in my testimony, the Agency has done a great 
deal to try and put some other things in place, like using the 
unemployment insurance data from the States. That still means 
we're 5 to 8 months behind in getting the data.
    We have talked about the IRS being able to report earnings 
data to Social Security more than annually. The fact is, 
employers don't report earnings on an individual employee 
basis, except on an annual basis to the IRS. So that doesn't 
bode well as a solution.
    The solution really is that when someone leaves the cash 
rolls, then we can assume that they're working. There are some 
conditions under which they might not be: They might be in 
prison, and they might be dead. But I would think that if 
Social Security stopped paying them benefits because of either 
of those conditions, then they would know that. And the 
opposite is not true. When the person is working, they don't 
know that.
    The other benefit of this is once a person is off of 
benefits and we are still in touch with them, we can get that 
data, in some cases. But in our experience, in our agency, it's 
about 50 percent of the time. That creates a terrible cash flow 
problem for ENs, especially the smaller ones.
    Does that answer your question, Mr. Chairman?
    Chairman TANNER. Yes. We want to try to see what we can do 
on that. Ms. Suter, do you have a reaction to this?
    Ms. SUTER. Yes. I agree with Susan's points. We have done a 
number of things to simplify collecting data. Last fall, we 
started an auto-pay, where an EN has to just give us the name 
of the person, and then we look at the earnings records, in 
order to pay the EN. So the only information the EN has to 
provide is the name of the person. But, as Susan said, we have 
to wait until we get those records to verify that.
    With some ENs, we look at paying when the EN certifies that 
that person is working, and signs a document saying that, and 
then, if the person is not working, we reconcile that at the 
end of the year. So we have tried to make it as easy and 
responsive to ENs as possible, and we are happy to continue to 
look at ways to simplify it.
    Chairman TANNER. I will stop here. Mr. Johnson, you are 
recognized.
    Mr. JOHNSON. Thank you, Mr. Chairman. Thank you all for 
your testimony. Ms. Suter, before we get to the topic of the 
hearing, numerous press accounts last week talked about dead 
people receiving economic recovery checks. Can you explain to 
me how 8,000 of those checks were mailed, and how you are 
recovering them?
    Ms. SUTER. We have made mistakes in those cases, and that 
is hard to explain. That is not in my jurisdiction in the 
Agency. But we have made mistakes. We are looking at that. We 
obviously do not want to do that. And I would be happy to look 
at that and provide you more information----
    Mr. JOHNSON. I would appreciate if you would provide the 
Committee with that information.
    Ms. SUTER. I would----
    Mr. JOHNSON. And while I am at it----
    Ms. SUTER. I would be happy to.
    Mr. JOHNSON [continuing]. Mr. Chairman, can we have both of 
Dr. Growick's papers inserted into the record?
    Chairman TANNER. Without objection.
    [The information follows:]
    Mr. JOHNSON. Would you do that for us?
    Mr. GROWICK. Absolutely, sir.
    Mr. JOHNSON. Thank you, sir. Ms. Suter, since the program 
has begun, how many Ticket users have had benefits suspended 
and/or left the rolls due to work and earnings? Do you know 
that?
    Ms. SUTER. We have had about 2,700 individuals who have 
left the rolls due to work and earnings. Six hundred of those 
have left the rolls since last July under the new Ticket regs.
    Mr. JOHNSON. Yes, that is amazing to me, that it took from 
1999 to 2009 before we finally got the program revised, and now 
we're still having trouble with it.
    Since the beginning of the Ticket program, how much in 
total benefit savings has occurred due to earnings by Ticket 
users? Do you know?
    Ms. SUTER. We don't have the figures for the total savings, 
but I would be happy to get that for you.
    It is about 3,700 years of benefits that we have not paid 
beneficiaries.
    Mr. JOHNSON. Okay. And since the beginning, how much has 
been spent to administer the program? Are we saving more than 
we are spending, or not?
    Ms. SUTER. Well, there are a couple of different figures on 
that. Our actuaries say, for the SSI program, that will pay for 
itself in 10 years in the Ticket program, because of the 1-for-
2 in the SSI program. In the SSDI program, because there are 
different work incentives, about 600 people have to leave the 
rolls annually in order for the Ticket program to pay for 
itself over the next 10 years.
    Mr. JOHNSON. So how many are leaving right now?
    Ms. SUTER. Pardon?
    Mr. JOHNSON. How many are leaving right now?
    Ms. SUTER. Well, we have the 2,700, but we have 304,000 
tickets that have been assigned. So we think that's a 
reasonable number. We have had an increase in work activity, 
people starting to work, and have work and earnings since the 
new regs came out about an 83-percent increase, and that just 
since last July.
    We have had a 167-percent increase in people using their 
tickets since the new regs have come out. We have had ENs sign 
up about seven times as much since the new regs. So we think 
the trends are looking good, and we think that's doable, to be 
able to get 600 individuals on SSDI off the rolls in a year.
    Mr. JOHNSON. Okay. Thank you, Mr. Chairman. No further 
questions.
    Mr. POMEROY. Thank you, Mr. Chairman. I am really 
disappointed that a conflict kept me from most of the original 
statements of the panel, so I am not going to try to take you 
over the same ground you have already covered.
    But I would be interested in trying to get a sense from 
some of our experts as to what they think the core problems 
are, and whether progress is being made. So, Dr. Growick and 
Dr. Kregel, I would ask you, kind of representing maybe 
slightly different perspectives, a couple of questions. And no 
offense to the rest of the panel, but we will try and cut to 
the chase this way.
    Do you think that the 2008 reforms, in terms of how this 
program is being run, are going to be helpful?
    Mr. KREGEL. I will respond first. I think, in terms of 
evaluating the Ticket program itself, we ought to think of 
everything prior to the 2008 regulatory revisions as pilot, or 
what was done previously, or what didn't work. And the program 
really needs to be measured on the effect of the regs, and the 
activities of the Agency, and the activities of beneficiaries 
since July of 2008.
    If we look at that, then everything about paying for 
itself, everything in terms of administration of the program 
versus the savings of the program, can be much more accurately 
evaluated, and it will be evaluated much more positively.
    Mr. POMEROY. Okay. Without having data reflecting an 
evaluation, what is your gut sense in terms of what--is it a 
new day? Is this thing likely to achieve some of the results we 
had hoped for earlier?
    Mr. KREGEL. I have looked at the WIPA programs, for 
example, that are serving beneficiaries in each of the 
congressional districts represented on the Committee. What we 
are seeing right now in each district is five people moving off 
of benefits in the last 6 months, three people moving off of 
benefits since the first of the year. These are small numbers, 
but it doesn't take very much to get to the number of 6,000 per 
year, or 600 per year that Ms. Suter talked about, in terms of 
the overall cost efficiency of the program.
    This is a program that will pay for itself over time, both 
in terms of the Ticket program as well as, very significantly, 
the WIPA program. If you look at, for example----
    Mr. POMEROY. I mean 600 per year in the Social Security 
program, to me, is not even a token anything.
    Mr. KREGEL. Because this is a very small program, in terms 
of an administrative perspective, we're talking about a program 
that costs $100 million in the overall programs that are 
represented here today to address $150 billion that are spent 
every year to provide benefits to these individuals and the 
corresponding health insurance. So what we are doing is, we 
are----
    Mr. POMEROY. But you are not suggesting 600 is an 
acceptable national goal.
    Mr. KREGEL. I am suggesting that that is a benchmark which 
we can blast through in the very near future.
    Mr. POMEROY. Dr. Growick.
    Mr. GROWICK. Yes, thank you. In all deference to my 
colleague, I would have to disagree. Unfortunately--and I was 
involved with the Ticket since its genesis, since its 
beginning, and I would have to say it's the greatest 
professional disappointment that I have had in my entire 
career.
    I am not sure what the solutions are. I think that the 
Ticket has been overwhelmingly disappointing because of the 
numbers. Six hundred is, as you say, minuscule, tiny in 
comparison to--we're talking 11 million.
    The basic premise of the Ticket--if you go back to the 
political implications article that I have just entered into 
testimony, I think you will see that the basic premise of the 
Ticket was to use private rehab providers, much like the 
insurance companies. The question is, is Social Security 
Administration an insurance company run by the Federal 
Government, or is it a Federal bureaucracy that is not doing 
anything to help itself?
    And, unfortunately, it has been the latter, which has been 
a tremendous disappointment. And, you know, and I don't mean--
--
    Mr. POMEROY. I would say, you know, first of all, I pretty 
much accept what you just said. But I do think Congress has to 
own--Congress and the Administration, prior Administration, 
especially--have to own a lot of the responsibility for not 
funding up the resources required to make--I mean this is a 
labor-intensive business, it's going to require some staffing 
and an Administration commitment that simply has not been 
there. So that's part of the problem.
    Mr. GROWICK. Well, part of the problem is money and 
appropriations, yes, sir. But I think part of the problem is 
the philosophical approach to who should be the primary 
provider for services for individuals under Social Security, 
whether it should be public entities, like the State-Federal 
system, which still has 88 to 90 percent of the tickets. The 
initial intent was to move away from that, and to have more of 
a balance between the private sector and the public sector, and 
that certainly hasn't occurred.
    So I think, until you get to the foundation of what the 
problem is, I don't think you're going to solve the problem. I 
think all of this, including the new regulations--and, again, I 
hope that my colleague is correct, I hope we have turned a 
corner, but I fear not.
    Mr. KREGEL. But since July of 2008, the percentage of folks 
served by the public vocational rehabilitation agencies and the 
private ENs, that percentage has flip-flopped. And recent 
ticket assignments are, overwhelmingly--the vast majority are 
going to private entities, as opposed to the State vocational 
and rehabilitation----
    Mr. POMEROY. I don't care who does it, public or private. 
But I know that we have, in the hearts of many of the people on 
disability rolls, the same kind of guts and courage and 
determination that our lead panel demonstrated with their 
tremendous stories. And they are not getting the kind of 
assistance they need. And when we set the bar so low as 600, I 
mean, I don't even think we're taking a meaningful shot at 
this.
    And so, I must say I am hopeful we may--there may be some 
improvement with 2008, but I am quite disappointed. I mean, 
count me in the ranks of--Dr. Growick, I am with you. We should 
have had more success than this. And, by God, we have to figure 
out what is causing us to not achieve greater numbers of 
successful graduates in this program.
    I know that my time is up. Mr. Chairman, thank you for this 
important hearing. Ms. Suter might want to make a response. I 
see that she--and I won't ask any further questions. Thank you.
    Ms. SUTER. The 600 figure is just to break even. We think, 
as I said, we have about 304,000 tickets assigned. We think in 
the next 2 years we can at least double that number. That is 
one thing.
    The other thing is the Ticket program, we know, is for a 
small number of people. We have very high standards to meet--as 
Congress set--to meet the definition for disability in Social 
Security. So we know, if we're doing our job, there are not a 
lot of people that are going to be able to go back to work. So 
it is a small piece.
    The other thing, only 14 percent of our ENs right now are 
public entities. So we want very much to expand the universe, 
and that's why we have the Partnership Plus program. So we want 
to expand, and we want to give beneficiaries as much choice as 
possible.
    And, under the old regs, that was very true. The majority 
of our tickets--by far, 90 percent--went to State VR agencies. 
As Dr. Kregel said, since the new regs have come out, 81 
percent of our tickets are going to employment networks, and 
only 19 percent are going to State VR agencies. So we have 
flipped that, to offer more choice for our beneficiaries.
    Chairman TANNER. Before--do any of you all have any 
comment, before we close the public part that has been sparked 
by this latest round? Mr. Golden.
    Mr. GOLDEN. I appreciate your frustration with the program. 
I don't think you can look at the Ticket to Work in isolation 
of the broader disability standard that has been the foundation 
of the Social Security Administration. I don't think that you 
can just say that the reason people aren't going to work is 
because the Ticket to Work program isn't working. I think you 
are forgetting that for 1, 2, 3 years, people have to prove 
that they can't work to get on to those rolls.
    And so, we have a system that is busted. All Congress did 
was layer on top of a very archaic definition of disability a 
return-to-work program and prayed that it was going to work 
without really addressing the issue that is at hand, and that 
is that we have to tackle that disability standard.
    The fact that it takes 700 pages in a training manual to 
train WIPA about the different work incentive provisions that 
have been created by Congress tells me there is a fatal flaw 
there. It shouldn't be hard to go back to work. It shouldn't be 
hard to learn how to go back to work. So I would encourage you 
to look at some of those programs that we have just stacked on 
top of one another. The data shows us that they are not 
working. And is there a way for us to take that demonstration 
authority that has expired, and to really push the limits?
    I challenge you to think bigger than Ticket to Work, and 
think about--I believe, with Dr. Kregel, that that program can 
work. I think it's got great potential. But I think, without 
changing some of the basic premises that it's built on, we are 
not going to begin to see those numbers going back.
    And in my testimony I reference looking at a demonstration 
that streamlines the work incentives that are currently on the 
books, so that maybe you have one work incentive versus a 
laundry list of them that takes 700 pages to train people how 
to use them, and that you think about a new way of defining 
disability, that you think about a short-term program that is 
an option for beneficiaries with disabilities that want to go 
back to work.
    They don't want to spend 3 years of their life proving to 
Social Security that they are so disabled they need to get that 
benefit. They need health insurance, they need quick cash 
benefit, and they need access to a program like Ticket to Work 
and WIPA, to help get them on that path to work. That's short-
term.
    But currently, the system is long-term. And it seems like 
there is competing demands there that we need to reconcile if 
we're going to really, truly help the Ticket to Work program 
recognize its full potential. Thank you.
    Mr. KREGEL. One other thing, sir, that I would really like 
to add relates to the demonstration authority. The 
demonstration authority is badly needed, but the Congress has 
been ill served by recent efforts to implement SSA's 
demonstration authority.
    There is a recent report out about four of the major 
demonstration programs, $200 million. And if you read that 
report, it keeps saying, ``Results will be available to 
Congress in 2014,'' or the two-for-one offset demonstration, 
``Results will be available to Congress in 2017.'' What is the 
Social Security landscape going to look at at that time?
    There are lots of things that people have raised today that 
could be addressed through 2-year, 3-year demonstration 
programs, to give you actual empirical information that you can 
use to drive some of these major policy changes that are being 
contemplated. And I think that looking at ways to get 
information much sooner and more policy-relevant out of the 
demonstration authority would help you all a great deal. Thank 
you very much, sir.
    Ms. BATES-HARRIS. One of the things that I didn't get to in 
my testimony that I think is really important to say here is 
that when we're talking about Social Security beneficiaries, 
we're talking about people with serious health and medical 
conditions. And I think that we have to remember that health 
care is critical.
    And a number of reports have indicated--a recent report I 
read by Mathematica said that 40 percent of the people who were 
surveyed in the beneficiary study indicated that they are not 
going back to work because of their health conditions.
    And so, I think it's really important that the Committee 
work in conjunction with the Commerce Committee to ensure that 
things like the existing--or the Medicaid infrastructure 
grants, the Medicaid buy-in for workers with disabilities, to 
maintain independence and the Medicaid buy-in be continued. 
Because, without access to health care, people with 
disabilities are not going to physically be able to return to 
work.
    Chairman TANNER. Yes. Mr. Johnson is saying would you 
accept questions we might have, written questions that we can 
then place in the record?
    This hearing has been enormously helpful. I want to thank 
all of you.
    I may have one other question. Ms. Suter, about the program 
integrity, and the CDRs, do you have a program in place to 
address the backlog there?
    Ms. SUTER. Mr. Chairman--I think Thomas Golden said it very 
well--we are very concerned about the overpayments. It is 
demoralizing to our beneficiaries who want to at least try 
work. We have several programs in place to manage that 
workload. We appreciate the leadership you have shown in giving 
us more resources for the workload.
    As you know, and you have heard today, one of the dilemmas 
we have, and challenges, is just the competing workloads, 
paying people, getting people on benefits in a timely 
responsive manner, just the competing priorities. We have 
instituted a program called eWork, where we get receipts and 
show working and work activities. That helps with the CDR 
process and managing the workload.
    We have another program for SSI that looks at monthly wage 
reporting. We have telephone wage reporting. We have our WIPAs 
and our PABSS, who help out with overpayments. So we can do 
things to manage the workload.
    However--and Thomas said it very well--whether we are 
talking about return-to-work or CDRs or whatever, our program 
is so complex for our beneficiaries and their families, that we 
have to provide almost individual case management to 
individuals, just to navigate our programs. And we need to be 
responsive, and that's a timely process.
    So, as Mr. Golden said, we can manage the workloads, but 
until we simplify the program and make the SSI work incentives 
closer to the DI work incentives, we are going to run into 
being unresponsive and not providing timely service to our 
beneficiaries. And it's very confusing for them, and very 
fearful.
    So, to get back, we have instituted new ways to manage that 
workload. The Commissioner has been working with advocacy 
groups on simplifying the work incentives. And, within the 
Agency, we are going full tilt on that, and we will continue to 
do that. The Commissioner recognizes we need to simplify and 
cut out these layers of the program that Thomas talked about.
    Chairman TANNER. Well, thank you all. This is--as I said, 
this has been an extremely thoughtful presentation on your 
part, and has given us a charge to get to work, which we fully 
intend to do. And we may be back in touch with you.
    So, thanks once again, for all you are doing and will 
continue to do to help make this program a success. Thank you 
very much. We stand adjourned.
    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]
 Statement of the American Network of Community Options and Resources 
                                (ANCOR)
    The American Network of Community Options and Resources (ANCOR) 
appreciates this opportunity to provide comments and recommendations 
for the record to the House Ways and Means Subcommittee on Social 
Security on Social Security's employment support programs for 
beneficiaries with a disability. ANCOR is the national organization 
representing over 800 private providers of community living and 
employment supports and services to over 500,000 individuals with 
disabilities.
    The focus of ANCOR's testimony is on the Ticket to Work and Work 
Incentives Improvement Act (TWWIIA) as signed into law as P.L. 106-170 
and effective January 28, 2002. ANCOR strongly supported the passage of 
TWWIIA because of the program's possibility to remove work 
disincentives that prevent individuals with disabilities from working. 
ANCOR believed that the new Ticket program would strengthen individual 
choice and help individuals with disabilities work by allowing them to 
access a larger universe of private vocational and employment services 
providers rather than relying solely on the State vocational 
rehabilitation agency and access to benefit planning services.
    Despite the program's initial potential, the original regulations 
were insufficient to support the intent of the legislation. In 
September of 2005 and August 2007, the Social Security Administration 
(SSA) issued Notices of Proposed Rule Making (NPRM), which proposed 
changes to the original regulations, and became effective in July 2008. 
These regulations aimed to improve the payment systems for Employment 
Networks (EN) and provided greater financial incentives and flexibility 
for ENs. ENs now earn milestone payments earlier in the employment 
process and are reimbursed at a higher rate based on beneficiary 
attainment of specific earnings targets.
    Many ANCOR members who initially signed up to be ENs were forced to 
withdraw because they could not afford to sustain providing services. 
The expenses associated with providing services as EN outpaced 
revenues. Under those regulations, an EN outcome payment was worth only 
40 percent of an average SSDI or SSI benefit. An EN that opted to 
receive payments under the Milestone System was limited to four 
milestone payments. Furthermore, an EN would receive these milestone 
payments only when a beneficiary it served engaged in substantial 
gainful activity (SGA). For many individuals with significant 
disabilities, reaching SGA is often difficult because of challenges due 
to their disability. The regulations set the bar for ENs receiving 
payments too low and the bar for receiving payments too high.
    Because of limited EN participation, the early vision of 
beneficiary choice could not be realized. To address the issues 
imparted by the initial regulations created a more attractive EN 
payment structure. The 2008 regulations increased the value of outcome 
payments (they are now worth 67 percent of an average SSDI or SSI 
benefit) and increased the value of milestone payments (increasing the 
total payout under the Milestone System relative to the Outcome 
System). The new Ticket regulations increased the number of milestone 
payments an EN can receive from 4 for serving any Ticket beneficiary to 
15 for SSDI beneficiaries and 22 for SSI beneficiaries. The regulations 
also allow an EN to receive the first four milestone payments when a 
beneficiary it serves earns $700 in a month, which is below the SGA 
level.
    In addition, many beneficiaries may need to ease their way back 
into the workforce via part-time work. However, since the previous EN 
payment structure based payments on attainment of SGA, ENs were 
reluctant to accept Tickets from beneficiaries seeking part-time 
employment. The current EN payment threshold removes previous 
disincentives to serve these beneficiaries.
    However, it remains extremely difficult to achieve SGA for severely 
disabled consumers working part-time. As an EN it takes the same amount 
of resources to support a consumer working part-time as it does someone 
working full-time. It is significant to note that 20 to 30 hours per 
week is the maximum that many severely disabled consumers can work. One 
ANCOR member (an EN) has one beneficiary who has been working part-time 
for more than 6 months; in all likelihood she will not be able to reach 
SGA.
    SSA also increased available services by permitting State VR 
agencies to work collaboratively with ENs in an arrangement known as 
Partnership Plus. This ``team'' approach allows State VR agencies to 
provide training and job placement services and then refer 
beneficiaries to ENs, who can offer job retention supports. This 
initiative increases the likelihood that beneficiaries will keep 
working and leave the rolls. In addition, the new regulations 
abbreviated the process for the One-Stop Career Centers to become ENs.
    SSA reports that prior to publishing the new Ticket program 
regulations, it identified three key indicators to assess the degree to 
which the new regulations addressed many concerns. The new regulations 
were measured by: (1) the number of new EN contracts, (2) the number of 
beneficiaries accessing EN services, and (3) the number of 
beneficiaries entering the workforce. SSA reports that compared to the 
11 months preceding the new Ticket rule's publication, the number of 
new EN contracts has increased from 5 to 34 per month. At the end of 
April, there were over 1,300 ENs. Furthermore, the number of 
beneficiaries assigning their Tickets has increased from 332 per month 
to 867, and the number of job starts has increased by 83 percent.
    SSA also committed to recruiting more ENs. Through their marketing 
contractor, Cherry Engineering Support Services, Inc. (CESSI), SSA is 
contacting ENs that have gone 6 months without taking a Ticket to 
determine whether they can resolve any problems. CESSI also holds State 
and regional ``Ticket Express'' conferences to recruit new ENs and 
share best practices and has made a lot of educational materials 
available online and through conference calls. In addition, SSA made a 
point to attend and present at conferences, such as ANCORs, in order to 
reach out and educate potential ENs.
    Social Security beneficiaries were also extended outreach activity. 
For example, they created the Work Incentive Seminar (WISE) event to 
encourage beneficiaries to attempt to work. WISE events educate 
beneficiaries and their families about work incentives. Employers, ENs, 
State VR agencies, Protection and Advocacy agencies, and other 
employment support providers attending these events share information 
with beneficiaries about available services and employment 
opportunities in their communities.
Benefit Offset Demonstration
    Long before TWWIIA, SSA was required to initiate a national 
demonstration to test alternate methods of treating work activity in 
the Social Security Disability Insurance (SSDI) program through a 
benefit offset project. The purpose of the Benefit Offset demonstration 
was to determine the effect of employment outcomes including wages, 
benefits, hours worked, and job retention when a financial offset in 
benefit payment is applied reducing Title II disability benefit 
payments by only 1 dollar for each 2 dollars earned. This work 
incentive already exists in the SSI program and enables a beneficiary 
to successfully and gradually work their way off benefits and move 
toward self-sufficiency by decreasing benefit payments as earnings 
increase. This encourages work but does not penalize the individual or 
force them to give up a full benefit amount when they are working their 
way back to full employment.
    Despite years of planning and design, the Benefit Offset National 
Demonstration (BOND) is not scheduled for implementation until FY 2010. 
Prior to this national implementation, SSA conducted a four-State pilot 
demonstration, which began in August 2005. The results have not been 
shared publicly. This long overdue project will allow beneficiaries to 
face a gradual reduction in their benefits eliminating the abrupt loss 
of cash benefits in the Title II disability programs when the 
beneficiary works and has earnings over the Substantial Gainful 
Activity (SGA) level which is currently $940.00 a month. If properly 
conducted and implemented, the strategies developed for this project 
could serve as a powerful incentive and should considerably reduce 
barriers to work for SSDI beneficiaries by allowing them to maintain or 
increase their employment, earnings and financial independence. ANCOR 
believes it is imperative that this project not languish any longer but 
instead move forward with full deliberation and intent. In addition SSA 
should be required to report the results of their findings to the 
public in a timely manner.
Overpayments
    As you know, the SSI and SSDI programs include numerous work 
incentives which allow beneficiaries to work and test their ability to 
become self-sufficient. The success of these work incentives, as well 
as that of the Ticket to Work program, rests heavily on the ability of 
SSA to record and track wages and make prompt adjustments to benefit 
levels when working beneficiaries report earnings, thereby reducing 
overpayments. According to an SSA Office of Inspector General report 
dated April 2006, income or earnings from work activity was the most 
significant reason for overpayments. These overpayments were said to be 
much larger and spanned longer periods of time than the overpayments 
identified by SSA's normal processes of Continuing Disability Reviews 
(CDRs) and data matches to detect deaths, prisoners, fugitives, and 
other issues that impact eligibility.
    Overpayments have been a huge concern for many years and are 
recognized as a tremendous disincentive for beneficiaries to try work. 
Many beneficiaries do the right thing: They report their work in person 
or to the 800 number and are told that SSA will let them know if 
anything is a problem. At best SSA takes a month or two to process the 
report, which causes overpayments that the beneficiary is obligated to 
repay. However, SSA very often fails to process the earnings reports 
and adjust the payments for months or even years. Beneficiaries 
reasonably assume that SSA is paying them the correct amount. When SSA 
finally gets around to processing the earnings reports, the beneficiary 
is hit with a demand to repay overpayments that often amount to 
thousands of dollars. This can be devastating for someone whose sole or 
primary source of income is their benefit payment (currently a maximum 
of $674 per month for SSI beneficiaries).
    ANCOR and the disability community continue to struggle with the 
inability of SSA to record and appropriately adjust benefits in a 
timely manner. SSA does not require earned income reports to be made in 
any specific way; they can be made in writing, by calling the 800 
number, or by stopping in to report at an SSA field office. There is no 
particular form to complete or file, and until the Social Security 
Protection Act of 2004 was implemented, there was no official record 
for the beneficiary to use that proved the report was made. In 
addition, there appears to be no effective internal system for 
recording the income which beneficiaries report. And despite the 
development of internal electronic tools such as eWorks, this program 
is not used consistently across the country. In addition SSA does not 
seem to realize that people do not understand the terms of art used by 
the Agency when making SGA determinations and staff are not always 
clear in their explanations or do not have the time necessary to 
explain them well enough. Therefore important wage deductions such as 
Impairment Related Work Expenses (IRWEs) Blind Work Expenses, Subsidies 
and Special Conditions do not get reported or considered.
    In terms of overpayment issues, field office staff seem to have a 
single rule: ``You worked; you are at fault for the overpayment.'' The 
staff is very reluctant to apply the other work incentive rules, like 
IRWEs or special conditions after wage reporting has occurred, and 
rarely are these questions asked during the submission of this type of 
wage information.
    One ANCOR member has several consumers who have tried to work in 
the past and have been penalized for overpayment. In one case in 
particular a consumer contacted SSA and informed them of her employment 
and income, a year later she was contacted by SSA for overpayment of 
benefits. This had a traumatic effect on her and evoked a fear of 
benefit loss in regards to employment. In this case WIPA (see below) 
was used to discuss her benefits in relationship to employment.
    SSA clearly needs to improve its processing of work and earning 
reports. Most individuals who receive these benefits are overwhelmingly 
low-income and do not have the income cushions to deal with unreliable 
application of the work rules. Some at SSA seem to have a cavalier 
attitude about overpayments (considering them low interest loans), not 
understanding the financial and emotional effect of a large overpayment 
on someone who is low-income and who thought s/he was doing a good 
thing by going to work.
    Many claimants do not understand the differences between SSI or 
Title II disability benefits and many do not know which is which even 
though they may get both. These concurrent beneficiaries will not know 
to report work activity separately to the Claims Representatives 
assigned to each of the benefit programs. As a result, concurrent 
beneficiaries are doubly impacted with overpayments over time. The SSI 
file and Title II disability file are separately maintained and 
information within the office is not communicated across programs. SSA 
staff who are assigned to only one benefit program (SSI or Title II 
disability) should understand that claimants will not know to 
separately report work and they should make sure that the work report 
gets to all the right places, including the payment processing center, 
and that it is acted on in a timely fashion.
Expiring TWWIIA Provisions
    There are several expiring or expired provisions contained within 
TWWIIA that are critical to facilitating the participation of those on 
Title II and/or Title XVI in the workforce. The failure to extend these 
programs could undermine the long-term impact of the law in improving 
employment opportunities for this population of people with 
disabilities. Two such programs include the Work Incentive Planning and 
Assistance (WIPA), and the Protection and Advocacy for Beneficiaries of 
Social Security (PABSS).
    Work Incentive Planning and Assistance (WIPA) Program.--The Social 
Security Administration has long been committed to the WIPA program and 
issued a Request for Proposal inviting application for these programs 
in May of 2000, with a second round of application in the fall of 2006. 
WIPA grants to nonprofits and other agencies fund outreach, education 
and benefits planning services to Title II Disability and SSI 
beneficiaries about work incentives and services for finding, 
maintaining and advancing in employment.
    WIPA grantees inform beneficiaries of the impact that employment 
will have on their disability income and medical coverage, and address 
many of the real fears that individuals have about going to work, 
including the risk of losing health coverage. These grants have 
consistently demonstrated their effectiveness in explaining work rules 
and stressing the important information that people need to know before 
going back to work. Relevant pamphlets and the ``Red Book'' are not 
enough to help individuals understand the confusing work rules. People 
often need more than one explanation and need to see the rules applied 
to the facts of their cases. Trained WIPA staff is skillful at making 
sure that beneficiaries know what will happen to their benefits when 
they go to work. Often, the fear of losing ones benefits is enough to 
prevent someone from seeking employment.
    The Protection and Advocacy for Beneficiaries of Social Security 
(PABSS).--This program was created in TTWWIIA to protect the rights of 
beneficiaries as they attempt to go to work and was the last programs 
within TWWIIA to be fully implemented. It is the responsibility of the 
PABSS programs to provide information, advice, and remedy to complaints 
of beneficiaries utilizing their options to explore work.
    In addition to resolving work related overpayments and assisting 
individuals to access the services and supports they need to work, this 
program assures that legal protections are given to beneficiaries in 
the difficult economic climate where discrimination against people with 
disabilities may increase. PABSS helps people with disabilities 
maintain employment, enforces the nondiscrimination provisions of the 
ADA, works for the provision of reasonable accommodations, and seeks to 
protect other basic employment rights that are important to the 
employment of people with disabilities.
SSA and Work Incentives
    The Ticket to Work program and other provisions of TTWWIIA are only 
one part of a larger discussion needed concerning barriers to 
employment for Social Security disability beneficiaries. Many other 
policies within the Social Security Disability and Supplemental 
Security Income programs serve as disincentives to workforce 
participation for people receiving these benefits.
    The elimination of the 24-month waiting period for Medicare.--Good 
health is essential to a successful return to work. Failure to have 
access to health coverage undermines the person's ability to stabilize 
his or her condition and to attempt a return to work when that is 
appropriate. This waiting period also forces individuals to impoverish 
themselves to qualify for Medicaid, putting even greater burden on this 
already strapped program.
    Allowing permanent premium-free access to Medicare for 
beneficiaries who work.--Social Security disability beneficiaries who 
have lifelong conditions should retain lifetime access to Medicare. 
Once someone goes beyond the premium-free Part A coverage provided 
under TTWWIIA, a working person with a disability can buy-in to 
Medicare but at significant expense. Providing continued attachment to 
Medicare for working beneficiaries would ensure ongoing eligibility for 
health care. Some beneficiaries, based on their earnings, should have 
the ability to obtain this coverage through a buy-in program.
    Increasing Medicaid asset and resource limits.--SSI assets/resource 
limits have increased only minimally since 1974. As a result, working 
people with disabilities who rely on that program for critical services 
and supports cannot earn and save like most Americans.
    Modifying ``deemed'' SSI eligibility to protect Medicaid for 
certain working people who transition to Title II.--The deeming of SSI 
eligibility is important to avoid creating an unintended disincentive 
to work, especially for younger individuals who receive Disabled Adult 
Child or DAC benefits. Current law creates a constraint against 
attempting to work because it only provides protection when the sole 
reason a person's income exceeds the SSI level is the Title II benefit 
increase. Thus, working and having any earnings will automatically make 
the person ineligible for the deemed SSI status that protects his or 
her Medicaid. This is especially ironic, because if s/he had been 
solely an SSI recipient, the person would be able to benefit from the 
1619(a) and (b) work incentives. This can be fixed by providing that 
SSI deemed status will continue so long as the person's only other 
reason for ineligibility is earnings from work.

                                 <F-dash>
            Statement of Austin Area Mental Health Consumer
    During the hearing there were positive and negative statements made 
about the current Ticket to Work programs under the Social Security 
Administration, specifically the employment support programs: The 
Protection and Advocacy for Beneficiaries of Social Security (PABSS) 
program, which provides advocacy services for beneficiaries who are 
attempting to work; and, the Work Incentives Planning and Assistance 
(WIPA) program. Our organizations, Austin Area Mental Health Consumers, 
Inc., Return to Work program has been attentive and has attempted to 
access these programs with updates obtained through teleconferences and 
webinars. WIPA program has been helpful, although we have not been able 
to fully implement this program in our core: Texas Austin-Travis Mental 
Health Mental Retardation (MHMR) funded for clients and Texas 
Department of Assistive Rehabilitative Services. This program was 
created to help beneficiaries navigate Social Security's complex maze 
of work incentive policies; also, we recognize the overburdened SSA 
field office staff are often not able to provide the indepth, one-on-
one assistance to beneficiaries, therefore we are able to facilitate 
and bridge the gap. We understand the need to fully inform clients 
about work incentives and some effects that working would have on their 
benefits including well-being. Work is used as therapy for many of our 
clients. Under the WIPA program, this critical personalized assistance 
is provided by community-based organizations, such as Austin Area 
Mental Health Consumer's, with funding from SSA. Since this is a new 
component of our program our success rate has been flat, about 5%.

                                 <F-dash>
                        Letter of Barbara Barbin
    My name is Barbara Barbin and I am a Community Work Incentives 
Coordinator (CWIC) employed by the Houston Center for Independent 
Living. We are also a part of the Gulf Coast Work Incentives Planning 
and Assistance program. I read the release concerning the Social 
Security Administration's Employment Support Programs for Disability 
Beneficiaries dated May 19, 2009. As a CWIC, it is my responsibility to 
provide SSA beneficiaries with ``accurate information about work 
incentives and benefits planning'' as stated in the Work Incentives 
Planning and Assistance Privacy Act notice from Social Security. I am 
only speaking about the part I play in our program. I feel that CWICs 
do a great deal to educate consumers about the work incentives that are 
available to them whether they are on Social Security Disability 
Insurance or Supplement Security Income. We do this by explaining on 
the telephone, in outreaches, in Transition Fairs, individual meetings, 
and monthly Employment Workshops held here at the Center the guidelines 
SSA has outlined for them in using the Ticket to Work. As stated in the 
release, consumers are free to give their ticket to Employment Networks 
(EN) who assist them in preparing to go to work. Consumers may also 
choose not to assign their ticket yet still go to work. For many 
consumers, this is a good idea because they may already have expertise 
in certain fields and may not require the services of an EN; however, 
the advantage of their using an EN is that as long as their ticket is 
assigned to an EN, they will not have any disability reviews.
    Speaking as an individual CWIC, I can say that the consumers I have 
dealt with have expressed a great deal of satisfaction with my work and 
I am sure all CWICs throughout the country will tell you the same 
thing. Beneficiaries call asking about how they can go to work without 
losing their benefits and we explain the Ticket to Work program to 
them. Supplemental Security Income beneficiaries benefit greatly from 
going to work because in many cases they are able to maintain 
employment and continue to receive a portion of their check on top of 
that. Because we are able to explain under what circumstances they can 
maintain both checks, they are more willing to attempt to work in spite 
of their disability. Without the information and ongoing followup we 
provide, which is grounded solely in SSA's guidelines, many consumers 
would not even consider returning or even going to work for the first 
time. Additionally, they know they will receive reliable information if 
a problem should arise and they have questions. Though I might not have 
all the answers, I know where to turn to obtain the answer. Personally, 
if I were a beneficiary, I would feel very secure in knowing there is 
an organization out there contracted by SSA that is there exclusively 
to keep me on track and in compliance with their guidelines.
    In conclusion, the Release stated, ``Of course, the ultimate 
measure of success will be whether more individuals are able to return 
to work and end their receipt of benefits as a result of the Ticket and 
SSA's other employment support programs.'' That's a very tall measure. 
Does that take into consideration that though an individual may not 
leave the rolls entirely, he is becoming more self-sufficient and is 
paying taxes where he may not have in the past or would not have even 
attempted were it not for such a program? This may seem like small 
progress, but to the beneficiary, it is hard-earned success.

            Thank you,

                                                     Barbara Barbin

                                 <F-dash>
                      Statement of Brenda Peterson
 Social Security Administration's (SSA's) Employment Support Programs 
                      for Disability Beneficiaries
    For me personally ticket to work (TTW) has not been very helpful. 
Increased awareness for those involved in helping would assist in 
removing some of these challenging obstacles for those like myself who 
have hidden (non-apparent) chronic painful disorders. I appear healthy 
so most assume that I am a healthy individual with no disabilities.
    My battle has been that I need accommodations that would qualify me 
to most likely fall under the reasonable category.
    The vendors under TTW that I have contacted were not familiar with 
the main disorder (I have more than one) that has caused the most 
trouble. These vendors did not know how to be helpful. There is only 
one rehab person out of four in two different States and in different 
cities that were slightly familiar with the disorder. When I was first 
diagnosed one State rehab person said that there was nothing they could 
do. Another one said that she had two individuals with this disorder 
during her entire career and both of them were only able to work for a 
brief period of time after sending them to school to be trained. Vendor 
awareness and training is a necessity for the TTW to be successful in 
assisting people with hidden chronic painful disorders.
    There are additional obstacles that I have had to deal with. I am 
unable to do repetitive writing with my dominant right hand or do 
anything that causes further aggravation and increased pain and 
inflammation to my right hand and the right side in particular. 
Fortunately, I recently found an information factsheet published by Job 
Accommodation Network (JAN) that specifically deals with this disorder 
that I share with a prospective employer.
    I would really like to see changes to the program that support 
people with hidden (non-apparent) disabilities. I hope that my personal 
testimony provides insight to the difficulties in the TTW program for 
someone with hidden (non-apparent) disabilities.

            Thank you,

                                                    Brenda Peterson

                                 <F-dash>
      Statement of Council of State Administrators of Vocational 
                             Rehabilitation
    On behalf of the Council of State Administrators of Vocational 
Rehabilitation (CSAVR), we submit this statement for the record 
regarding the Social Security Administration's Ticket to Work program 
and other work incentive related issues.
    The State Vocational Rehabilitation agencies have a long history of 
working with Social Security beneficiaries on Social Security 
Disability Insurance and Supplemental Security Income due to a 
disability in their efforts to return to work. Every year we help 
thousands of Social Security beneficiaries find work, leave the 
disability rolls, and become taxpaying citizens. In return, SSA 
reimburses State agencies for the costs of providing services. The 
Social Security Administration most recent data indicates that for 
every dollar SSA reimburses the State VR agencies, SSA has saved 7 
dollars in benefits that it would have paid out; a net savings of $754 
million to the SSDI and SSI programs last year. In addition, we help 
beneficiaries navigate the myriad of complicated Social Security rules 
around work and help beneficiaries avoid overpayments once they return 
to work.
    The Ticket to Work and Work Incentives Improvement Act (TTWWIIA) 
was passed by both houses of Congress in 1999 by overwhelming 
bipartisan majorities. It was signed into law by President Bill Clinton 
in December 1999. This legislation created the Ticket to Work program 
with the goal of expanding the employment services and resources 
available to help SSA beneficiaries return to work. It expanded and 
extended health care coverage to beneficiaries who return to work so 
that they would not have to worry about losing their health care 
coverage. The bill also created several initiatives designed to help 
beneficiaries utilize the work incentives in the Social Security 
program.
    Despite the high expectations of the disability community, 
rehabilitation providers, and Congress for the Ticket to Work, the 
first regulations, issued in December 2001, and the subsequent 
Transmittal 17 policy, undermined the objectives of the Ticket. It was 
clear that revisions were necessary.
    We applaud Associate Commissioner Sue Suter and the Office of 
Employment Support Programs (OESP) at SSA for listening to the 
stakeholders who brought their concerns to SSA, the Ticket to Work and 
Work Incentives Act Advisory Panel, and to Congress. The new 
regulations, particularly Partnership Plus, take the Ticket program in 
a new and positive direction. These new regulations, which became 
effective 1 year ago, enhance payments to Employment Networks (ENs), 
allow SSA beneficiaries to access both Vocational Rehabilitation 
services and those services offered by ENs, and will help ensure that 
SSA makes payments to providers on a more timely basis. Although 
Associate Commissioner Suter is departing SSA, we hope that the new 
leadership at OESP continues the good work she has started there.
Benefit Offset National Demonstration (BOND)
    Long before TWWIIA, SSA was required to initiate a national 
demonstration to test alternate methods of treating work activity in 
the SSDI program through a benefit offset project. The purpose of the 
Benefit Offset demonstration was to determine the effect of employment 
outcomes including wages, benefits, hours worked, and job retention 
when a financial offset in benefit payment is applied reducing Title II 
disability benefit payments by only 1 dollar for each 2 dollars earned. 
This work incentive already exists in the SSI program and enables a 
beneficiary to successfully and gradually work their way off benefits 
and move toward self-sufficiency by decreasing benefit payments as 
earnings increase. This encourages work but does not penalize the 
individual or force them to give up a full benefit amount when they are 
working their way back to full employment.
    Despite years of planning and design, the Benefit Offset National 
Demonstration (BOND) is not scheduled for implementation until FY 2010. 
Prior to this national implementation, SSA conducted a four-State pilot 
demonstration, which began in August 2005. This long overdue project 
provided the opportunity for beneficiaries to face a gradual reduction 
in their benefits, eliminating the abrupt loss of cash benefits in the 
Title II disability programs when the beneficiary works and has 
earnings over the Substantial Gainful Activity (SGA) level which is 
currently $940.00 a month. If the BOND is properly conducted and 
implemented, the strategies developed for this project could serve as a 
powerful incentive and should considerably reduce barriers to work for 
SSDI beneficiaries by allowing them to maintain or increase their 
employment, earnings and financial independence.
    In fact, the four-State project has shown promising results. In 
2008, the four Pilot States (Connecticut, Vermont, Utah, and Wisconsin) 
started to produce preliminary outcome data on the impact of the $1 for 
$2 for all participants, albeit over a limited time period. Among the 
findings: In Connecticut and Vermont, the rate of beneficiaries in the 
test group who earned above the SGA threshold increased by 
statistically significant margins of 17.5 percentage points and 5 
percentage points, respectively, compared to controls.
    In Utah, the same analyses conducted by the other States did not 
reveal significant differences for the test group at five quarters 
after enrollment because early project enrollees took longer to 
increase their earnings. However, SGA comparisons for the five quarters 
before enrollment with the most recent available quarters (the first 
and second quarters of 2008) were statistically significant, with the 
increase in people earning above SGA being 7.3 percentage points higher 
for the test group than the control group. These analyses using recent 
calendar quarters recognize the time needed for the project to become 
effective.
    Wisconsin has not yet demonstrated statistically significant 
differences between the test and control groups.
SSA Demonstration Authority and Employment First
    SSA's authority to conduct SSDI demonstration projects has expired 
and we believe Congress should work expeditiously to renew that 
authority. Legislation introduced last Congress by Representative Kind 
(D-WI), Representative Ryan (R-WI), and Representative Petri (R-WI) 
called for renewed SSDI demonstration authority. The Wisconsin Division 
of Vocational Rehabilitation and WI VR Administrator Charlene Dwyer and 
her staff have worked tirelessly with the Wisconsin congressional 
delegation to develop this proposal. Among the provisions in the bill 
is authority for three types of experiments or demonstration projects:

    1. Reduction of benefits based on earnings.
    2. An earned income cost share with no benefit offset.
    3. Early intervention diversion programs.

    The State of Wisconsin, and the Wisconsin Division of Vocational 
Rehabilitation, has been in the forefront for many years looking for 
ways to improve Social Security and other programs that beneficiaries 
rely on to work. It is time to allow States to once again work with 
their Federal partner to find ways to make our Nation's programs work 
for people on Social Security.
    CSAVR strongly support these efforts and in particular the idea of 
testing early intervention or employment first. CSAVR's Employment 
First proposal, which can be found at http://www.rehabnetwork.org/red/
red.htm, calls for a completely voluntary program, in which 
participation does not stop the disability application process, a 
person receives immediate access to temporary cash assistance, 
immediate access to health care coverage, immediate access to 
vocational services to assist the person to find work, and suspension 
of the Social Security disability application once employment above SGA 
is found or if employment fails, the work effort is not considered as 
evidence of ability to engage in SGA.
Expiring TTWWIIA Provisions
    There are several expiring or expired provisions contained within 
TWWIIA that are critical to facilitating the participation of those on 
Title II and/or Title XVI in the workforce. The failure to extend these 
programs could undermine the long-term impact of the law in improving 
employment opportunities for this population of people with 
disabilities. Two such programs include the Work Incentive Planning and 
Assistance (WIPA), and the Protection and Advocacy for Beneficiaries of 
Social Security (PABSS).
    Work Incentive Planning and Assistance (WIPA) Program.--The Social 
Security Administration has long been committed to the WIPA program and 
issued a Request for Proposal inviting applications for this program in 
May of 2000, with a second round of application in the fall of 2006. 
WIPA grants to nonprofits and other agencies fund outreach, education 
and benefits planning services to SSDI and SSI beneficiaries about work 
incentives and services for finding, maintaining and advancing in 
employment.
    WIPA grantees inform beneficiaries of the impact that employment 
will have on their disability income and medical coverage, and address 
many of the real fears that individuals have about going to work, 
including the risk of losing health coverage. These grants have 
consistently demonstrated their effectiveness in explaining work rules 
and stressing the important information that people need to know before 
going back to work. Relevant pamphlets and the ``Red Book'' are not 
enough to help individuals understand the confusing work rules. People 
often need more than one explanation and need to see the rules applied 
to their specific situation. Trained WIPA staff is skillful at making 
sure that beneficiaries know what will happen to their benefits when 
they go to work.
    WIPA programs have been flat-funded at $23 million since their 
inception and are struggling to maintain their high level of service. 
In addition, these grants will terminate 6 months into FY 2010 unless 
renewed by Congress. Increased appropriations are needed to continue 
and expand this very important program.
    The Protection and Advocacy for Beneficiaries of Social Security 
(PABSS).--This program was created in TWWIIA to protect the rights of 
beneficiaries as they attempt to go to work and was the last program 
within TWWIIA to be fully implemented. It is the responsibility of the 
PABSS programs to provide information, advice, and remedy to complaints 
of beneficiaries utilizing their options to explore work. This work is 
consistent with the mission of the Protection and Advocacy (P&A) 
system, created by Congress in the 1970s to protect individuals with 
disabilities from abuse, neglect, and discrimination based on 
disability. With a presence in every State and U.S. territory, and the 
District of Columbia, the P&A systems offer an advocacy and legal voice 
to individuals with disabilities as they venture into the workforce.
Medicaid Infrastructure Grants
    These grants were authorized from 2001-2011 by section 203 of the 
TTWWIIA and are administered by the Centers for Medicare and Medicaid 
Services. These grants provide States with flexible funds to enhance 
State infrastructure that supports workers with disabilities. Due to 
the MIGs, over two-thirds of States have implemented Medicaid buy-ins, 
redesigned Medicaid waivers and personal care programs to ensure that 
individuals can go to work, and improved coordination between Social 
Security, WIPAs, Medicaid and related agencies. In 2009, 42 States and 
the District of Columbia received these grant funds and they have been 
an incredibly valuable vehicle for linking across systems, and building 
infrastructure within States.
Medicaid Buy-in
    The Medicaid buy-in provides Medicaid coverage to people with 
disabilities who would be receiving SSI but for their earnings from 
employment. Many of these individuals need services beyond what private 
insurance covers, or they would be unable to acquire coverage on the 
individual market. Over 40 States have created a Medicaid buy-in under 
TWWIIA or under the earlier buy-in created under the 1997 Balanced 
Budget Act and are experiencing positive fiscal returns. However, 
participation in the Medicaid buy-in as in current legislation is those 
``at least 16 years of age but less than 65 years of age'' despite the 
increase in normal retirement age beyond age 65. Thus, someone can be 
using the buy-in to work until he/she retires at ``normal retirement 
age'' but then is confronted by the loss of the resource/asset limit 
suspensions when they reach age 65. This anomaly needs to be corrected.
Overpayments
    Finally, we believe that SSA must address the problem faced by 
beneficiaries who return to work and still continue to receive their 
benefits even AFTER Social Security has been notified by the 
beneficiary about their work and income. There is no greater burden, 
and no greater disincentive to work, than when a beneficiary receives a 
notice from SSA stating that they owe thousands or perhaps tens of 
thousands of dollars because SSA couldn't stop their checks. 
Beneficiaries do the right thing: They report their work in person or 
to the 800 number and are told that SSA will let them know if there is 
a problem. Months or even years in some cases may have gone by with no 
cessation of benefits. If the beneficiary has received good advice they 
have saved the funds and can repay them when asked. But even if they do 
this, a beneficiary must still pay TAXES on the benefits they are not 
supposed to be receiving. They must then file amended State and Federal 
tax returns. This is simply outrageous. SSA simply must improve the 
income reporting process or, in the alternative, Congress should stop 
SSA from collecting overpayments if the person has followed the rules 
and reported their income. Beneficiaries who follow the rules should 
not have to pay for SSA's negligence.
    Thank you again for the opportunity to submit these comments for 
the record and CSAVR looks forward to working with the Subcommittee on 
these important issues for people with disabilities.

    CSAVR Social Security Relations Committee Cochairs:

      Brenda Moore, Director, Connecticut Bureau of Rehabilitation 
Services
      Donald R. Uchida, Executive Director, Utah State Office of 
Rehabilitation

                                 <F-dash>
                        Statement of Diana Bell
    I have a Ticket to Work, and have had trouble finding any quality 
Employment Networks. I am including an attachment of the ones we have 
here in Denver and the list is not very good. The only one who seems to 
have a sincere interest in doing anything is Jeffco Work Force.
    I have been signed up with an individual out of State. There seems 
to be a lot of EN's that only take your ticket and give you back part 
of the money that SSA pays them.
    The program seems to be a good program with incentives but does not 
seem to be doing what it should be doing in reality.
    The program is not financially beneficial for an individual and for 
organizations, I think it is very time consuming but at the same time 
they have other monies to support the program.
    One of the mistakes that everyone seems to be making is what the 
program is supposed to do. People are supposed to go to work but with 
the intention of keeping them working. But that can't be accomplished 
when we are not addressing the individual (ticketholder) as a whole. 
The program can not go forward with creating a plan for self-employment 
when someone is hanging off a cliff already by one arm and that is what 
this program is doing. It is hard to do a business plan when the 
individual is dealing with the possibility of being homeless and 
wondering about life's other challenges.
    We need to look at how Australia has dealt with this issue of 
putting people to work with disabilities. We need to create 
``businesses or nonprofits'' to hire ticketholders and provide support 
services for them while they work.
    I have been working with Voc Rehab now for almost a year, countless 
wasted hours. And we are still nowhere near a workable plan for me. I 
think that Voc Rehab is involving too much of their own thoughts on 
people's plans and lives. We are not being allowed to make choices for 
ourselves and what our choice of work should be. I recently had 
problems where I live and almost ended up homeless. Voc Rehab had no 
resources or ideas for me to deal with this. But they did remind me I 
had an appointment the following week.
    I think that by creating places where they work and work more with 
people with disabilities they are more likely to stay on the job 
because this place becomes a home away from home and now they have 
friends with similar issues and interests. To put them to work with so-
called normal people only creates a situation for isolation.
    I am sorry if this sounds rather scattered but I have medical 
issues that sometimes deal with my train of thought.
    I am also including a plan on how this program needs to work to 
make it more financially appealing to individuals and attract more 
qualified ENs.
    You need a support system that picks up these ticketholders after 
they go to work and that is the program I am working on. Hindsight is 
20-20--providing the resources before they need it. This would free up 
the time for ENs to actually do what they hopefully do best. It works 
kind of like some of the nonprofits do it--you have the nonprofit that 
strictly deals with the ones listed under it--for example all of the 
paperwork, funding, etc. . . . freeing up the ones that are under its 
umbrella to do what they do best. This is also how the Australia 
Disability Enterprises do it.
    The Australia Disability Enterprises have about 600 nonprofits 
under it from landscaping, nursery wholesale, retail, shipping, 
catering and janitorial, etc.
    The goal is to keep them working, but making them happy is what is 
going to keep them on the job.
    Voc Rehab is refusing to help me become an EN--they justified it by 
telling me that I don't have a Master's degree like they do and that I 
would be in direct competition with them. This is all ridiculous. We 
should all have the same goal and outcome for these disabled 
individuals.
    I currently am working on my website and do classes on the ticket 
to work. I have also had lots of people call me on how to apply to SSA 
on their new hiring initiative. That part has expanded to disabled 
veterans. I now take calls from the workforces on how to do the 
``Schedule A'' and provide support for one of the coalitions for the 
homeless. I also do a blog on the Disability Digest covering SSA 
updates. Outreach with what is available with the Ticket to Work is not 
reaching individuals and so many don't even know they have a ticket to 
work or what it is.
    You need to start with more outreach and support services for the 
individuals for when they go to work and then move into creating 
workplaces for them.
    I have done all of this work on what my disability check is and no 
income yet. But SSA has plenty of money and can not seem to accomplish 
these goals. I mean, really, how difficult is it to go to these low-
income HUD-subsidized apartment buildings and do the ticket to work 
class there???? Most of these individuals all have a ticket to work. 
How about creating some kind of work at these locations?? Lets get to 
thinking outside of the box. Sometimes you all spend too much time in 
meetings and the goal is lost in everything.
    I have already created a database with information but again Voc 
Rehab won't let me do it as a self-employment plan, so therefore will 
not help me financially. They want me to think in smaller terms, which 
is something I can't do. I asked for software to create an automated 
system to send out info and request info to help ENs but the answer is 
no.
    This has not stopped me. I am using Go Daddy products at this 
point, piecing the database together.
    It makes no sense to me. Something that would improve and help both 
the ticketholder and the ENs that work with them, but they have no 
problem giving me more money to do an organic seed business. Just how 
wisely is this planning working????

                                                         Diana Bell
                                           World of Disability, LLC

                                 <F-dash>
                    Statement of Don C. Kandlbinder
    I have a ticket to work and would love to see if I could do some 
part-time work but figuring out how to go about applying for a job is 
very difficult. It is like you make it that way just to stop us from 
trying.
    However, I do appreciate the program and I appreciate my VR rep 
here in Indiana. This is about all I have to say on the matter.

            Sincerely,

                                                 Don C. Kandlbinder

                                 <F-dash>
           Statement of Don Fitch, Center for Career Freedom
    The Center for Career Freedom is a 501(c)(3) with a mission of 
recovery and rehabilitation of persons with severe and persistent 
mental illness leading to competitive employment. The Center is the 
only nonprofit in New York State that is a NYS Department of Education 
Licensed Business School, a Microsoft Certified Office Specialist 
Training Center, an SSA Employment Network and, recipient run. We have 
served over 1,500 recipients of SSI and SSDI since our founding in 
1998.
    Our analysis of the recipients' economics of recovery and the 
Governments' Work Incentives have lead us to the conclusion that SSI 
recipients, except under rare circumstances, cannot work their way off 
their benefits to self-sustaining employment.
    To document this conclusion, we respectfully submit to the 
Committee the following five points:

    1.  In spite of the millions SSA has spent for Employment Support 
programs these past 10 years, they have had no appreciable effect in 
returning recipients to self-sustaining employment.
         According to SSA, less than 1 percent (545 out of 5.9 million) 
of the SSI recipients successfully returned to work (Annual Statistical 
Reports, 2007, Table 43 for SSI, Table 53 for DI).
    2.  For most recipients, the cost to replace their benefits 
outweighs the advantages of returning to work.
         The average monthly dollar value of typical government 
benefits for persons with disabilities in NYS is over $2,300 or about 
$28,000 per year. A person would have to gross about $35,000 a year to 
replace these benefits. The operational definition of recovery at the 
Center is: ``Our students must acquire sufficient skills to earn $17 an 
hour and the stamina to work 35+ hours per week.''
    3.  Persons on SSI suffer from the earlier onset of their illness 
and more severe work-related impairments.
         By definition, recipients of SSI do not have 10 or more years 
of work (40 Qtrs.). Our studies of over 500 recipients found this 
correlated with fewer years of education, fewer years of competitive 
employment and consequentially, less lifetime earnings. We have 
reaffirmed that the best predictor of future job success, is past 
success. Recipients of SSI require many more job supports than SSA 
offers.
    4.  SSAs' (and other government agency) work deductions, together 
with ordinary work-related expenses, prevents recipients from returning 
to work.
         A typical SSI recipient receiving $761/Mo. disability income 
plus $200/Mo. food stamps, Medicaid, Section 8 rental assistance and 
half-price bus pass would have over $175 deducted from their monthly 
benefits if they attempted to work just one 7-hour day a week, at $8 an 
hour ($224/Mo. gross salary). Their average work-related expenses, 
taxes, transportation, personal, food, etc. would be about $107 per 
month. Even if they bring all their own food, snacks and beverages and 
take advantage of HUDs' Earned Income Disallowance, they will keep 
about $30 a month, that's $7.50 for the day or $1.07 an hour. This is a 
fraction of what they expected to earn and it is why recipients stop 
working.
    5.  SSAs' Work Incentives do not work for 99 percent of the almost 
12 million persons with disabilities.
         As an EN, we have found that while Ticket-to-Work offers our 
students 60 months of avoiding a CDR, in return, they will have to earn 
at least $670 a month for 3 months in year 2, again, for 6 months in 
year 3 and, again, for 9 months in years 4 and 5--to maintain this 
``protection.'' In order to increase the payments to the EN, SSA has 
simply raised the bar on the recipients. They have shifted the cost of 
the new rate structure to the recipient. We predict it won't be 
effective for the reasons cited above. Indeed, Mathematica Policy 
Research, Inc., one of SSAs' research vendors, has so stated 
(www.mathematica. mpr.com/). According to SSA, the '08 Ticket-to-Work 
enrollment is about one-tenth of 1 percent.

    The Pass Plan currently has no enrollees in New York State (less 
than 1 percent nationally) for the simple reason that persons on SSI, 
after benefit and expense deductions, have no money left over to save.
    Provision 1619(b) and the Medicaid buy-in only kick in when the SSI 
recipients earn over $45,000 a year. The odds of that happening are 1 
in 100,000.
    Of the IRWE's, only medically-prescribed transportation would apply 
to our population.
    We have seen subsidies work when the recipient works for a family-
run business--but there are few of these situations.
    Work Opportunity Tax Credits don't help the recipient keep more of 
their salary.
    SSAs' Subcommittee testimony is almost identical for 1999 and 2009. 
They would have us believe that their incentives would be effective in 
returning recipients to self-sufficient work if only more people knew 
about them. They talk of demonstrations and studies that will prove 
their effectiveness in years to come if the Committee will only be 
patient. SSAs' requests are always the same: ``Give us more time and 
money.''
Conclusion
    In spite of the hundreds of billions spent in the United States for 
the recovery and rehabilitation of persons with disabilities; health 
care, housing, education/VR, community supports, job development and 
more, we are unable to help more than one-half of 1 percent achieve 
self-sustaining employment. Denial of this fact doesn't solve the 
problem.
    This failure affects every one of the over 12 million persons with 
physical and mental disabilities; it is a waste of their lives and 
talents, an enormous loss to the economy, an unnecessary burden to the 
taxpayer and a drain on the Social Security Trust Fund.
    America cannot afford to continue this colossal waste of life and 
resources. It is time for change. It is time to act. We don't need 
another study, SSA has already provided the data.
    Whatever the answer, it will require the Committees' leadership and 
bipartisan coordination. History has demonstrated it won't be solved by 
SSA and the academics.
    We envision a series of public-private partnerships, with 
businesspersons leading the way. These pilot studies could include a 
variety of scenarios:

    <bullet>  European-style integrated onsite employer-caregiver 
programs.
    <bullet>  Progressive incentivized task training based on 
demonstrated ability/performance and government earnings restrictions.
    <bullet>  Parity SSA return-to-work regulations for SSI and SSDI 
populations.
    <bullet>  Outsource transition-to-work programs from SSA/VR to DOL 
and Manpower, Goodwill Industries or?

    In light of this evidence, it is our recommendation that the 
Committee postpone reauthorization of WIPA and PABSS until a thorough 
review of the Economics of Recovery can be conducted for both SSI and 
DI recipients.
    Thank you for your time and consideration.

            Respectfully submitted,

                                                Donald M. Fitch, MS
                      Executive Director, Center for Career Freedom
                         One East Post Road, White Plains, NY 10601
                                            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adc9c2c3cbc4d9cec5edcbdfc8c8cec8c3d9c8df83c2dfca">[email&#160;protected]</a>

                                 <F-dash>
                     Statement of Francoise Frigola
    As a self-employed disabled individual on SSDI and on the 250% 
California Working Disabled program, I urge the Social Security 
Administration to implement a sliding scale benefit reduction as soon 
as possible.
    For self-employed individuals, medical insurance coverage is also 
part of the ``cliff'' preventing us from becoming self-sustainable. 
Most of us cannot be without medical insurance. Assuming we can find an 
insurer, our ``pre-existing conditions'' make the premiums 
unaffordable. Please offer the continuation of Medicare coverage with 
reasonable premiums.

                                                  Francoise Frigola
    Member, California Work Group--specializing in self-employment 
                                                             issues

                                 <F-dash>
           Statement of Health and Disability Advocates (HDA)
    Health and Disability Advocates (HDA) is a national policy and 
advocacy group that works to promote policies and programs that ensure 
the economic security and comprehensive health coverage for children 
and adults with disabilities and older adults, particularly those with 
limited incomes. A major part of our work is assisting individuals, 
community-based service providers, and advocates who assist individuals 
with disabilities with employment, in understanding and navigating the 
complicated State and Federal benefits systems, identifying barriers to 
accessing those systems, developing policies and solutions that will 
eliminate those barriers, and assuring that policies promote rather 
than hinder an individual's efforts to gain or maintain employment. 
Through this work, we have had the chance to observe first-hand and on 
the ground the impact of the Social Security Administration's 
Employment Support programs. These experiences inform our comments on 
the programs, set out below.

    I. The new regulations promulgated by the Social Security 
Administration will have a positive impact on the Ticket to Work 
Program and employment outcomes for beneficiaries of Social Security. 
However, these regulatory changes alone are not enough to support a 
substantial number of SSA beneficiaries in obtaining and maintaining 
employment and/or leaving the SSA benefits rolls due to employment.
    Most advocates and stakeholders agree that there were at least four 
major problems with the Ticket to Work Program prior to the 
implementation of the new regulations:

    1.  The payment system was inadequate at attracting meaningful 
participation from service providers. The payments were too little and 
the outcomes and their timeframes were unreasonable.
    2.  The original regulations put the Employment Networks and the 
State VR agencies in direct competition for the tickets. Because many 
Employment Networks were also VR contractors, and the VR system paid 
better, most Employment Networks opted not to compete against VR and 
stick to their VR contracts. VR agencies were forced to take tickets in 
order to receive reimbursement from SSA under their preexisting cost 
and did so. The statistics bear this out: With a few exceptions, VR was 
the only one meaningfully participating in the Ticket to Work Program. 
Before and after the Ticket to Work Program, VR was the only viable 
choice in most parts of the country.
    3.  In order for the Ticket to Work Program to succeed, you need a 
significant portion of the beneficiary population to be ``ticket 
ready'' or ready to work at levels of employment that produce payments 
for the EN system supporting them. This can only be done with extensive 
and intensive education and outreach to the beneficiary population and 
all the systems with which they interact. The message must be that it 
is ``safe'' to work and successful utilization of the work incentives 
will lead to a life of greater self-sufficiency that can be sustained.
    4.  In addition, you need an employment service provider system 
that is able to get beneficiaries placed and maintained in employment 
at a level high enough to produce payments. For too long, much of the 
employment services system used by people with disabilities has NOT 
produced placements that would move people toward less reliance on 
public benefits.

    The new regulations take the necessary steps to correct the first 
two problems. The new regulations created a better payment system that 
is more attractive to service providers and the Ticket to Work Program 
is seeing an increase in participation. The new regulations also now 
allow VR and ENs to work together under a model called Partnership 
Plus. This should allow for more participation as well.
    However, the regulations do not address the problems described in 
#3 and #4. Nor could they, as these two issues cannot be solved by 
regulations alone. Rather, #3 and #4 can only be tackled by SSA 
utilizing its authority under Section 121(2)(B) of the Ticket to Work 
and Work Incentives Improvement Act to conduct extensive and intensive 
education and outreach to beneficiaries and service providers about the 
work incentive programs and promising practices in assisting SSA 
beneficiaries in returning to work at meaningful wages. Up until this 
point, SSA has failed to do this in any comprehensive way.

    II. Through the creation of the SSA work incentives, extension of 
Medicare eligibility, extension of SSI Medicaid eligibility through 
1619(b), and the implementation of Medicaid buy-in programs in the vast 
majority of States, many of the significant benefits barriers to 
returning to work have been removed. However, unless beneficiaries and 
the service providers know and understand these rules and how to 
utilize them, all of these changes will have a negligible impact on the 
number of SSA beneficiaries seeking, obtaining, and maintaining 
employment.
    For many years, a significant and very real barrier to returning to 
work was continuing access to cash benefits from Social Security and/or 
Medicare and Medicaid. To put it simply, SSA beneficiaries would not 
work because it would require them to lose necessary cash benefits or 
health care. Over time, and culminating in the Ticket to Work and Work 
Incentives Improvement Act, these barriers have been removed. There are 
still issues, especially involving the sudden loss of all SSDI 
benefits, ``the cash cliff,'' when a person works over the Substantial 
Gainful Activity amount. But, for the most part, there have been 
significant strides in lessening and removing these barriers.
    Given these vast improvements, why have we not seen a significant 
increase in SSA beneficiaries working and even leaving the SSA cash 
rolls? As cited by John Kregel in his important testimony on the WIPA 
programs, Mathematica's 2006 National Beneficiary Survey estimates that 
44% of SSA beneficiaries may be interested in employment. Yet, this 
interest is not translating into actual employment for millions of 
these beneficiaries. To be sure, there are still other barriers to 
employment faced by SSA beneficiaries, including discrimination, that 
cannot be addressed through cash benefits and health care programs. 
But, in our work at Health and Disability Advocates, we still hear SSA 
beneficiaries interested in employment express hesitation about 
pursuing it every day because of unfounded fears of what will happen to 
public benefits and health care by returning to work. We believe many 
SSA beneficiaries are still not taking that leap into employment 
because of fears and misinformation about the work incentives and 
public benefits programs.
    Prior to the passage of the Ticket to Work and Work Incentives 
Improvement Act, many SSA beneficiaries had bad experiences with 
returning to work. They lost access to Medicaid. They were assessed 
overpayments. They could not get back into the benefits system when 
their medical condition worsened without going through the long, 
difficult process of another initial application. These personal and 
negative experiences of employment live on in our communities.
    Now, the rules and regulations governing the back to work process 
of an SSA beneficiary work well on paper. Congress has built a path to 
employment for SSA beneficiaries that is free of many of the previous 
benefits-related barriers to employment. But, these rules and 
regulations are never going to have a real world and significant impact 
until SSA makes it a priority to show SSA beneficiaries, their 
families, service providers and other support systems that the path has 
been cleared.
    Congress provided SSA with the authority to build a comprehensive, 
intensive and large scale education and outreach effort to 
beneficiaries under Section 121(2)(B) of the Ticket to Work and Work 
Incentives Improvement Act. While it has done some work, but not 
enough, in the area of promoting the Ticket to Work Program, it has 
done virtually nothing to promote the broader work incentives and 
changes to the health care programs. Instead, it has relied almost 
exclusively on the WIPA Projects, described below, to do the heavy 
lifting on education and outreach in the community. Although they do 
what they can, 104 underfunded community-based programs, who are also 
expected to spend the vast majority of their time on individual 
counseling, cannot possibly implement an education and outreach 
strategy that will have maximum impact and result in significant levels 
of employment. While we wholeheartedly support fully funding and 
expanding the WIPA program as suggested by others in their testimony, a 
larger and better funded WIPA program could perform all of the 
individual benefits counseling work necessary to support SSA 
beneficiaries, but not all of the education and outreach work necessary 
to fully promote the SSA Employment Support programs. Indeed, this is 
not even what Congress intended, since the authority to create the WIPA 
Projects is separate and apart from the outreach and education 
authority under Section 121(2)(B).
    Ultimately, it is not fair to SSA beneficiaries that the Ticket to 
Work and Work Incentives Improvement Act built a path for their self-
sufficiency and so many of them don't even know it.

    III. Work-related overpayments continue to be a serious problem and 
concern for both the integrity of the SSA programs and the 
beneficiaries who incur them. SSA continues to ignore this growing 
problem and fails to address it in any meaningful and comprehensive 
way.
    The Social Security Administration (SSA) has been plagued with the 
issue of maintaining accurate payments for workers with disabilities 
who are beneficiaries. There are various reasons this occurs. One 
primary reason is that disability is a narrow margin of the number of 
beneficiaries served by SSA and even smaller is the population of 
beneficiaries with disabilities who return to work. The issue is 
compounded by the various work incentives available to workers with 
disabilities, which causes a great area of confusion and often even 
congruency between programs. This has resulted in a large backlog of 
reviews, delaying notification and causing larger overpayments while 
decreasing the likelihood that individuals will make positive decisions 
about working in the future. The issue is best highlighted in the 
September 2004 GAO report entitled: Disability Insurance--SSA Should 
Strengthen Its Efforts To Detect and Prevent Overpayments. The summary 
reads:

          Disability Insurance (DI) program is one of the Nation's 
        largest cash assistance programs for disabled workers. In 
        fiscal year 2003, the DI program provided about $70 billion in 
        financial assistance to approximately 7.5 million disabled 
        workers, their spouses, and dependent children. This program 
        has grown in recent years and is poised to grow further as the 
        baby boom generation ages. The Senate Committee on Finance 
        asked GAO to (1) determine the amount of overpayments in the DI 
        program, particularly those attributable to earnings or work 
        activity, and (2) identify any vulnerabilities in SSA's 
        processes and policies for verifying earnings that may 
        contribute to work-related overpayments.
          Overpayment detections in the DI program increased from $772 
        million in fiscal year 1999 to about $990 million in 2003. The 
        true extent of overpayments resulting from earnings that exceed 
        Agency guidelines is currently unknown. Based on available data 
        from SSA, GAO found that about 31 percent of all DI 
        overpayments are attributable to DI beneficiaries who worked 
        and earned more than allowed. Moreover, GAO found that these 
        overpayments contributed to mounting financial losses in the 
        program. From 1999 to 2003, total overpayment debt increased 
        from about $1.9 billion to nearly $3 billion. Three basic 
        weaknesses impede SSA's ability to prevent and detect earnings-
        related overpayments. First, the Agency lacks timely data on 
        beneficiaries' earnings and work activity. Second, SSA uses 
        inefficient processes to perform work continuing disability 
        reviews (work CDRs). Third, the Agency relies on potentially 
        inaccurate management information to effectively monitor and 
        oversee some parts of this workload. These weaknesses 
        contributed to some work CDR cases GAO identified that were as 
        much as 7 years old, resulting in potential and established 
        overpayments as large as $105,000 per beneficiary.

    The full report can be found at http://www.gao.gov/new.items/
d04929.pdf. Close to 5 years after the date of the report, many of the 
options identified to expedite and decrease overpayments have been left 
unfulfilled. SSA identified a similar issue in the Supplemental 
Security Income (SSI) program many years before. As SSI overpayments 
became a recurring issue, SSA made a policy decision to utilize the 
quarterly wage reports from OCSE (Office of Child Support Enforcement) 
for early income notification on individuals who were not reporting 
employment. This policy change has been noted as a huge success in 
reducing SSI overpayments. The GAO report from 2004 suggests SSDI 
process employment identification just like SSA uses that same source 
for SSI income tracking. Yet 5 years have passed and SSA has not moved 
forward with the OCSE quarterly wage reports for SSDI. For this reason, 
we would strongly suggest the Commissioner of Social Security study and 
implement the integration of the early alert similar to the process 
used by SSI by monitoring all the quarterly wage reports from OCSE. 
This would have immediate impact on identifying individuals who are in 
immediate need of review or continued eligibility, which could 
dramatically reduce the number of overpayments expected to occur in 
subsequent years.
    Identification of individuals who require Work Continuing 
Disability Reviews (Work CDRs) to evaluate ongoing eligibility is only 
one-half of the equation. The report also identifies the desperate need 
to evaluate the growing backlog of Work CDRs already identified, which 
tend to be experiencing significant delay at SSA's Office of Central 
Operations (OCO). One reason many of these cases are backlogged is 
because 70 to 75% of all case reviews for Work CDRs are performed in 
the OCO in Baltimore leaving only 25% of Work CDRs performed in the 
field offices. Work CDRs are much easier to perform when they are 
completed by a claims representative who has an ongoing relationship 
with the client in question. In practice, the local claims 
representative has an understanding of the previous work activity and 
ongoing employment status of the individual, which makes it much easier 
to make a decision regarding the Work CDR decision in question. It 
eliminates the need for an immediate review of all the basic background 
information because the claims representative often already has a 
relationship with a client and knows this information.
    For the reasons cited above, we strongly suggest a transition of 
Work CDR review to 50/50% review by OCO staff and local field office 
staff. If the impending result of the policy change is shown to 
decrease overpayments and expedite Work CDRs, then we would suggest 
shifting the reviewer balance to greater numbers in local field offices 
and away from OCO. This shift should create greater continuity between 
SSA and its clients, while decreasing the excessive costs and damage 
done by unnecessary overpayments.

    IV. The WIPA and PABSS programs play a key and necessary role in 
supporting SSA beneficiaries who are working or considering work. These 
programs should be reauthorized and refunded with direction that SSA 
create and enforce key performance measures to assure that 
beneficiaries are getting the same quality services no matter where 
they live.
    The WIPA and PABSS programs provide vital services that are an 
integral and necessary part of any workforce system that supports SSA 
beneficiaries in returning to work. Since their inception, they have 
supported many SSA beneficiaries with a smooth transition into 
employment. Given this, it is imperative that these programs become a 
permanent and adequately funded part of the SSA Employment Support 
programs. In doing so we would also suggest that SSA provide specific 
employment measures and quality assurance procedures to guarantee each 
beneficiary receives the same level and quality of service regardless 
of where they live. These measures currently do not exist, which has 
resulted in a vast array of service quality across the U.S. 
Strengthening these measures will go a long way in ensuring the cost 
effectiveness of the funding spent and the direct impact that results 
from these services.

            Respectfully submitted,

                                    Health and Disability Advocates
                                Barbara A. Otto, Executive Director
                             John V. Coburn, Senior Policy Attorney
                                Joe Entwisle, Senior Policy Analyst

                                 <F-dash>
                       Statement of Joann Barnes
    We are a small minority women-owned community business located in 
North Los Angeles County, Antelope Valley, California. We have been 
participating in the Ticket to Work program since 2004 with much 
success. This program is greatly needed in our community and support 
from our partners is invaluable. To discontinue this program would be a 
tremendous drain on our economy. We provide employment opportunities to 
disenfranchised individuals, who are preparing to enter or reenter the 
workforce, through comprehensive training in preparation for job 
readiness. We help individuals promote values of self-reliance and 
commitment to the community in which we live.
    I thank you for your review of this matter.

            Sincerely,

                                                       Joann Barnes

                                 <F-dash>
                        Statement of Joe Hennen
    Employment supports in our public disability benefit programs are 
very important to the recovery process of individuals receiving these 
benefits. The employment supports however need to be simple to access, 
understandable, easy to use and helpful/friendly. When one looks at our 
current SSA ``employment supports'' we find a system that is much too 
complicated, way too hard to administer, difficult to use without 
getting an overpayment and is not always helpful or friendly. The 
purpose of this statement is not to attack Social Security or the folks 
that staff our local offices. There are many individuals in our local 
SSA offices that I applaud for their commitment and our Social Security 
system does provide an important safety net for many of our most 
vulnerable neighbors. There are, however, many problems in our SSA 
employment support rules that need to be addressed.
    Today (5/26/09) I attended a SSA reconsideration/waiver request 
``personal conference'' of a recent Social Security Disability 
Insurance (SSDI) beneficiary who was challenging an overpayment of 
$25,232.00. This woman is a success story. She's come back from living 
in shelters, regained her two children, obtained a full-time job and is 
close to getting her AA degree. She no longer receives benefits, has 
learned to take care of herself, is now paying taxes into our Social 
Security/Medicare system and is taking care of her family. We should 
celebrate her success but instead we tell her she owes $25,232.00 and 
ask her to send SSA a check. How can this happen and how would you 
feel? There are only so many mountains one can climb.
    This morning when the SSA Claims Rep shook Lou Ann's hand hello and 
commented on how warm her hands were, Lou Ann relied that ``it's 
probably sweat because I am real nervous.'' The SSA Service Rep was 
very helpful, friendly and supportive. Lou Ann left the conference 
still owing $17,400.00. She wants to share her story to help others 
facing the same issues.
    My name is Joe Hennen. I am a Benefits Planning Specialist with 
Vocational Rehabilitation Services in San Mateo County, California. I 
have a Master's degree in Clinical Psychology and over 25 years of 
experience providing vocational services to individuals living with and 
recovering from psychiatric disabilities. I have been counseling 
individuals around SSA benefits since the early 80s and I am a strong 
advocate for including benefits information in all vocational planning. 
I served as a Benefits Coordinator on a ``Social Security Demonstration 
Project'' in California called the Individual Self-sufficiency Planning 
Project (ISSP) from 2000-05. This was a research project funded by SSA 
to identify innovative strategies and services to successfully assist 
individuals with mental health disabilities in their efforts to reenter 
the workforce. I have been working with the CA Department of Mental 
Health and the CA Department of Rehabilitation as a Benefits Planning 
trainer and consultant since 2002. As a trainer I provide 6 hour 
training on SSDI/SSI general information and work incentives co-
facilitated by a SSA staff person (SSA-AWIC). I also teach a class on 
Public Assistance and Disability Benefits programs at two of our local 
Community Colleges (Canada College and the College of San Mateo). I 
believe in the power of hope and options in the process of recovery and 
value the principle of self-determination.
    I am very pleased to see that Congress is reviewing our current SSA 
``Employment Supports'' and taking public testimony. I would like to 
submit the following comments for consideration in your review. My 
thoughts and observations are based on my experience and my day-to-day 
contact with SSA disability beneficiaries (SSDI and/or SSI) and SSA 
staff. This statement is my recommendations as a concerned professional 
and is not those of any agency I am currently affiliated with.
Recommendation #1
    Local SSA offices and local community organizations need to try to 
develop stronger partnerships to assist beneficiaries of SSDI or SSI in 
their efforts to return to work. This objective needs to be a strong 
part of the SSA employment supports program.
    For anyone who regularly interacts with SSA it is obvious that 
there are not enough staff in our local offices to effectively 
administer the ``employment support'' program/rules while still doing 
everything else SSA staff does. Without more staff the Agency's 
employment support mission can not be achieved alone. Although I 
believe we need more direct service SSA staff I also know that stronger 
working partnerships between SSA and local vocational/disability 
service providers would help achieve the goals of SSA's employment 
support mission and benefit those we all serve. Local service providers 
can help educate beneficiaries about their benefits, help beneficiaries 
report earnings to SSA and support our mutual clients in their efforts 
to become more self-supporting and provide advocacy as needed. As SSA 
moves toward more online services, community partners could assist 
beneficiaries with using online services.
    I've had the experience of a close working relationship with our 
three local SSA offices in San Mateo County, CA. Over the years our 
local SSA managers have helped us provide ``work incentives'' 
presentations for local SSDI/SSI beneficiaries. My experience with our 
SSA research demonstration project in California from 2000-05 clearly 
showed that working partnerships are possible and beneficial to all 
involved. As a trainer for CA Mental Health I provide 1-day training on 
SSDI/SSI general information and work rules usually with the assistance 
of an SSA Area Work Incentives Coordinator (AWIC). These kinds of 
partnerships benefit beneficiaries in many ways and bring SSA staff 
closer to those they serve.
Recommendation #2
    Modify the SSDI ``all or nothing'' rule. SSDI cash benefits should 
gradually go down as a beneficiary's earned income goes up.
    Right now if an SSDI's recipient completes his Trial Work Months 
(9) and earns over $980 a month he will lose his entire SSDI check 
after a short grace period. Nine hundred eighty dollars a month is how 
we currently define ``substantial work.'' Having one's entire check 
stop is a scary event for any individual who is still not sure about 
how much he/she can work and still manage the disability. Over the 
years I have seen many individuals stay below the ``substantial 
earnings'' level because they couldn't make a jump to full-time 
employment.
    If we want to encourage SSDI beneficiaries to work as much as they 
can, we need to change the ``all or nothing'' rule. We need a rule that 
allows the person's monthly SSDI check to gradually go down, say $1 for 
every $2 earned, after he/she achieves our current substantial work 
level of $980 a month. This approach would allow a beneficiary to test 
out how much he/she could work, build confidence and skills, and 
perhaps reach full-time employment. I still believe many individuals on 
SSDI can return to work and know at least 10 individuals I still see, 
who are completely off cash benefits and paying taxes.
    I believe SSA has a demonstration project currently underway in 
four States to study this issue. Although I have not seen any results I 
would predict that a gradual reduction in SSDI benefits would lead to 
higher earned incomes for beneficiaries working and a decrease in SSDI 
paid to those beneficiaries.
Recommendation #3
    Overpayments happen way too frequently to SSDI/SSI beneficiaries 
who are trying to go to work. They are discouraging and at times can be 
devastating. We need to decrease the frequency and size of 
overpayments.
    No one likes to owe the government money. SSA overpayments cause 
beneficiaries to stop working and often seem unfair. Overpayments can 
occur for a variety of reasons, however if we just address those that 
occur because a beneficiary returns to work there are some specific 
areas to study.
    If you get SSI and try to go to work you will definitely get an 
overpayment. The SSI ``retrospective accounting'' rules are designed to 
fail and a major reason for SSI overpayments of individuals who try 
working. This rule says income you earn this month will change your SSI 
check 2 months later. That means for earned income I have to report my 
pay stubs for May 2009 to SSA by June 10, 2009 so my July 2009 SSI 
check is correct. Imagine how many places this process can break down? 
If the beneficiary does not report on time or SSA staff does not input 
the pay information into their records on time, the July check will be 
wrong and probably lead to an overpayment. SSA is implementing a new 
``wage reporting by phone'' program that may help reduce overpayments. 
Online reporting would probably also help but is not yet available. One 
other idea is for SSA to hire some part-time workers who are SSI/SSDI 
beneficiaries to assist in helping get reported wages quickly into the 
system. SSA could also look at using a 3 month window instead of a 2 
month window to allow more time for wage information to be gathered and 
input into the system.
    For SSDI beneficiaries overpayments occur when you continue to get 
a SSDI check after you have completed your ``trial work period and 
grace period and are earning at a substantial level.'' Confused? Lou 
Ann's story on the first page is an example of this problem. In the 
announcement for these hearings you identified an April 2009 report by 
the SSA Inspector General that found that SSA was not acting quickly 
enough to terminate the benefits of SSDI beneficiaries who lose 
eligibility because they return to work. This occurs even if the 
beneficiary has informed SSA they are working. SSA needs to find a way 
to complete SSDI work reviews in a more timely and efficient manner. A 
major part of the problem is the complexity of the SSDI work rules. 
There should also be a time limit on how far back in time SSA can go in 
charging beneficiaries overpayments.
Recommendation #4
    Provide adequate legal assistance for individuals dealing with 
post-eligibility issues, like overpayments or reduction/cessation of 
benefits.
    Related to the issue of overpayments and cessation of benefits is 
the lack of adequate legal support for beneficiaries who face these 
problems. Most beneficiaries can't afford to pay a lawyer and few 
lawyers take post-eligibility cases because SSA doesn't pay anything. 
With initial eligibility cases lawyers can earn up to 25% of a 
beneficiaries past due benefits.
    In our community we are lucky to have the support of an excellent 
attorney from our local legal aid. We haven't always had this kind of 
help and know it's not available to many beneficiaries.
Recommendation #5
    Benefits Planning and Assistance services are crucial in helping 
SSI/SSDI beneficiaries return to work. We need to continue and if 
possible expand our Benefits Planning and Assistance services.
    In our community we have a partnership between county mental 
health, a county vocational rehabilitation program and our State 
Department of Rehabilitation to help beneficiaries return to work. In 
the vocational program is a unit called the Financial Empowerment 
Project (FEP) which provides a range of services aimed at helping 
beneficiaries better understand their benefits, know their choices 
regarding the SSA work rules and better manage their finances. The 
beauty of this model is that FEP is part of a vocational program that 
supports individuals in their efforts to return to work.
    FEP has a benefits peer support team made up of individuals living 
with a disability and many of them receiving SSDI/SSI. This model 
allows beneficiaries, who are working, the opportunity to assist other 
beneficiaries who are working, or want to work.
    Most of FEP's funding comes from our county Department of Mental 
Health. SSA and State Departments of Rehabilitation should look at 
expanding their funding of benefit planning and assistance services.
Recommendation #6
    Talk with those individuals who have returned to work full-time and 
are off cash SSI/SSDI benefits. This would be a worthwhile 
demonstration project.
    The last time I looked, the success rate of individuals returning 
to work and leaving the SSDI/SSI benefit roles was less than 1%. At 
this very moment I can think of 10 individuals who have returned to 
full-time employment and no longer receive SSDI/SSI benefits. I believe 
studying their experiences and the recovery journey of others could 
help us better understand what beneficiaries need to be successful in 
returning to work.
Final Recommendation
    If I could offer one recommendation it is simply the SSA 
``employment support'' rules and programs.
    As the Committee reviews SSA's ``employment support'' rules and 
programs I would encourage you to try to find ways to simplify the 
rules. Currently the rules are too complex and confusing which often 
scares beneficiaries away from trying to work. I also believe that the 
complexity of the rules causes many of the overpayments beneficiaries 
encounter. For concurrent beneficiaries who receive both SSDI and SSI, 
understanding and following both sets of work rules can be an 
overwhelming challenge.
    Again, I appreciate the opportunity to provide this statement and 
look forward to seeing some positive changes in the way SSA encourages 
and supports beneficiaries in their efforts to return to work.

            Sincerely,

                                                        Joe Hennen,
                                    MA Benefits Planning Specialist

                                 <F-dash>
       Statement of Joe Ramirez-Forcier, Positive Resource Center
    I am writing today to tell you about my experience as a Managing 
Director of a Vocational Services agency that assists people who have 
disabling HIV/AIDS to return to work. The Ticket to Work program was 
just implemented this year at my agency at the Positive Resource 
Center. Consumer acceptance of the Ticket program has been good. We 
have signed 45 people up in 2 months. Consumers have stated that they 
like the CDR protections offered by the Ticket program as well as the 
timely progress elements and allowing them to take or complete 
schooling at local colleges and universities. In San Francisco over 50 
percent of the workforce has a college degree so advanced education is 
key in entering the workforce here in San Francisco.
    The process a consumer goes through in the Ticket To Work program 
is also one of intention and allows the consumer to state their 
commitment to return to work which the consumer sees as beneficial and 
instills hope in the individual consumer. Although there are no startup 
funds for Ticket programs we are fortunate enough to have matching 
dollars we received in our program from other city and State workforce 
development funds to serve the individual. The unfortunate part is that 
we must compete with other local populations for these dollars and can 
become a nonprioritized population. Specific monies set aside as they 
are for youth in local Workforce Investment Boards to start and manage 
the vocational rehabilitation and adjustments aspects of our 
programming would be beneficial as these efforts are not well funded by 
VR agencies or by local Workforce Investment Boards.
    Thanks for your time.

                                               Joe Ramirez-Forcier,
                            Managing Director, Employment Services,
                                           Positive Resource Center

                                 <F-dash>
             Statement of John M. Connelly and Joseph Dunn,
                Ohio Rehabilitation Services Commission
    It could be argued that there is no greater factor in improving 
one's life than the ability to work and live independently in the 
community. Often, people with disabilities are not given an equal 
opportunity to improve their lives because barriers to employment and 
independence are too prevalent in society. The programs administered by 
the Ohio Rehabilitation Services Commission (RSC) strive to remove 
these barriers and partner with people with disabilities to achieve 
quality employment, independence, and disability determination 
outcomes.
    RSC operates two core programs and administers several related 
programs benefiting Ohioans with disabilities. The core programs are: 
Vocational Rehabilitation (VR) and Disability Determination.
Vocational Rehabilitation (VR)
    This competitive jobs training and workforce development program 
assists people with disabilities to obtain or retain employment. VR 
stands out from other employment programs because qualified 
rehabilitation professionals provide eligible individuals with 
disabilities fully individualized services that ensure effective job 
matching and ongoing job success, thereby strengthening the bottom line 
for businesses and consumers alike. The VR program is funded with a 
combination of State and Federal funds with a generous match ration of 
nearly $4 of Federal funds for every $1 invested by the State (78.7% 
Federal funds and 21.3% State funds).
    Some of the key results of Ohio's Vocational Rehabilitation efforts 
over the past year include the following:

    <bullet>  RSC successfully assisted a record 9,370 individuals into 
competitive employment--the 6th straight year of record performance;
    <bullet>  Successful VR consumers contribute to the economy and pay 
more than $34 million in taxes each year; and will repay the total cost 
of their rehabilitation in 2-4 years;

Disability Determination
    RSC's Bureau of Disability Determination (BDD) is charged with 
determining medical eligibility for Social Security Disability 
Insurance (SSDI) and Supplemental Income. BDD is proud of the service 
it provides to all of its customers for the Social Security 
Administration. This is perhaps best exemplified by the numerous awards 
given to the agency and its staff in recognition of meeting and 
exceeding the high standards of our customers. Highlighting these 
awards is a recent SSA Commissioner's Citation for continually meeting 
and exceeding performance goals. The Disability Determination program 
is 100% federally funded through the Social Security Administration.
    Key results relating to our Disability Determination program 
include the following:

    <bullet>  176,252 cases processed--an increase of 6,860 cases from 
the previous year.
    <bullet>  Reduced the average time for a SSDI case decision from 97 
days in 2004 to 84.6 days in 2007.

    The Ohio Rehabilitation Services Commission (RSC) commonly provides 
vocational rehabilitation services to consumers who are fully or 
partially supported by Social Security Administration (SSA) 
Supplemental Security Income (SSI) or Social Security Disability 
Insurance (SSDI). RSC receives reimbursement for the cost of 
rehabilitating Social Security disability beneficiaries or recipients 
as long as those consumers meet certain requirements. Ohio currently 
places third in the Nation and first in our region in terms of the 
amount of reimbursement funds received. Ohio has traditionally ranked 
near the top as far as national rankings for SSR funds allowed. Through 
April of the current fiscal year, RSC has already been reimbursed with 
nearly $4.4 million in funds.
    Ohio has demonstrated success in working with consumers receiving 
SSI and SSDI and would like to submit for the record its support for 
the early intervention proposal known as Employment First as presented 
by the Council of State Administrators for Vocational Rehabilitation 
(CSAVR). CSAVR's concept is strong and would provide a means of both 
saving taxpayer money and offering prospects to people made vulnerable 
by the onset of a disability. This proposal for early intervention 
utilizes the combined expertise of the SSA and public vocational 
rehabilitation (VR) professionals.
    In short, CSAVR's proposal would provide beneficiaries a choice of 
the long-term disability program or a short-term opportunity including 
access to cash and medical benefits, plus the help of experts in 
employment support for returning to work.
    As it stands now, when someone applies for disability benefits, 
that person must demonstrate a long-term inability to work. SSDI 
eligibility requires the applicant to demonstrate that she/he has been 
unable to work for at least 5 months. Consequently, instead of 
encouraging a person to reenter the workforce at a time when the desire 
to work is still strong, current SSA rules generally reinforce an 
applicant's belief that work is not an option.
    It is not so surprising, then, that less than \1/2\ of 1% of 
beneficiaries ever leave the disability cash benefit rolls and find 
another job. With their long history of providing employment supports 
to individuals with disabilities, including people already receiving 
Social Security benefits, we believe that State VR programs can target 
a vital niche in serving the newly-disabled population.
    Here is how CSAVR members envision Employment First working. Upon 
entering the SSA office, a disability applicant would be referred to a 
Social Security Rehabilitation Counselor (SSVRC). The SSVRC would do a 
preliminary screening to determine immediate allowance decisions. If 
the individual is not presumptively eligible for Social Security, the 
SSVRC would begin to discuss vocational options, assisting the 
individual in making an informed choice about participation in 
Employment First.
    Because the applicant may have immediate need for income support, 
the Employment First program would offer short-term cash assistance. 
This would provide the applicant some time-limited income while 
pursuing employment. In return for immediate cash assistance and 
vocational services, the applicant would agree to suspend his/her SSDI 
application. However, it is important to note that the applicant will 
always have the option of reactivating the disability application or 
making a new application.
    Additionally, the SSVRC would help the applicant to explore and 
apply for health care such as Medicaid and locate other supports 
including food stamps or community services where applicable. In States 
like Ohio where Medicaid buy-in is an option, this possibility would 
also be addressed to assure health care coverage even once an applicant 
returns to work.
    The concept of moving the employment discussion to the front end of 
the disability benefits process would lead to better use of taxpayer 
funds as disincentives to work are removed. As mentioned previously, 
when a claimant applies for disability benefits he/she could spend up 
to 3 years of their lives convincing the Federal Government and 
themselves that they cannot work. If that consumer is given the option 
of working with the VR system the notion of ``I can't work'' does not 
come into play.
    If VR services provide a successful employment outcome, the SSA 
benefits system would be saved the cost of adjudicating the case. 
Further, a significant return on the investment would be realized as 
the consumer becomes a taxpayer instead of a tax consumer. In Ohio 
alone, RSC estimates that our successful consumers paid more than $34 
million in State and Federal taxes last year.
    It also ultimately reduces other human service program costs, since 
people with disabilities gain a greater measure of self-reliance. Tax 
revenues will increase as these individuals bring their new found 
earning power into the economy.
    Integrating all available workers into the workforce, including 
workers with significant disabilities, will be required for employers 
to meet the demands of the 21st century economy. Significant numbers of 
large and small employers have acknowledged that hiring individuals 
with disabilities makes good business sense. It provides them with 
diverse reliable workers and access to a market of individuals with 
spending power, which has historically been untapped.
    In closing, RSC has a long history of providing employment supports 
to individuals with disabilities, including those individuals on the 
Social Security disability programs. Increased partnership between 
Social Security and Vocational Rehabilitation will lead to efficiencies 
and help to further reduce barriers to independence for people with 
disabilities.
    Ohio RSC and the other public VR programs are committed to 
providing needed services and tools to maximize employment and 
independence opportunities for some of our most vulnerable citizens, 
while also contributing to the economic well-being of the Nation.

                                 <F-dash>
                        Statement of John Riley
    I honorably submit my comments for the May 19, 2009 hearing on the 
Social Security Administration's Employment Support Programs for 
Disability Beneficiaries so the Subcommittee may better formulate an 
informed effective strategy to improve incidence of economic 
disparities caused by beneficiary attempts at work reentry and the 
inability of the Social Security Administration (SSA) Payment Center to 
efficiently process reported earnings from beneficiary work activity as 
applied to program entitlement for cash benefits.
    Recalling the experiences of more than 300 of my clients seeking 
counseling for reporting earnings from work activity throughout the 5 
years of the Benefits Planning Assistance and Outreach (BPAO) program 
and the nearly 5 years of the Work Incentive Planning and Assistance 
(WIPA) program, I must strongly urge the Subcommittee to recommend the 
implementation of the gradual reduction formula used with Supplemental 
Security Income (SSI) beneficiaries receiving earned income from work 
in determining the monthly cash benefit of an SSDI beneficiary engaged 
in work activity greater than Substantial Gainful Activity (SGA) after 
completion of the Trial Work Period. This adjustment to the current 
work incentive regulations for SSDI beneficiaries will enable these 
individuals who sincerely report earnings with due diligence to the SSA 
to be at less risk of a ballooning overpayment determination by SSA.
    Most of my long-term rolling caseload clients who are still working 
or have terminated from their SSDI cash benefit due to extended work 
activity have experienced the psychological and emotional hardship of 
the SSA claiming an overpayment of entitlement payments despite the 
beneficiary reporting, in most cases with over diligence, to the local 
SSA field office and the national 1-800 switchboard. For most, the 
result is an extended legal arbitration with SSA and the Internal 
Revenue Service (IRS) due to inaccurate income tax presumptions. Many 
reverted back to full disability status at great financial and 
emotional hardship. A few still remain employed full-time, have 
exhausted all Medicare extended eligibility, and continue to pay on 
their SSA overpayment and their outstanding IRS income tax presumed 
from the combination of their work activity earnings and unearned 
income from SSDI.
    The gradual reduction formula allows the SSA to be regarded as a 
partner in a beneficiary's quest for work reentry instead of an 
adversary for a possible financial attack years later. Most of my 
clients who have made sincere attempts at part-time or full-time work 
reentry have had to endure an overpayment issue of some sort with SSA. 
Most have said, `` I should never have done this'' or ``I should have 
worked under the table,'' not because they ignore the benefits of 
continued payroll contributions to their FICA and Medicare funds and 
the self-esteem building value of work, but because of the debilitating 
and humiliating SSA interaction of an overpayment.
    The smaller the overpayment amount, the easier it is for a 
beneficiary to financially accommodate the repayment to SSA without it 
sabotaging their zeal to work and create a future life of opportunity 
for themselves. The higher the overpayment the more a financial loss 
exists for and is sustained by SSA. I don't profess I know the answer 
to how the SSA Payment Center can be given a method or device for the 
capacity to accurately report earnings and fluidly process beneficiary 
entitlements. That will take someone with the skill of computerized 
financing to develop. All I can encourage the Committee to do is to 
acknowledge that the current system of ceasing a beneficiary's cash 
benefit once they earn greater than SGA after completing their Trial 
Work Period is an incentive for those entitled to restrict their 
earnings to sub-SGA levels so they do not have to grapple with the 
strong probability of financial hardship enacted by SSA in the form of 
an overpayment.
    I still positively encourage beneficiaries to follow through on 
their desires to return to work. But I wonder how much of a disservice 
I am doing to them by setting them up to be abused by the SSA system 
later in their lives. The gradual reduction formula will work. It needs 
to be written into the SSA work incentive code.
    Thank you for you time and consideration in this matter.

            Sincerely,

                                                        John Riley,
                                                       BSW and CWIC
                                                    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f15150d16131a063f121e1c511c1012">[email&#160;protected]</a>

                                 <F-dash>
                      Statement of Kenneth McGill
    My name is Kenneth McGill, retired from the Social Security 
Administration, formerly the Associate Commissioner for Employment 
Support Programs. I had the opportunity during my tenure at SSA to be 
involved in the development of the Ticket to Work and Work Incentives 
Improvement Act of 1999, and to manage the Agency's implementation of 
most of the provisions of this important piece of legislation.
    I applaud the Subcommittee on Social Security for holding its May 
19 hearing on several areas of concern for the continued success of 
Social Security's employment support programs. I am submitting the 
following comments for the record:
    The recent regulatory changes to the Ticket to Work program hold 
much promise for SSA to be able to deliver a successful Ticket program 
as intended by the drafters of the TWWIIA of 1999. The new regulations 
are beginning to attract the necessary numbers of active, engaged 
Employment Networks to afford disability beneficiaries choice in 
service provision and assistance. The potential for successful public-
private partnerships under the ``Partnership Plus'' process is huge. 
And increased emphasis by SSA on recruitment of a diverse group of 
Employment Networks as well as outreach to beneficiaries is starting to 
pay off in improved participation rates.
    The success of the Ticket program is dependent on much more than 
the specific set of rules governing Ticket eligibility, reimbursement 
rates, Employment Network processes and the like. That success is 
extremely sensitive to other major factors--the overall economy, 
employer attitudes, health insurance issues, and beneficiary fears and 
opinions about work and benefits. The vision of the Ticket to Work and 
Work Incentives Improvement Act of 1999 was always to work for 
improvements in many of these areas. The Ticket to Work was envisioned 
as one of several important interlocking policy and infrastructure 
changes. One of the most important underpinnings was the 
institutionalization of benefits planning in this country's service 
structure. Prior to the TWWIIA, benefits planning was purely ad-hoc--
funded and provided by an informal network of State and Federal 
grantees, private organizations, and community agencies. The TWWIIA 
provided for a national set of SSA-funded grantees, as well as national 
standards for training and procedures. The former Benefits Planning 
Assistance and Outreach (BPAO), now Work Incentives Planning and 
Assistance (WIPA) grantees have been one of the nationally-recognized 
success stories of TWWIIA--and their effect on the Ticket program's 
success cannot be underestimated. I am concerned that once the 
congressionally-designated 5-year funding stream ended, that SSA did 
not take the necessary steps to extend and improve the funding for 
these valuable community resources. The uncertainty of current-level 
funding and the flat-line funding that has characterized the program 
since 2004--all have led to unnecessary uncertainty over the future of 
the BPAO/WIPA program--and a reduction in service to SSA beneficiaries. 
SSA can easily measure the direct effects of the BPAO/WIPA program on 
beneficiary work behaviors. The cost-effectiveness has been 
demonstrated--I urge the Subcommittee and the Congress to move quickly 
to stabilize and increase the funding for this hugely important 
program. Reauthorization and specific guidance to SSA for increased 
funding of this program should be a priority for this session of 
Congress.
    Thank you for the opportunity to comment on these issues.

                                 <F-dash>
                      Statement of Laura L. Dawson
    The purpose of this testimonial is to discuss the difficulties and 
successes incurred in the Ticket to Work program. There have been many 
pitfalls in the program and the supporting programs, the Employment 
Networks, Work Incentive Planning and Assistance (WIPA), Protection and 
Advocacy for Beneficiaries of Social Security (PABSS) program. 
Therefore, I have attempted to chronologically describe the benefits 
and some of those difficulties in order that those who follow behind me 
may see fewer of these.
    Most importantly the communication between the duties of each of 
these agencies and their beneficiaries is effective in some regions 
more so than others. There have been occasions when one agency provides 
services with the assurance of a pass off into the next program, yet 
there is not a clear process for us, the beneficiary to follow through 
to completion.
    My disability review was initiated June 5, 2002 by Social Security. 
I was informed September 20, 2002 of the permanent disability award 
which was retroactive to January 16, 2002. I was referred to the Ticket 
to Work program for retraining and employment while residing in Santa 
Barbara, California. From their Department of Rehabilitation, I was 
assisted to relocate to Nevada, and then with the assistance of the Job 
Coach assigned to my care, was assisted to license and locate in North 
Carolina.
    The following is a chronological listing of assistance and 
difficulty encountered by myself in attempts to use Ticket to Work and 
your adjunctive support services as a self-employed beneficiary:

    1. Disability was awarded September 2002, after a previous request 
by me in 1996 for help under the disability programs. With the 
significant impact on my income earning potential and large student 
loan debt, the impact took me some time to get my medical bills and 
records in order. This was done with the assistance of local Social 
Services outside of the Ticket to Work program to reestablish my 
credentials, while the State of California's Department of 
Rehabilitation (DOR) helped me to be employed in my trained profession 
of alternative medicine, including nutritional education programs.
    The Santa Barbara DOR helped get me part-time work for trials 
periods while I was in recovery since my former career was too 
stressful and hired a person to help me prepare a formal business plan 
for my newly formed company. My disability benefits were not meeting my 
cost of living needs even in an affordable housing complex. The 
counselors were advising me how to get food stamps, and other social 
programs to help me while I was recovering and working. The Ticket to 
Work program was being used to help my small business to buy paper, 
print cartridges, and office goods. Still it was not enough to provide 
me with income to pay my student loans or affordable housing. I decided 
that by adding my skills and tools of acupuncture to my business model 
I would create another income stream. My counselors helped me to 
relocate to Nevada where I pre-cleared licensure, so that I would not 
be too far from my parents and siblings.
    The benefits specific to California were:

    i.
         Assisted by trained professional to complete a business plan.
    ii.
         Provided with computer training in DOR office.
    iii.
         Some educational costs reimbursed, including a tutorial 
program/partial.
    iv.
         Assistance with costs for national membership.
    v.
         License fees.
    vi.
         Upon relocation provided with Dell laptop for business use 
(still used).

    While in California, I was not ever able to become independent of 
disability benefits using employment income for any period of time. 
Cost of professional continuing education and licensing, supplies, and 
insurance, cost and burden of documentation, made it prohibitive to 
earn a living wage, let alone repay a significant student loan debt.

    2. The relocation to Nevada went well enough to begin with, however 
the program was not prepared for someone who wanted to become self-
employed in acupuncture. The licensing had changed while I was in the 
process to reside in Nevada. My case and Ticket were assigned to a 
contracted agent, Larry Gilbert. He was familiar with the medical 
profession in Las Vegas and could help me interview to share a practice 
using my scientific training in nutrition. I was also sent to another 
agency, the Independent Living Resource Center in Las Vegas, where I 
wrote a PASS plan (similar to a business plan) for a counselor to use 
in placement.
    This all was happening in the backdrop of a booming real estate 
bubble where social services were trying to keep up with applications 
for assistance that my counselor set up for utility help, food 
assistance, and job interviews. My counselor got me multiple interviews 
and several part-time jobs to hold me over and help me get to know the 
community of Las Vegas. After multiple failed interviews and 
applications, during which I kept up my skills and consulted on 
nutrition, my counselor suggested that I use my current credentials and 
relocate to a State that would accept my license. He recommended that I 
not share this information with anyone else until it was complete. I 
successfully obtained my license in two States. Indiana and North 
Carolina were my two picks due to the potential to grow my business 
through corporate insurance programs based in Indiana, and/or community 
needs in North Carolina.
    The benefits specific to Nevada were:

    i.
         My case was assisted by a trained professional counselor.
    ii.
         My business card and brochures were printed for my company.
    iii.
         A luggage carrier on wheels was purchased for me to use for 
mobile business.
    iv.
         A miniature Power Point project was purchased for mobile use 
to present my nutritional education program.
    v.
         I received assistance to find programs that helped with gas, 
utility costs and food stamps.
    vi.
         My counselor helped me to get gas and plan support to relocate 
to North Carolina where he continued to work with me for a month or 
two.

    3. When I arrived in North Carolina, I had already introduced 
myself to the acupuncture community in the area. I made contact with 
the NC DOR to set up an appointment for counseling and to be able to 
apply for a new startup small business loan. That representative was 
not receptive to helping me. I was told that I would have to write a 
new business plan and I ``probably would not get a loan anyway.'' With 
that in mind, I signed the documents to keep my Ticket to Work options 
open and left her office. When I phoned for the business plan names to 
start the process on my own, the three numbers that she gave me were 
either disconnected or no longer provided that service.
    From that point in 2005 in North Carolina, it appeared that I would 
be on my own with little help or oversight. I was able to enter the 
acupuncture market and served on the Association Board for a period. I 
treated patients, some who were able to pay for their care. There have 
been other patients who have chronic needs and do not make payments 
causing me to `carry' the financial burden of malpractice insurance, 
license fees, supplies, and cost of facility to provide care. All of 
these costs have been absorbed by me. The NC DOR has not been willing 
to come forward to help with any of these costs. In fact, one of the 
difficult things about the lack of support is that I can not afford to 
receive acupuncture or any of the herbal prescriptions that are 
beneficial to protect me against disease.
    Additionally, the health care insurance company that one of my most 
costly patients uses has lost the claim and informed me that 
acupuncture by acupuncturists was `still under investigation,' so 
although she was willing to send me another claim form to complete for 
the patient, I would most likely not be paid.
    North Carolina's Ticket to Work program when assigned to the NC DOR 
has not been able to help me to use my benefits under the programs here 
to be employed in the profession which I am trained and experienced to 
perform. The WIPA person was unable to help me understand my benefits 
and made the recommendation that I complete the contract to use my 
company as an Employment Network and assign my Ticket to my own 
company. This has not taken place.
    The benefits specific to North Carolina have been:

    i.
         Transportation to evaluations that were required more often 
than prescribed.

    In order to continue to work enough to cover living costs I elected 
to contact the Santa Barbara DOR for help. They referred me to Virginia 
Commonwealth University where they have programs to assist disabled 
self-employed people with counseling, reference, resources, forms and 
encouragement and have a strong online presence.

    4. After receiving the printed Ticket in the mail in 2005, I 
attempted to assign several times. The first in 2006 to an EN in Ohio 
who was interested in creating franchises at my financial expense. 
Another to a NY EN who could not provide services as advertised on the 
Ticket to Work website. In the following years I contacted and 
interviewed three other ENs who did provide the services to help in 
self-employment. One had other criteria and services than was posted. 
The most recent one lost my contact information after I provided them 
with confidential company data. When I made a followup call, they asked 
me to visit the website and call back later. When I did, the website 
was gone and they have not called me. These opportunities have all 
failed to meet the needs my Ticket to Work is designed to fulfill: 
http://www.yourtickettowork.com. There is also concern the beneficiary 
data distributed to all of these ENs may need more oversight.
    On a more positive note, the best resources have been referred to 
me by a counselor from the Santa Barbara DOR and the Las Vegas TTW 
program counselor. Griffin-Hammis LLC, who have literally `written the 
book on disability employment,' continue to answer my calls for direct 
and resource sites. Virginia Commonwealth University has a department 
of people who continue to provide recommendations and connections to 
other self-employed disabled, forms for business use and referrals to 
advisors. CESSI employees helped me to submit my own company to 
contract with the SSA to serve as an Employment Network in June 2008. 
It was a great learning experience which has led me to formally submit 
other contract proposals to Federal agencies.
    There are many things that have been positive about the Ticket to 
Work program, for which I am grateful.
    It is my hope that this testimonial will help those who follow me 
through the Social Security programs to benefit from better interagency 
communication, improved inclusion of the beneficiary in communication 
and services, and a followup review on random beneficiary cases.
    Thank you for this opportunity to help improve our government 
programs.

            Be In Good Health.

                                                    Laura L. Dawson

                                 <F-dash>
       Statement of Linda Landry, Sarah Anderson, Teresa Lacava,
                           and Mark Bronstein
    Chairman Tanner and Members of the Subcommittee, thank you for the 
opportunity to provide this statement on topics of great importance to 
people with disabilities who seek to reduce dependence on public 
benefits through work. The undersigned have long experience providing 
representation on Social Security matters for individuals with 
disabilities. The Disability Law Center (DLC) is the Protection and 
Advocacy agency for Massachusetts and provides free civil legal 
services to people with disabilities throughout Massachusetts. A key 
mission of the DLC is to help ensure that people with disabilities are 
able to access the services they need to live and work in the 
community. Greater Boston Legal Services (GBLS) provides civil legal 
services to eligible low-income clients in 23 cities and towns in 
eastern Massachusetts. Legal Assistance Corporation for Central 
Massachusetts (LACCM) is the State-funded civil legal aid program for 
Central Massachusetts. LACCM provides civil legal assistance to low-
income and elderly residents of Worcester County. Mark Bronstein is an 
attorney in private practice concentrating in disability law who 
frequently advises and represents individuals with overpayment and work 
incentive issues in claims before the Social Security Administration.
    We support the testimony presented by Cheryl Bates-Harris, Senior 
Disability Advocacy Specialist, National Disability Rights Network on 
behalf of the Consortium for Citizens with Disabilities Employment and 
Training Task Force and Social Security Task Force. We note the gains 
made in the Ticket to Work program under the regulations revised in 
2008 and agree that the program should be reauthorized. We also urge 
that the funding for the important services provided through the WIPA 
and PABSS programs be reauthorized. We support simplification of the 
Title II work incentives through the Benefit Offset Demonstration 
project and support the health coverage access improvements noted in 
the testimony of Ms. Bates-Harris. These programs and projects are 
important supports for disability benefits recipients who want to 
attempt work.
    What we want to emphasize with this statement is the extent to 
which benefit overpayments are a preventable work disincentive. We are 
all in-the-trenches practitioners who see a big demand for 
representation on overpayments of Social Security Disability Insurance 
(SSDI) and Supplemental Security Income (SSI) benefits from 
beneficiaries who have tried to work. We would rather not see these 
cases because they hurt beneficiaries, discourage work attempts, and 
harm Social Security's image as an effective, efficient agency. These 
work-related overpayments are often very large and the result is that 
beneficiaries are often terrified of making another work attempt. In 
our experience, most beneficiaries have reported the fact that they 
were working to the best of their abilities. When recipients have 
reported work and still amass large overpayments, they may feel 
punished for having tried to work. In addition, the overpayment crisis 
results in the word on the street being that one cannot attempt to work 
with incurring big problems with Social Security.
    We have yet to encounter any beneficiary who adequately understood 
the work rules for SSDI or SSI benefits, regardless of education or 
type of disability. The work rules are very complex, and we can attest 
that it takes a considerable amount of information and training to 
accurately apply the work rules to specific cases. Indeed, many 
beneficiaries do not understand which benefit they receive, let alone 
which of the work rules apply to their benefits. In our experience, 
those recipients who are interested in trying work care less about 
losing cash benefits than in knowing reliably when benefits will end. 
Planning is very important to beneficiaries as most are low income and 
do not have the financial security to manage surprise decreases in 
income. This year the SSI Federal Benefit Rate is only $674 per month 
(74.6% of current Federal poverty guidelines) and the estimated average 
SSDI benefit is only $1,074 per month (109% of current Federal poverty 
guidelines). These benefit levels do not allow for rainy day savings.
Solving the Overpayment Problem Requires that Beneficiaries Receive 
        Accurate and Timely Information on Reporting Requirements and 
        Work Rules
    Part of the problem is that SSA has not had sufficient staff for 
many years to spend the time necessary with benefit recipients to 
explain the work rules and reporting responsibilities, neither when 
benefits begin nor when recipients report work. SSA has developed some 
written materials to help make up for this lack of staff time. Some of 
these materials are helpful to those of us who have the background to 
understand them. But, it's difficult to explain the current work rules, 
and many, if not most, benefit recipients simply do not understand the 
terminology used in the work rules and are not able to accurately 
determine on their own whether they should or should not continue to 
receive their benefits at any particular time while working. It's 
simply too confusing. In addition, many claimants are functionally 
illiterate, have low reading comprehension levels, or are otherwise 
unprepared to understand the rules and terms used by Social Security.
    SSA must have the resources to make sure benefit recipients have 
sufficient information about the relevant work rules and reporting 
responsibilities at relevant times. Some of this information may be 
presented at application, but this is at a time when many applicants 
are in crisis and less able to take in complex information. It's not 
clear when, if ever, this information is presented or explained again 
in person. Beneficiaries need to understand and be regularly reminded 
that they can attempt work without immediate loss of cash and 
associated health benefits but that there is information they need to 
know when they are ready to attempt work. They must be invited back to 
Social Security or this information or Social Security must be prepared 
to refer them to a reliable resource (e.g., WIPA programs) for this 
information. In order to maximize limited staffing resources, Social 
Security seems to have provided special work rule training for some 
employees. Many of these employees are very knowledgeable and helpful, 
but they are too few for the need and beneficiaries and those who work 
with them still get work rule information from less well trained staff, 
resulting in inconsistencies, omissions and even errors.
    In addition, beneficiaries, representative payees, and community 
agencies providing services to disability benefit recipients must 
receive accurate and consistent information about the effect of work on 
benefits and how and when to report work. One example of this need 
involves beneficiaries who incur Impairment Related Work Expenses 
(IRWEs), extra out of pocket expenses for disability related items and 
services they need in order to be able to work. The work rules allow 
these beneficiaries to deduct the monthly cost of IRWEs from gross 
earnings before the earnings reduce their benefits. Yet, many 
beneficiaries do not hear about this and other beneficial rules that 
can ease the transition to work at a time when they can take advantage 
of them. For example, the lack of timely information about IRWEs may 
mean that beneficiary does not have the necessary receipts to verify 
the expenses, losing the value of the IRWE deduction. Other common 
misconceptions include thinking that Social Security looks at net, 
rather than gross income, that beneficiaries receive a new trial work 
period with every work attempt, and that the Ticket to Work means that 
the old rules about work do not apply.
    Recipients must also receive accurate and timely information about 
when and where to report work. Common misconceptions about reporting 
include: (1) paying FICA on earnings is the same as reporting work; (2) 
reporting means responding to Social Security's requests for 
information; and (3) my representative payee must make all my reports 
to Social Security. Social Security must regularly provide simple and 
clear messages to beneficiaries that it is not enough for, e.g., SSI 
recipients to wait for the yearly eligibility review to report work. In 
addition, Social Security staff must stop telling beneficiaries with 
representative payees that only their payees can report their work. In 
one recent case, a young man with a developmental disability who is his 
own guardian kept incurring overpayments he did not understand because 
his payee, a community organization, did not report his work. When he 
had tried to report work on his own he was sent away and told that his 
payee had to make the report. The lawyer who was helping him with an 
overpayment insisted that he had the right to make the work reports and 
that he must do this, but he was afraid to return to his local Social 
Security office. Finally his lawyer made an appointment to go with him 
and arranged for him to have pre-addressed envelopes in which to submit 
his monthly pay stubs to Social Security. This was a great result but 
it should not have taken a lawyer to work this out for this young man. 
Social Security should make it easy for all recipients to report work.
    Beneficiaries who report work now receive a receipt to show that 
the report was made and notations seem to reliably be made in the 
individual files. This is a great improvement, but more needs to be 
done. When beneficiaries come in to report work, that's a great time to 
take the opportunity to make sure that they understand the work rules 
relevant to their benefit or refer them to, e.g., their WIPA program. 
We believe that more beneficiaries will feel comfortable attempting 
work if they feel welcomed when they report work and are provided with 
accurate and timely information on which they can rely. The final piece 
is that Social Security must make timely benefit adjustments and 
provide accurate notices to reduce overpayments.
Solving the Overpayment Problem Requires that Social Security Have 
        Sufficient Staff To Work in a Timely Manner on Post-Entitlement 
        Matters, Including Reports of Work
    Social Security must have the resources to respond to reports of 
work with timely and appropriate adjustments of benefits. Anything else 
feels arbitrary and capricious, creates overpayments and discourages 
work. Most beneficiaries do not understand what should happen to their 
benefits and when. They rely on Social Security to do its job to make 
the adjustments if they have done theirs by reporting. Social Security 
must also immediately solve the completely preventable problem that 
arises when local Social Security offices are organized so that some 
employees work only on SSI and others work only on Title II. We have 
all seen overpayment cases where a beneficiary has reported work, only 
to find out much later when the large overpayment notice arrives that 
only the SSI worker or only the SSDI worker received the work report. 
Social Security must either clearly tell recipients to whom they must 
report and when or make sure that reports of work are forwarded to all 
relevant workers for benefit adjustment.
    Title II overpayments are often the largest and the hardest to deal 
with, in part because of the complexity of the work rules. In addition, 
these cases seem to be handled by special cadres or in the Payment 
Centers. It is our experience that cases seem to sit in these places 
for a long time and that it is impossible to communicate with or get 
any information from these places. Indeed, local Social Security staff 
have told us the same thing.
    Finally, Social Security notices do not explain the work rules well 
and generally lack sufficient information to determine the reason for a 
change in benefits or the cause of overpayments. Payment Center notices 
and Title II work related overpayment notices are especially bad. We 
are pleased to note that Social Security also recognizes that its 
notices need improvement and has already begun working on solutions. 
Social Security must have the resources to continue this work.
Examples of Why Social Security Needs Resources To Do Timely Post-
        Entitlement Work
    The following are examples of cases we have seen where overpayments 
and disruption to beneficiaries could have been prevented or reduced.
    Mary, a recipient of SSDI, went to her local Social Security office 
to report work about 2 weeks after finding a job. She did not 
understand all the ins and outs of the trial work period, extended 
period of eligibility and substantial gainful activity, but she did 
know that it was important that Social Security know that she was 
attempting to work. Local office staff told her that the report would 
be logged in and she would be contacted. When she did not hear 
anything, she called the 800 number. The person to whom she spoke said 
there was no record that she had reported work and sent her a Work 
Activity Report form to complete. Mary completed the form and took it 
to her local Social Security office. She heard nothing further until 
she received a Notice of Change in Payment, which said that her SSDI 
benefits were increasing due to her earnings. She believed that this 
notice meant that Social Security knew she was working and that she was 
entitled to the benefits she continued to receive. Unfortunately for 
Mary, she did not know that this notice was from a part of Social 
Security that updates primary insurance amounts and not from those that 
are charged with deciding when work should result in stopping her 
benefits. Mary did not learn this until she received notice that she 
had been overpaid $14,000 and contacted a legal aid lawyer. She is no 
longer working.
    Walter, an SSDI recipient with psychiatric disabilities, started 
attempting work after receiving benefits for 3 years. He worked part-
time sporadically, very occasionally exceeding the substantial gainful 
activity level by small amounts, due to his disability, and there is no 
dispute that he reported his work attempts. He also had no accurate 
understanding as to how the trial work period and extended period of 
eligibility worked or applied to his earnings. One day, Walter received 
a notice terminating his benefits retroactively to a month 6 years 
prior and a notice that he had been overpaid $115,000. It turned out 
that Walter had earnings just over the substantial gainful activity 
level in that 1 month, which was after the end of his extended period 
of eligibility. This meant that, despite his reports of work and 
unbeknownst to him, he had not been entitled to any of the benefits he 
had received since that month 6 years earlier. This caused Walter 
extreme stress and his psychiatric status still has not returned to the 
level he had achieved prior to receiving the overpayment notice. He is 
currently unable to work.
    June became eligible for SSI and SSDI in the early 1990s due to a 
combination of psychiatric disabilities, including a Personality 
Disorder. She was a young person then and made a number of work 
attempts. There is no record that she reported her work attempts and 
June herself no longer remembers. However, the record does show that, 
in early 1998, Social Security asked her for information about wages 
posted to her earnings record. The notice stated that Social Security 
was checking to see whether she was still eligible for benefits. She 
provided the information and did not hear from Social Security again 
until 2003, again asking about her work. Again she responded. She next 
heard from Social Security in 2005, again asking about work. Again she 
responded. Finally, in 2008, she received notice from Social Security 
stating that her extended period of eligibility had ended in September 
1996 and that she had been overpaid $90,000. Social Security recently 
completed a continuing disability review finding that she continues to 
meet the medical disability standard. She is not working.
    George became eligible for SSDI in 1995 due to psychiatric 
disabilities. Four years later he felt stable enough to attempt part-
time work. He is well educated, knew he knew he had to report, and 
asked questions about the ongoing effect of work on benefit 
eligibility. He worked part-time on and off as his condition permitted 
and reported the stopping and starting of work at his local Social 
Security office. Each time he says he was told that his part-time work 
would not affect his benefits. In 2003, he reported that he was going 
full time, but the full time work proved too much and he experienced an 
exacerbation of his condition, stopping work after only 5 months. Then, 
in 2004, he received notice that he had been overpaid $56,000 (almost 3 
years worth of benefits) and was determined at fault for not reporting 
his work attempts. The decision ignored the frequent communications 
with his local office whenever his work status changed and also failed 
to give him the benefit of the IRWE rules. At his own expense he has 
had to engage an attorney to appeal the decision. The experience has 
been extremely troubling to George and he now is reticent about 
returning to any work for fear of triggering more problems with his 
benefits.
    In conclusion, we understand that recipients who work will 
necessarily be overpaid because it is currently impossible for Social 
Security to pay the correct benefit in each month. However, recipients 
must be informed of this and must know how to reduce overpayments 
through reporting and understanding the relevant work rules. Social 
Security must have the resources to make sure that recipients 
understand when and how to report and understand how the work rules 
apply to their benefits. Finally, Social Security must have the 
resources to timely respond to reports of work by making timely 
adjustments of benefits. We urge you to help ensure this result.
    Thank you very much for this opportunity to provide this testimony.

            Respectfully submitted,

                                                      Linda Landry,
                             Senior Attorney, Disability Law Center
                      11 Beacon Street, Suite 925, Boston, MA 02108

                                                    Sarah Anderson,
                   Managing Attorney, Greater Boston Legal Services
                                197 Friend Street, Boston, MA 02114

                                                     Teresa Lacava,
         Senior Paralegal, Legal Assistance Corporation of Central 
                                                      Massachusetts
                    405 Main Street, 4th Floor, Worcester, MA 01608

                                              Mark Bronstein, Esq.,
                                       Law Office of Mark Bronstein
                                288 Walnut Street, Newton, MA 02460

                                 <F-dash>
                       Statement of Marion Moore
    As a mental health advocate I see many people who are excited about 
returning to work and others who have returned unsuccessfully and now 
have to make payment to SSA for 30 years or more. It seems apparent to 
me that the Committee understands and is reaching out to these two 
groups. There is a third group which I believe it is important to 
address--people who prefer to stay in the workforce rather than go on 
Social Security.
    I see a large number of people who take pride in their employment 
yet cannot access mental health treatment. Receiving early and timely 
treatment can prevent disability. As you may know the number of people 
with a mental illness has increased as a percentage of the total number 
of people collecting disability payments. If we recognize that some 
disabling illnesses are nonlinear and may be preventable, perhaps the 
rate of people on disability would level off.
    Obviously a good community mental health system or universal 
coverage would also help but I believe that it is the responsibility of 
the SSA and the Committee to show the American public that they are 
aware of this situation and are advocating for change.

            Sincerely,

                                            Marion Moore, President

                                 <F-dash>
               Statement of Paralyzed Veterans of America
    Paralyzed Veterans of America (PVA) is pleased to submit these 
comments on the Social Security Administration's (SSA) employment 
support programs for disability beneficiaries, with particular focus on 
the Ticket to Work program (TTW) authorized under P.L. 106-170. PVA is 
the only congressionally-chartered veterans' service organization 
exclusively dedicated to serving veterans with spinal cord injuries 
and/or dysfunction.
Background on PVA Vocational Rehabilitation Program
    Most studies on vocational adjustment for persons with spinal cord 
injury and/or dysfunction (SCI/SCD) report relatively low rates of 
employment. PVA estimates that 85% of veterans with SCI/SCD are 
unemployed. The employment rate for veterans with SCI/SCD not only lags 
behind the general population, but also falls short when compared to 
the greater population of veterans with disabilities.
    To address this dire situation, in 2007, PVA launched a vocational 
rehabilitation (VR) program under its Veterans Benefits Department 
(VBD) to serve veterans with severe disabilities, service-connected and 
non-service-connected. PVA's first VR counselor is himself a veteran 
with a spinal cord injury who personally understands the unique 
challenges faced by veterans with this condition. He also has access to 
PVA's nationwide network of National Service Officers and chapters who 
can provide additional referral resources, peer counseling and 
troubleshooting.
    Working with the Richmond, Virginia Veterans Administration medical 
center (VAMC) rehabilitation personnel, PVA's counselor seeks to 
introduce employment expectations into the achievement of medical 
rehabilitation goals. He contacts each new case of a veteran with SCI 
or SCD admitted to the center, follows up with them every 6 months to 
ascertain their interest in employment and at 18 to 24 months post 
injury, increases those contacts to every 3 months.
    His case management includes referral to service providers, regular 
communication with the client, mentoring by working veterans with SCI/D 
and extended followup once employment is attained. He has developed 
relationships with several hundred employers around the country, 
educating them on working with employees with these disabilities and 
following up with those that hire a veteran to respond to any questions 
or problems that arise.
    There are a number of advantages in the approach being taken by the 
PVA VR program. One key is early intervention. Many PVA members have 
long criticized the fact that they received little to no information 
about the possibility of returning to work as they went through medical 
rehabilitation. For many, it was months or even years after they left 
the VA medical center's SCI unit before they heard about the VA 
vocational rehabilitation and employment program (VR&E). The 
collocation of PVA counselors within the VA medical facility allows 
them to begin the conversation about employment with injured veterans 
at the start of their medical rehabilitation.
    Second, because the funding for PVA's program is private and 
dependent on corporate largesse, this forces the PVA counselors to 
utilize existing resources from all aspects of the rehabilitation 
field. These counselors can then serve as a liaison for the veteran 
client between community rehabilitation programs, State VR or VA VR&E 
depending on the veteran's particular situation. Recognizing the value 
of this program, Virginia's Department of Rehabilitative Services 
assigned its own liaison to our Richmond program and sponsors joint job 
clubs each week.
    Third, PVA's program is more flexible than many government 
programs. To enter a State VR or VA VR&E program, a person must undergo 
a long, complex application and eligibility determination process. If a 
veteran comes to the PVA program, all he/she needs is a power of 
attorney. Our counselors can begin serving them with vocational support 
while helping them begin the admission process to State VR or VR&E. 
While those formal applications are moving through the bureaucracy, PVA 
counselors can still work with the veteran. And if a veteran wants 
immediate employment, the PVA counselors can assist with that without 
having to take them through the formal eligibility determination 
processes of VR and VR&E.
    Beyond Richmond, Virginia, the program today has offices in 
Minneapolis, Minnesota and San Antonio, Texas. PVA has plans to open a 
fourth Vocational Rehabilitation Services office in Long Beach, 
California in the near future. Since its inception, PVA's VR program 
has served 324 veterans with severe disabilities and placed 50 in an 
employed status, with most of them being full time. Average annual 
salary exceeds $38,000.
PVA Becomes an Employment Network
    In 2007, PVA met with officials of SSA to discuss the possibility 
of its VR program becoming an employment network (EN) with the SSA 
Ticket to Work program. Since most veteran clients of PVA are also 
recipients of Social Security Disability Insurance (SSDI), it made 
sense to explore the merits of the Ticket program and how it might 
benefit PVA's VR efforts. Because the regulations were in flux at the 
time, PVA held off on applying to become an EN until the regulations 
were finalized. In October 2008, PVA became an employment network with 
the Ticket to Work program.
    PVA is still very new to the TTW process and is currently serving 
seven ticketholders. We have not yet reached the point where we have 
made payment requests and thus cannot comment on that part of the EN 
experience. However, we can offer the following observations on our 
experience in applying to become an EN in the hope that some of the 
stumbling blocks we encountered can be alleviated for other VR 
providers.
    Completing the contract to become an EN is not an easy process. The 
management of PVA's VR program has suggested that applying to become an 
EN might work better if it is a grant process, rather than a contract 
process. CESSI--the contractor hired by SSA to deliver outreach 
services and supports to prospective ENs--proved to be very helpful to 
PVA's VR program. CESSI staff provided very good training and their 
consultants were able to answer questions in a thorough and timely 
manner. Unfortunately, prior to engaging CESSI, the assistance provided 
by SSA on completing the EN contract was inconsistent at best.
    As noted above, PVA is currently serving seven ticketholders that 
are working under individual work plans [IWPs] developed by our 
counselors and approved by SSA. The TTW work approval process is very 
labor intensive and time-consuming on the part of PVA's VR counselors. 
To see if a veteran is a valid ticketholder and to determine if an IWP 
is approved, the counselors are asked to fax and/or email at least 
twice for each ticketholder and more times if any changes to the IWP 
are needed. The counselors also often need to follow up with phone 
calls to SSA to check on approvals. At the request of SSA, PVA has had 
to change its approved IWP template three times since its first version 
was approved. Bear in mind that PVA's Ticket program has only been in 
operation for a little over 7 months. Most of the changes involved 
adding statements to the work plan. This has caused a lot of 
frustration on the part of our VR counselors who have had signed plans 
returned from SSA with new requirements for additional statements from 
the client to be added to the IWP. This compels our counselors to redo 
the work plan and obtain new signatures from our veteran clients who do 
not always reside close to the counselors' offices. Moreover, PVA's 
counselors have expressed concern that SSA has added so many required 
statements to the IWP, that it may be overwhelming to some of the 
veterans with whom they work.
    In addition, in order to make the employment plan templates more 
accessible to our VR counselors, PVA downloaded the template onto the 
PVA website portal. Whenever SSA changes the requirements for the 
employment plan, PVA's information technology department must take the 
form off the portal and make the changes. This creates a lot of 
redundant effort for PVA's IT department and VR staff.
    To date, VBD estimates that the PVA VR program has spent 50 staff 
hours working on TTW and without any funds coming in to offset these 
costs. There is concern among the VR program management that the work 
to support the Ticket process will outweigh the benefit of the funding.
    As noted in our earlier description of PVA's VR program, one of its 
advantages is the greater flexibility it has than many government 
programs. PVA can serve veterans with disabilities without becoming 
mired in government red tape. A major goal of PVA's Vocational 
Rehabilitation Services program is to reduce the administrative burden 
on the counselors as much as possible to help improve our vocational 
services and outcomes. If serving these veterans through Ticket to Work 
becomes excessively burdensome, PVA may need to reconsider its 
participation in the program.
    Thank you for the Committee's interest in the Ticket to Work 
program and attention to PVA's concerns. We would be happy to answer 
any additional questions that the Committee may have.

                                 <F-dash>
            Statement of Paula Vieillet, Employment Options
    My name is Paula Vieillet and I am the CEO of Employment Options, 
Inc. I personally have been involved in the Ticket to Work program 
since 2002. I started providing TTW services as an addition to my work 
as a certified vocational evaluator. I am particularly good at job 
placement and the ticket appeared to provide a great residual income 
stream and provide just the kind of opportunity that entrepreneurs in 
the true spirit of America need. It has not been an easy journey 
financially, but very rewarding. Helping disabled individuals see their 
vocational potential and go to work is a great feeling. Over 200 
ticketholders have returned to work through my Employment Options 
Employment Network.
    We had a difficult time financially with the extremely low 
reimbursement rates prior to the new regulations of July 2008. To 
illustrate this, in 2006, we signed up 103 ticketholders and 41 of our 
ticketholders went to work. We screened, counseled and provided 
professional, practical and moral support to hundreds of ticketholders 
without any guarantee of ever being compensated. My staff and I put in 
countless volunteer hours as we believe in the mission of the Ticket 
program. Being outcome based, until a person is working, getting paid 
and submitting paystubs to us and SSA, Employment Networks are not paid 
a penny. At the end of 2006 we had lost money on the Ticket program. 
Our total TTW earnings of $69,000 just didn't cover our costs.
    Since the new regulations went into effect, we have become a 
profitable and booming business.
EARNINGS VALIDATION
    There remain some glitches in the program; payments continue to 
come in very slowly. SSA has been most responsive, but the payment 
process is cumbersome and presents our biggest obstacle to continued 
growth and sustainability. Our clients who work and who are no longer 
receiving cash benefits, do not understand and resent having to send 
their paystubs to EN's and the SSA. Many times, we lose contact with a 
client over this issue and more than once, a ticketholder's job has 
been jeopardized by attempts to collect paystubs from the employer.
    We coach our clients to find jobs within their abilities and that 
the ADA protects them from disclosing their disability to a prospective 
employer. Most of our clients' employers do NOT know that their new 
employee is a Social Security recipient and our ticketholders do NOT 
need or want to disclose this information to them.
    The requirement that ticketholders submit evidence of earnings once 
the ticketholders' cash benefits have been suspended burdens both EN's 
and the SSA. With a reduction in workload created by these reporting 
requirements, SSA staff would have more time to ensure that payments 
are stopped once the 9-month trial work period is completed. Assuming 
that a ticketholder continues to work instead of chasing paystubs would 
reduce overpayments to Social Security recipients.
    It still remains the Social Security recipients' responsibility to 
report changes in work activity if they want their payments to start 
back up after an unsuccessful work attempt. A SSA recipient will be 
sure to call the SSA if their check did not arrive as expected. 
Overpayments to EN's can be easily recovered by deducting overpayments 
from subsequent payments.
UNDERSTANDING BENEFITS STILL BARRIER TO EMPLOYMENT
    What continues to be a major barrier to employment is that most 
ticketholders do not understand how their benefits will be affected if 
they return to work. We do refer people to the WIPA's for help, but 
often the wait time is excessive. No matter how many times we explain 
the trial work period, it still helps to have an official from SSA 
confirm how this program works. Our experience with the PASS program is 
similar. Both of these programs, in my opinion, provide much needed 
services to disability recipients but caseworkers seem to have more 
requests for help than they can reasonably handle.
WHY THE TICKET TO WORK PROGAM SHOULD CONTINUE
    The Ticket to Work program is a great program and should continue. 
EN's across the United States volunteer their time and resources to 
ticketholders without any guarantee of ever being compensated.
    We estimate that for every person who returns to full-time 
employment the Social Security Administration no longer has to pay out 
$700.00+ a month saving our country millions of dollars. In my 
experience, people who return to work also utilize less medical 
services, mental and physical; generating another `hidden cost 
savings.'
EFFECTS OF NEW REGULATIONS
    According to SSA, 2009 statistics reveal a huge increase in the 
number of tickets being accepted and a whole new slew of EN's ranging 
from traditional providers, VR and nonprofit agencies to employers, 
staffing services, private rehabilitation counselors and schools. This 
diversity of providers is the intent of the Ticket to Work program and 
it is succeeding in reducing the number of beneficiaries receiving SSI, 
SSDI and Medicare benefits. The TTW program just needs more time to 
prove itself.
DISABILITY CAN HAPPEN TO ANYONE
    I am often asked what a ticketholder looks like. I then hold up a 
mirror. Illness and disability can and does affect persons from all 
walks of life. With the help of the Ticket to Work program, people who 
have lost their health, jobs and financial stability can reenter the 
workplace and become productive and self-sufficient. I thank the U.S. 
Ways and Means Social Security Subcommittee for your efforts and our 
opportunity to be of service to our country.

                                 <F-dash>
                      Statement of Peter Kierpiec
    I have, for your consideration, a suggestion to improve the Social 
Security Disability programs. My suggestion would require changes to 
the Social Security Act (Act) concerning disability beneficiaries' work 
after the Social Security Administration (SSA), i.e., the Commissioner, 
awards benefits.
    I believe the suggestions will please beneficiaries and their 
advocates and taxpayers. I believe the suggested amendments to the Act 
will save SSA resources, including thousands of work years, and allow 
SSA to divert those resources to other workloads (e.g., serving all 
beneficiaries, processing disability and aged benefits applications, 
and actions on awarded claims) more timely and efficiently. It will 
save administrative and program dollars.
    The suggestion will make Social Security Disability programs much 
easier for claimants, beneficiaries, and SSA employees to understand. 
This, in turn, will make the programs much easier to administer and 
much more efficacious to automate. At the same time, the suggestion 
will provide disability advocates, disability beneficiaries, and their 
caregivers something that they have desired for years, a safety net on 
which disability beneficiaries may rely and can understand. The 
suggestion will reduce or eliminate the work years needed to conduct 
continuing disability reviews (CDRs), and it will so simplify the 
processes that SSA will be able to automate work that currently 
requires thousands of work years to process.
    I believe my suggestion will save millions of program and 
administrative dollars! (OK, I am being redundant, but to emphasize the 
points.)
    The three integral pieces of the suggestion are as follows, and the 
three must occur together to achieve the outcomes and savings described 
above:

    <bullet>  (1) Once the Commissioner awards benefits based on 
disability (including blindness) to an applicant, the beneficiary's 
disability benefits shall continue until the individual:
      <bullet>  (a) Shows medical recovery to the extent necessary to 
perform substantial gainful activity (SGA).--[This is consistent with 
existing provisions under the Act; disability benefits end when as a 
result of a medical continuing disability review, SSA finds the 
individual's condition improved, based on the medical improvement 
review standard (MIRS).]; or
      <bullet>  (b) Attains 65 or full retirement age (whichever is 
later).--[This is according to existing provisions under the Act.]; or
      <bullet>  (c) Dies.--[This also is according to existing law.]

    NOTE: Section (1) above means that a beneficiary's disability 
benefits will not ever end because s/he worked and performed SGA, with 
one exception. The exception applies if the individual returned to SGA 
within 12 months of disability onset. [This is consistent with existing 
provisions under the Act.] That is, if SSA issues a disability award 
notice to an individual, and SSA later learns that the individual 
returned to work within 12 months of disability onset, then SSA must 
reopen the award decision and deny the claim.
    NOTE: Implementing item (1) above, would be a cost if items (2) and 
(3) below are not included in the amendments to the Act, and items (1) 
and (2), above, are the sweetener for item (3) below.

    <bullet>  (2) For any work and earnings over a certain limit (the 
amount and language to be determined and provided by SSA's Office of 
the Actuary and Office of the General Counsel, respectively), apply a 
reduction to the monthly disability benefits by 1 dollar for every 
``X'' dollars over the ``earnings limit.'' SSA's Office of the Actuary 
would determine the amount of the benefit reduction (e.g., 1 dollar for 
every $1.50, $2, $3, or other (``Y'') dollar amount over the ``earnings 
limit.'')
      <bullet>  (a) If an individual earns so much as to result in 
reducing his/her cash benefits to zero for a month, then the 
beneficiary will receive no (will not be due) cash benefits for that 
month, and if the beneficiary is entitled to Medicare, the beneficiary 
would have to pay the full Medicare premium for that month.
      <bullet>  (b) If an individual's earnings for a month would not 
reduce his/her cash benefits to zero for a month and the beneficiary is 
entitled to Medicare, then the beneficiary must pay the balance due for 
his/her Medicare premiums, after SSA first uses any cash benefits due 
the beneficiary for that month to pay or reduce the amount of the 
individual beneficiary's Medicare premiums.

    NOTE: This ``earnings limit test'' for disability beneficiaries 
would work and function much like the annual earnings (or retirement) 
test worked under the Retirement and Survivors Insurance program. For 
example, disability beneficiaries who return to work would estimate 
their earnings for a given calendar year at the beginning of that year 
(or as soon as they return to work in a year for the remainder of that 
year). SSA would withhold benefits, if necessary, based on such an 
estimate. Final accounting for a given year would occur when the 
disability insurance beneficiaries submit their true earnings report 
for a calendar year by April 15 of the following calendar year.
    NOTE: Implementing item (2) above, may be a cost, if item (3) below 
is not included in the changes.

    <bullet>  (3) Eliminate ALL work incentives, which are essentially 
adjustments to income to mollify the SGA earnings limit, because SGA 
would no longer be a factor in determining if entitlement disability 
insurance benefits continue. The new ``earnings limit'' and cash 
benefit reduction would take the place of all work incentives, 
including the Ticket to Work. This would make the disability programs, 
under Title II and Title XVI of the Act, simpler for claimants and 
beneficiaries to understand and for SSA to explain, administer, and 
automate. Eliminate all work incentives, including:
      <bullet>  The trial work period and trial work period month 
earnings limit (Title II).
      <bullet>  Impairment-related work expenses earnings reduction 
(Titles II and XVI).
      <bullet>  Blind work expenses earnings reduction (Title XVI).
      <bullet>  SGA as a CDR earnings test (Title II).
      <bullet>  Subsidy and special conditions earnings reduction.
      <bullet>  Expedited reinstatement.
      <bullet>  Ticket to Work, including contracts to employment 
networks, cooperative agreements with work incentives planning and 
assistance organizations, and other grants and contracts (Titles II and 
XVI).

    The existing disability work incentives are difficult for SSA 
personnel and others to understand and for SSA to explain. As a result, 
beneficiaries do not often use the work incentives. And when 
beneficiaries do use them, SSA spends many man-hours and work years 
verifying the work incentive(s) and determining the amount of the 
benefit of the work incentive(s) to the beneficiary.

    The Ticket to Work Program has not ever and is not working. The SSA 
fully implemented the Ticket to Work Program nationwide in 2004, during 
a time of supposed American prosperity. Yet, no more beneficiaries, in 
statistically significant percentages or numbers, return to work or 
work for the first time under the Ticket to Work Program than prior to 
its implementation in 2002.
    The Federal Government could save millions in disability Trust Fund 
and general fund program and administrative dollars eliminating the 
Ticket to Work Program. If a program similar to the Ticket to Work 
should exist anywhere, it should exist in either the Department of 
Labor or the Rehabilitation Services Administration. However, I repeat 
the numbers show after almost 10 years the Ticket to Work Program is 
not working.

    Titles II and XVI would be and would appear more similar in ways 
SSA would handle disability work issues after SSA awards disability 
benefits, making the programs easier to explain, administer, and for 
the public to understand.

    Disability beneficiaries, their caregivers, and advocates would 
celebrate enactment and implementation of the above changes. This would 
give them what they have desired and have been requesting for decades, 
a dependable safety net of medical insurance and cash benefits, when it 
is required.

    These changes would have to be marketed to disability 
beneficiaries, their advocates, and the public to ensure everyone 
understands that the new earnings limit and benefit reduction factor 
(reduce monthly cash benefit by $1 for $X over the earnings limit).
    Thank you for your consideration of my suggestion. I understand the 
hard work Congress must perform to assist our economic recovery and in 
the near future to balance the budget.

                                                     Peter Kierpiec

                                 <F-dash>
                       Statement of Randall Bosin
    In the press release for the hearing Chairman Tanner says, ``Of 
course, the ultimate measure of success will be whether more 
individuals are able to return to work and end their receipt of 
benefits as a result of the Ticket and SSA's other employment support 
programs.'' And with this statement we have the central problem with 
the Ticket to Work Program--the conflict between Congress' goal of 
moving beneficiaries off benefits and the impracticality and 
inadvisability of giving up benefits for work for the vast majority of 
beneficiaries. In other words, the interests of Congress to save the 
Social Security Trust Fund money is fundamentally at odds with the 
economic and other interests of the vast majority of SSDI and SSI 
recipients such as myself. Hence the predictable failure of the Ticket 
Program to date in helping significant numbers of beneficiaries work 
AND go off disability benefits.
    Therefore, the first thing that is needed is for Congress to 
reexamine and modify the (its) purpose of the Ticket Program and other 
work incentives to be: Enabling the maximum number of beneficiaries to 
work and earn the maximum amount they can, WHETHER OR NOT THEY REMAIN 
ON THE DISABILITY ROLES. Enabling and facilitating a much higher 
percentage of beneficiaries working at all or increasing their earnings 
(or profits from self-employment) rather than moving a tiny fraction of 
beneficiaries off of benefits entirely (as anticipated by ``the 
experts'' when the Ticket Program was developed) would (a) benefit far 
more beneficiaries and (b) may well generate greater total savings, at 
least to the Social Security Trust Fund. If it is now the 
Administration's position that we must move to universal health care 
coverage, even the goal of trying to eventually move beneficiaries out 
of Medicare or Medicaid coverage doesn't make sense. After all, these 
are among those who are likely to have the greatest need for ongoing 
health care coverage and treatment for disability-related medical 
issues.
    Beyond changing the very purpose of the misleadingly advertised 
Ticket Program, there are other obvious and more basic and important 
changes needed in the other work incentives and policies related to 
beneficiaries who work. These include:

    1.  Raising the earned and unearned income exclusions (which have 
never been raised and thus never adjusted for inflation).
    2.  Removing the SSDI cash-cliff and substituting a gradual 
decrease in SSDI benefits with increased earnings. (I suggest counting 
1 dollar for every 4 earned, AFTER excluding the first $400 to $500 of 
earnings).
    3.  Making continuation of Medicare or Medicaid a noncontingent 
guarantee, certainly at least with respect to any disability-related 
health care costs. Any form of contingency--be it based on income, 
assets, whether the employer provides insurance, disability status, 
etc.--will not, and should not, be trusted by beneficiaries, due to the 
complexity and unanticipated consequences of changing circumstances. 
Beneficiaries have fluctuations and relapses related to their 
disability and ability to work or work significantly. Jobs change or 
drop health care. Beneficiaries' income and/or assets change. Making 
needed health care contingent on these or ANY factors is nonsensical. 
The only thing that both makes sense and is fair and ethical is to 
provide needed health care to disabled persons, period; not contingent 
on any other factor or circumstance.

    I could go on with other suggestions, but will just give one more 
for now: It is imperative for Congress and other policymakers to seek 
out and hear from longstanding beneficiaries such as myself, who have 
the true expertise of experience, and not just with the disability 
programs, but of the totality of the impact on Federal, State, county 
and other benefits, programs, services and eligibilities that working, 
working more or increasing one's earnings or assets can have. From my 
observation at Social Security meetings, the ``experts'' on Social 
Security rarely have much awareness, let alone the comprehensive 
perspective of, the effect on the individual beneficiary who is often 
simultaneously dealing with various other governmental and private 
programs, each with their own rules, ways of counting income, criteria, 
etc.
    In fact, this leads to one final recommendation, albeit one that 
goes beyond the purview of this Subcommittee: The imperative to 
establish a high-level Federal department of disabilities, with the 
statutory authority to coordinate all the various Federal policies and 
programs which disabled persons typically and frequently interact with.
    Thank you for considering my suggestions.
                                                     Randall Bosin,
                                              Chevy Chase, Maryland
                   SSDI and SSI beneficiary and disability advocate

                                 <F-dash>
                      Statement of Robert Wittmer
    During the hearing there were positive and negative statements made 
about the current Ticket to Work Programs under the Social Security 
Administration, specifically the employment support programs: The 
Protection and Advocacy for Beneficiaries of Social Security (PABSS) 
program, which provides advocacy services for beneficiaries who are 
attempting to work; and, the Work Incentives Planning and Assistance 
(WIPA) program. Our organizations, Austin Area Mental Health Consumers, 
Inc., Return to Work Program has been attentive and has attempted to 
access these programs with updates obtained through teleconferences and 
webinars. WIPA program has been helpful, although we have not been able 
to fully implement this program in our core: Texas Austin-Travis Mental 
Health Mental Retardation (MHMR) funded for clients and Texas 
Department of Assistive Rehabilitative Services. This program was 
created to help beneficiaries navigate Social Security's complex maze 
of work incentive policies; also, we recognize the overburdened SSA 
field office staff are often not able to provide the indepth, one-on-
one assistance to beneficiaries, therefore we are able to facilitate 
and bridge the gap. We understand the need to fully inform clients 
about work incentives and some effects that working would have on their 
benefits including well-being. Work is used as therapy for many of our 
clients. Under the WIPA program, this critical personalized assistance 
is provided by community-based organizations, such as Austin Area 
Mental Health Consumer's, with funding from SSA. Since this is a new 
component of our program our success rate has been flat, about 5%.

                                 <F-dash>
          Statement of Stephen J. Mitchell, Unum and Lara Heal
    Unum and its employees thank you for the opportunity to discuss the 
importance of providing timely, high quality return-to-work services to 
disabled individuals with the goal of successfully reintegrating them 
into the workforce. Unum believes that many of the tools which it uses 
to accomplish this goal may offer some guidance to the Social Security 
Administration as it addresses return-to-work efforts on behalf of its 
own disability claimants.
About Unum
    Unum is a market leader in disability, group life, long-term care 
and voluntary benefits insurance. Unum has been the number one group 
long-term disability carrier in the United States for 32 consecutive 
years, providing benefits to 42% of Fortune 500 companies.
    Our companies protect more than 25 million hard-working people and 
their families. We process more than 400,000 claims every year, and we 
pay our insureds more than $6 billion in benefits annually. As an 
industry leader, Unum also offers its insureds significant experience 
and resources to support their return-to-work efforts.
    Unum's insureds appreciate the high quality services and support 
they receive from the company. Based on our recent national survey 
results:

    <bullet>  98% of our customers are likely to recommend Unum to 
others.
    <bullet>  94% of employers give our customer service team positive 
marks.
    <bullet>  9 out of 10 claimants say their claims were handled 
favorably.

Disability Insurance Provides a Financial Safety Net
    Economic times are tough. American's savings rates have dropped to 
historic lows. This creates a degree of financial vulnerability that 
means the majority of the workforce is unprepared for the potentially 
catastrophic expenses that come with injury or illness. There are also 
likely to be fewer jobs to return to as claimants try to reintegrate 
into the workforce after a period of disability.
    Many people are asking themselves:

    <bullet>  Can my family survive financially if I have a serious 
illness?
    <bullet>  If I am hurt, will it hurt my bank account, too?
    <bullet>  What would my family do without my income?
    <bullet>  Do I have benefits that could offer return-to-work 
assistance or financial help for me and my family if I could not work 
for a period of time?

    Most people who do not have disability coverage would need to draw 
down savings, borrow from credit cards, or ask friends or family to 
help support them, according to a recent study commissioned by Unum 
through Harris Interactive entitled Consumer Attitudes about Financial 
Products: Research Across the Generations.
    With these pressing issues facing working people and their families 
in today's economy, private disability insurance provides a critical 
safety net that ensures beneficiaries have the financial resources to 
meet their needs as well as advocates to help them successfully reenter 
the workforce.
    Disability benefit payments provide a financial bridge between the 
time when someone leaves work due to sickness or injury and the point 
they are able to return to the workforce. Private disability insurance 
covers many people who do not qualify for Social Security benefits, and 
supplements those benefits for those who do. Private disability 
insurance enables sick or injured people to buy food, pay their 
mortgages and pay other bills while they are out of work due to illness 
or injury.
    More importantly, private insurers like Unum also help people 
return to work while paying them a benefit.
Vocational Return-To-Work Programs
    Unum believes that the services the private sector provides to 
assist individuals in their return to work efforts are an important and 
significant element of our offerings. The safety net the private sector 
provides extends far beyond simply providing a benefit check to people.
    As you heard in prior testimony, people want to work, not only for 
economic reasons, but in order to be contributing members of our 
society. Unum's programs help people achieve this goal, while at the 
same time helping the government conserve scarce resources that are 
needed for people who do not have the ability to rejoin the workforce.
    While there are many facets to enabling individuals to return to 
work, the focus of our testimony is on four elements.
    These key components to successful return to work are all familiar 
to you based on the testimony you have heard from others and we would 
like to focus on how they could assist the public sector as viewed 
through the prism of the private sector. They include:

    <bullet>  Creating incentives for individuals to return to work;
    <bullet>  Developing relationships with individuals that help 
identify and create opportunities in alignment with their situation;
    <bullet>  Providing high quality services through knowledgeable and 
credentialed staff; and
    <bullet>  Partnering with the individuals and employers.

Incentives
    As others have testified before this Committee, an important 
element of facilitating a successful return to the workplace is to 
eliminate barriers and potential financial disincentives for the 
individual to return to work. Many of our products are designed to 
reduce or eliminate these barriers. Some of the relevant provisions are 
standard in our products, while others are options an employer can 
offer to its employees.
    A large proportion of disability insurance is provided as an 
employer sponsored benefit. In other words, the employer provides the 
venue for an employee to purchase the coverage, or even purchases 
protection directly for its workers. Disability insurance is a 
discretionary benefit that employers can choose to make available, 
often at an additional cost to their own bottom line.
    A significant provision in our offerings provides that an 
individual who returns to work in partial capacity may earn up to 100% 
of his pre-disability income for a fixed period after his return to 
work without a reduction in his disability benefit. This provision 
therefore removes any early financial disincentives for an individual 
to return to employment. Further, a provision for recurrent disability 
in the offerings assures that an individual who attempts to return to 
work, but finds he must leave employment due to the same cause, is not 
penalized by having to satisfy another waiting period before benefits 
resume.
    These provisions are similar to concepts discussed in other 
testimony before the Committee that the public sector utilizes or is 
considering for use. The difference is that the private sector has 
invested substantial capital and honed techniques over many years in 
order to determine the most efficient way to assist insureds without 
placing undue burdens or disincentives on their return to work efforts.
    Other provisions in our offerings are designed to support 
participation in rehabilitation programs. These include additional 
benefits for participation in a tailored rehabilitation plan, and 
benefits that reimburse expenses related to child care. Also available 
are additional benefits that assist with secondary education costs or 
funds to meet expenses associated with continuation of medical 
coverage.
    Product design also allows for monies to be available for worksite 
accommodation. This can reduce the financial burden either on the 
individual or the employer because we can provide adaptive devices and 
consultation around accommodations that may be necessary to return a 
person to the workplace.
Relationships
    Our claim specialists develop relationships with individual 
insureds to help them explore their motivations, interests and goals. 
The insured and the claim specialist work together to ensure that all 
pertinent medical and vocational information is properly documented. 
The relationship developed between the claim specialist and the 
insured, and the data collected, allow the claim specialist to identify 
and work with those individuals who want to benefit from a Unum 
vocational service based on the individual's future plans.
    If both parties agree to utilize vocational services, the 
relationship will continue as the individual works with one of our 
vocational professionals, who will also often have significant contact 
with them and work with them in programs discussed below.
Staff and Services
    There are many barriers to a successful return to work that must be 
overcome. A critical element of helping an individual successfully 
return to work is providing high quality services by well-trained 
professionals. These services take place in the context of an 
individually tailored program to meet the insured's needs and goals, 
and are backed by robust internal policies, procedures and quality 
review programs.
    Unum Vocational Rehabilitation Consultants (VRCs) have degrees in 
rehabilitation counseling or a closely related field, most are 
nationally Certified Rehabilitation Counselors, and all have experience 
helping employers hire workers with disabilities and matching these 
workers with appropriate jobs. In addition, our Vocational 
Rehabilitation Consultants work closely with our claim teams to ensure 
claim management and return to work assistance are being effectively 
coordinated.
    The Vocational Rehabilitation Consultants are expert at integrating 
and partnering with outside resources, such as State and Federal 
rehabilitation programs and rehabilitation counselors from public and 
private agencies, to develop efficient and effective individualized 
vocational rehabilitation programming/planning. This individualized 
plan reflects our knowledge of an individual's medical conditions, her 
capabilities and her skills and interests. The plan also is often 
structured to provide interim milestone events as a way to monitor 
progress.
    Services span a wide range, and are offered based on an assessment 
of the insured's needs. The scope of services most commonly employed 
are:

    <bullet>  Vocational Return to Work (RTW) Assessment: The 
Vocational Rehabilitation Consultant assesses the employee's 
employability potential by interviewing the employee and all 
appropriate health care providers to determine the employee's 
functional capacity for work, skill level for employment, career 
interest, and reemployment options in the labor market.
    <bullet>  Transferable Skills Analysis (TSA)/Vocational Analysis 
(VA): The Vocational Rehabilitation Consultant analyzes the employee's 
transferable (reemployment) skills to different types of employment 
situations by utilizing knowledge of the employee's education, 
training, work history, and professional accomplishments. A TSA/VA will 
yield a list of jobs that accommodate the individual's physical 
capacity for work, as well as the demonstrated level of skill.
    <bullet>  Job Goal Development: Partnering with the insured, Unum 
offers direct vocational counseling in which job placement goals are 
developed and agreed upon. This process can include vocational testing 
and vocational exploration activities (interest and ability testing, 
labor market research, etc.) before appropriate job goals are 
crystallized. Once a job goal is identified, an individualized written 
return to work plan is developed, which identifies the job goal, 
rationale for the job goal and responsibilities of all partners in the 
job search and placement activities. The plan places the responsibility 
for a successful return to work on all interested parties and is 
developed in a ``win-win'' spirit.
    <bullet>  Labor Market Survey (LMS): The Vocational Rehabilitation 
Consultant surveys the appropriate labor market for suitable 
reemployment options matching the employee's vocational and medical 
profiles and providing suitable commensurate wages.
    <bullet>  Job Search Skills Training (JSST): The Vocational 
Rehabilitation Consultant mentors and coaches the insured in specific 
job-seeking skills. These skills can include: Resume and cover letter 
development, completing an application, cold calling, interviewing 
techniques, appearance, discovering hidden job leads, using Internet 
job search engines, and posting an ``eye catching'' resume on the 
Internet.
    <bullet>  Job Placement: During the job development and placement 
phase of the return-to-work process, the employee and Vocational 
Rehabilitation Consultant collaborate at appropriate intervals on the 
job search results. Job placement efforts are documented by the 
Vocational Rehabilitation Consultant.
    <bullet>  Skills Enhancement: Identifying and helping to secure 
training as appropriate for return to work.

    Additionally and importantly, by working closely with an employer, 
a Vocational Rehabilitation Consultant can assist an employee in 
staying at work after the onset of an illness or injury, before a claim 
has been filed. This is a win-win situation as the insured is able to 
return to or stay in productive employment and thus presumably would 
never have to file a claim for Social Security benefits.
Employer, Employee and Insurer Partnership
    In many cases the individual may want to return to his or her 
previous employer in the same or a different role. This makes close 
partnership with the employer a significant factor in a successful 
return-to-work effort, and could be considered as an option by 
government entities as well.
    Many employers recognize the value of a trained and tenured 
employee, and work with us to partner on behalf of the individual.
    Working with an employer to facilitate a successful work return can 
take several forms. In some cases, a reduced schedule of work hours may 
be necessary while an individual returns to capacity to support a full 
work day. In other cases, it is possible to have an individual take a 
different role in the organization for a fixed period of time while he 
regains capacity. Sometimes, the new role becomes a permanent one.
    Employers may also partner with Unum and assist in providing 
adaptive equipment or other accommodations that allow individuals to 
function at a level needed to succeed in a role.
    For specific employers, based on their needs and requests, Unum 
will have experienced resources partner with them to assess the total 
impact to their operations of lost time from absences, and assess their 
practices with regard to absence management. This work has the 
potential to better inform the employer of the true and full cost to 
their business of disability, and to recommend changes in practice 
which can minimize that cost and create an environment that is 
conducive to a successful return to work.
Summary
    The private sector plays a key role in assisting disabled 
individuals in their return-to-work efforts. Through a combination of 
financial resources, individualized attention, and refined vocational 
techniques, private sector return-to-work support and services not only 
benefit individual insureds, but also help the Federal Government and 
the American taxpayer by working to reduce the number of people who 
need government benefits.
    By utilizing some of the innovative techniques, tools and resources 
from the private sector, we can help people receiving Social Security 
return to work. Even more importantly we may get people back to work 
before they ever need to take advantage of government programs. We 
assist with direct return-to-work efforts as well as helping the 
insured overcome various barriers, from navigating various Federal and 
State vocational programs to helping with ergonomic accommodations.
    This critical social safety net, paying people while helping them 
get back on their feet, helps ensure that many don't slip through the 
cracks and that they get the services they need to become productive 
workers again.
    We would like to thank the Committee for the opportunity to submit 
testimony and to consider the role the private sector can play in 
assisting claimants, the government and American taxpayers in getting 
people back to work. We would be pleased to continue to be available 
for any questions you may have. Thank you.

                                 <F-dash>
                       Statement of Victor Quibas
    I wanted to share some testimony from my personal experience using 
the ticket to work program. During the late 90s I was in a motorcycle 
accident that crushed lower vertebrae in my back and had left me 
partially paralyzed from the waist down. After 6 long months of 
surgeries and treatments I was able to gain mobility and walk.
    During this time period I was working for a very large 
manufacturing firm that required long periods of time standing and 
walking. When I went back to work the company was unable to accommodate 
me with a sitting position. Unfortunately I worked as long as I could 
and was unable to resume my regular duties. I had to leave my job and 
apply for Social Security disability benefits.
    It was a very long process but I was able to receive Social 
Security disability benefits. Even though I was very thankful to be 
receiving this income, the payments I received monthly were barely 
enough to maintain bills. It was a constant struggle to survive. With 
this being said, having a wonderful spouse and two young children we 
could not afford to enjoy the simple things in life such as eating out 
or going to the movies.
    One day when going to church my wife Karla met a man who told her 
about the ticket to work program and asked her to share the information 
with me. After Karla shared the information with me I was hesitant to 
reach out to the program in fear of losing the benefits we had, but 
with Karla's support and encouragement I went to Goodwill of Central 
Arizona and enrolled in the ticket to work program and the customer 
service skills classes that would teach me needed service skills and 
resume writing and interviewing techniques.
    During the orientation process I was assured that I would retain my 
benefits for a period of time and had found gainful employment. I 
graduated from the class and went out to find work searching for jobs 
by bus transportation. Proudly, I can say I found a great job here at 
the Pointe Hilton as a resort operator and have been here for over 5 
years and have been promoted to communications supervisor and have 
confidence I will become communications manager. Truly, I want to 
convey that the ticket to work program does work and my experience with 
it has been extremely positive. I can say that it has helped me and my 
wonderful family regain our lives and become self-sufficient. Thank you 
for hearing my testimony.

                         Victor and Karla Quibas, Nick and Veronica

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
